<html>
<title> - CONFIRMATION HEARINGS ON FEDERAL APPOINTMENTS</title>
<body><pre>[Senate Hearing 109-397]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 109-397 Pt. 3
 
             CONFIRMATION HEARINGS ON FEDERAL APPOINTMENTS

=======================================================================

                                HEARINGS

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               ----------                              

     FEBRUARY 7, FEBRUARY 15, MARCH 1, MARCH 14, AND MARCH 29, 2006

                               ----------                              

                           Serial No. J-109-4

                               ----------                              

                                 PART 3

                               ----------                              

         Printed for the use of the Committee on the Judiciary

             CONFIRMATION HEARINGS ON FEDERAL APPOINTMENTS


                                                  S. Hrg. 109-397 Pt. 3

             CONFIRMATION HEARINGS ON FEDERAL APPOINTMENTS

=======================================================================

                                HEARINGS

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

     FEBRUARY 7, FEBRUARY 15, MARCH 1, MARCH 14, AND MARCH 29, 2006

                               __________

                           Serial No. J-109-4

                               __________

                                 PART 3

                               __________

         Printed for the use of the Committee on the Judiciary


                    U.S. GOVERNMENT PRINTING OFFICE
38-736                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
           Michael O'Neill, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                            FEBRUARY 7, 2006
                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas........     1
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   158

                               PRESENTERS

Rockefeller, Hon. John, a U.S. Senator from the State of West 
  Virginia presenting Thomas E. Johnston, Nominee to be District 
  Judge for the Southern District of West Virginia...............     2
Capito, Hon. Shelley Moore, a Representative in Congress from the 
  State of West Virginia presenting Thomas E. Johnston, Nominee 
  to be District Judge for the Southern District of West Virginia     3
Fortuno, Hon. Luis G., a Representative in Congress, and Resident 
  Commission, from the Commonwealth of Puerto Rico presenting 
  Aida M. Delgado-Colon, Nominee to be District Judge for the 
  District of Puerto Rico........................................     4

                       STATEMENTS OF THE NOMINEES

Batten, Timothy C., Sr., Nominee to be District Judge for the 
  Northern District of Georgia...................................     7
    Questionnaire................................................     8
Delgado-Colon, Aida M., Nominee to be District Judge for the 
  District of Puerto Rico........................................    87
    Questionnaire................................................    88
Gordon, Leo Maury, Nominee to be Judge of the United States Court 
  of International Trade.........................................    63
    Questionnaire................................................    64
Johnston, Thomas E., Nominee to be District Judge for the 
  Southern District of West Virginia.............................    31
    Questionnaire................................................    32

                       SUBMISSIONS FOR THE RECORD

Chambliss, Hon. Saxby, a U.S. Senator from the State of Georgia, 
  prepared statement.............................................   147
Customs and International Trade Bar Association, Melvin S. 
  Schwechter, President, Washington, D.C., letter................   149
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia, 
  prepared statement.............................................   155
Lautenberg, Hon. Frank R., a U.S. Senator from the State of New 
  Jersey, prepared statement.....................................   156
                              ----------                              

                           FEBRUARY 15, 2006
                    STATEMENTS OF COMMITTEE MEMBERS

DeWine, Hon. Mike, a U.S. Senator from the State of Ohio.........   159

                               PRESENTERS

DeWine, Hon. Mike, a U.S. Senator from the State of Ohio 
  presenting Jack Zouhary, Nominee to be District Judge for the 
  Northern District of Ohio......................................   163
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California presenting Stephen G. Larson, Nominee to be District 
  Judge for the Central District of California...................   160
Warner, Hon. John, a U.S. Senator from the State of Virginia 
  presenting John F. Clark, of Virginia, Nominee to be Director 
  of the United States Marshals Service..........................   161
Allen, Hon. George, a U.S. Senator from the State of Virginia 
  presenting John F. Clark, of Virginia, Nominee to be Director 
  of the United States Marshals Service..........................   162

                       STATEMENT OF THE NOMINEES

Clark, John F., Nominee to be Director of the United States 
  Marshals Service...............................................   246
    Questionnaire................................................   247
Larson, Stephen G., Nominee to be District Judge for the Central 
  District of California.........................................   165
    Questionnaire................................................   166
Zouhary, Jack, Nominee to be District Judge for the Northern 
  District of Ohio...............................................   217
    Questionnaire................................................   218

                         QUESTIONS AND ANSWERS

Responses of Benigno Reyna to questions submitted by Senator 
  Durbin.........................................................   280

                       SUBMISSIONS FOR THE RECORD

Biddle, Louise W., Riverside California, letter..................   298
Boozman, Hon. John, a Representative in Congress from the State 
  of Arkansas, letter............................................   299
Clouse, Richard R., Partner, Cihigoyenetche, Grossberg & Clouse, 
  Rancho Cucamonga, California, letter...........................   301
Doskow, Charles S., Dean Emeritus and Professor of Law, 
  University of LaVerne, Ontario, California, letter.............   302
Dunn, Donald J., Dean and Professor of Law, University of 
  LaVerne, Ontario, California, letter...........................   303
Juarez, Carlos L., Attorney at Law, San Bernardino, California, 
  letter.........................................................   304
Lightfoot, Michael J., Lightfoot Vandevelde Sadowsky & Levine, 
  Los Angeles, California, letter................................   305
McNamara, Paul G., Omelveny & Myers LLP, Los Angeles, California, 
  letter.........................................................   306
Nasatir, Michael D., Nasatir, Hirsch, Poderesky & Genego, Santa 
  Monica, California, letter.....................................   307
Porter, John M., Lewis Brisbois Bisgaard & Smith, LLP, San 
  Bernardino, California, letter.................................   309
Ramirez, Manuel A., Presiding Justice, Court of Appeal, Riverside 
  California, letter.............................................   310
Roth, Diane Catran, Roth & Roth, LLP, Riverside, Califronia......   312
Sessions, Hon. Pete, a Representative in Congress from the State 
  of Texas, letter...............................................   313
Trask, Grover, District Attorney, County of Riverside, Riverside 
  California, letter.............................................   314
Voinovich, Hon. George, U.S. a Senator from the State of Ohio, 
  prepared statement.............................................   315
Warner, Hon. John, a U.S. Senator from the State of of Virginia, 
  prepared statement.............................................   317
                              ----------                              

                             MARCH 1, 2006
                    STATEMENTS OF COMMITTEE MEMBERS

Coburn, Hon. Tom, a U.S. Senator from the State of Oklahoma......   323
Feinstein, Hon. Dianne, A U.S. Senator from the State of 
  California, prepared statement.................................   410
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   416

                               PRESENTERS

Coleman, Hon. Norm, a U.S. Senator from the State of Minnesota 
  presenting Patrick Joseph Schiltz, of Minnesota, Nominee to be 
  Dirstrict Judge for the District of Minnesota..................   326
Craig, Hon. Larry, a U.S. Senator from the State of Idaho 
  presenting Norman Randy Smith, of Idaho, Nominee to be Circuit 
  Judge for the Ninth Circuit....................................   323
Crapo, Hon. Mike, a U.S. Senator from the State of Idaho 
  presenting Norman Randy Smith, of Idaho, Nominee to be Circuit 
  Judge for the Ninth Circuit....................................   325

                       STATEMENTS OF THE NOMINEES

Schiltz, Patrick Joseph, of Minnesota, Nominee to be District 
  Judge for the District of Minnesota............................   360
    Questionnaire................................................   361
Smith, Norman Randy, of Idaho, Nominee to be Circuit Judge for 
  the Ninth Circuit..............................................   329
    Questionnaire................................................   330
                              ----------                              

                             MARCH 14, 2007
                    STATEMENTS OF COMMITTEE MEMBERS

Cornyn, Hon. John, a U.S. Senator from the State of Texas, 
  prepared statement.............................................   565
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   571
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....   417

                               PRESENTERS

Cornyn, Hon. John, a U.S. Senator from the State of Texas 
  presenting Gray Hampton Miller, of Texas, Nominee to be 
  District Judge for the Southern District of Texas..............   421
Hutchison, Kay Bailey, a U.S. Senator from the State of Texas 
  presenting Gray Hampton Miller, of Texas, Nominee to be 
  District Judge for the Southern District of Texas..............   420
Lautenberg, Hon. Frank, a U.S. Senator from the State of New 
  Jersey presenting Michael A. Chagares, of New Jersey, Nominee 
  to be Circuit Judge for the Third District.....................   418
Menendez, Hon. Robert, a U.S. Senator from the State of New 
  Jersey presenent Michael A. Chagares, of New Jersey, Nominee to 
  be Circuit Judge for the Third District........................   419

                       STATEMENTS OF THE NOMINEES

Chagares, Michael A., of New Jersey, Nominee to be Circuit Judge 
  for the Third Circuit..........................................   423
    Questionnaire................................................   424
Freeman, Sharee M., Nominee to be Director, Community Relations 
  Service, Department of Justice.................................   524
    Questionnaire................................................   525
Miller, Gray Hampton, of Texas, Nominee to be District Judge for 
  the Southern District of Texas.................................   468
    Questionnaire................................................   469
Sedgwick, Jeffrey L., Nominee to be Director, Bureau of Justice 
  Statistics, Department of Justice..............................   499
    Questionnaire................................................   500

                         QUESTIONS AND ANSWERS

Responses of Jeffrey L. Sedgwick to questions submitted by 
  Senators Leahy and Kennedy.....................................   557

                       SUBMISSIONS FOR THE RECORD

Anti-Defamation League, Michael Lieberman, Washington Counsel, 
  and Jess N. Hordes, Washington Director, Washington, D.C., 
  letter.........................................................   563
Dreier, Hon. David, a Representative in Congress from the State 
  of California, letter..........................................   569
Leadership Conference on Civil Rights, Wade Henderson, Executive 
  Director, Washington, D.C., letter.............................   570
                              ----------                              

                             MARCH 29, 2007
                    STATEMENTS OF COMMITTEE MEMBERS

Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   718
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................   573

                               PRESENTERS

Santorum, Hon. Rick, a U.S. Senator from the State of 
  Pennsylvania, presenting Thomas M. Golden, Nominee to be 
  District Judge for the Eastern District of Pennsylvania........   576
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York presenting Brian M. Cogan, Nominee to be District Judge 
  for the Eastern District of New York...........................   577
Voinovich, Hon. George, a U.S. Senator from the State of Ohio 
  presenting Michael Ryan Barrett, Nominee to be District Judge 
  for the Eastern District of New York...........................   574

                       STATEMENTS OF THE NOMINEES

Barrett, Michael Ryan, of Ohio, Nominee to be District Judge for 
  the Southern District of Ohio..................................   624
    Questionnaire................................................   625
Cogan, Brian M., of New York, Nominee to be District Judge for 
  the Eastern District of New York...............................   655
    Questionnaire................................................   656
Golden, Thomas M., of Pennsylvania, Nominee to be District Judge 
  for the Eastern District of Pennsylvania.......................   580
    Questionnaire................................................   581

                     ALPHABETICAL LIST OF NOMINEES

Barrett, Michael Ryan, of Ohio, Nominee to be District Judge for 
  the Southern District of Ohio..................................   624
Batten, Timothy C., Sr., Nominee to be District Judge for the 
  Northern District of Georgia...................................     7
Chagares, Michael A., of New Jersey, Nominee to be Circuit Judge 
  for the Third Circuit..........................................   423
Clark, John F., Nominee to be Director of the United States 
  Marshals Service...............................................   246
Cogan, Brian M., of New York, Nominee to be District Judge for 
  the Eastern District of New York...............................   655
Delgado-Colon, Aida M., Nominee to be District Judge for the 
  District of Puerto Rico........................................    87
Freeman, Sharee M., Nominee to be Director, Community Relations 
  Service, Department of Justice.................................   524
Golden, Thomas M., of Pennsylvania, Nominee to be District Judge 
  for the Eastern District of Pennsylvania.......................   580
Gordon, Leo Maury, Nominee to be Judge of the United States Court 
  of International Trade.........................................    63
Johnston, Thomas E., Nominee to be District Judge for the 
  Southern District of West Virginia.............................    31
Larson, Stephen G., Nominee to be District Judge for the Central 
  District of California.........................................   165
Miller, Gray Hampton, of Texas, Nominee to be District Judge for 
  the Southern District of Texas.................................   468
Schiltz, Patrick Joseph, of Minnesota, Nominee to be District 
  Judge for the District of Minnesota............................   360
Sedgwick, Jeffrey L., Nominee to be Director, Bureau of Justice 
  Statistics, Department of Justice..............................   499
Smith, Norman Randy, of Idaho, Nominee to be Circuit Judge for 
  the Ninth Circuit..............................................   329
Zouhary, Jack, Nominee to be District Judge for the Northern 
  District of Ohio...............................................   217


   NOMINATIONS OF TIMOTHY C. BATTEN, SR., OF GEORGIA, NOMINEE TO BE 
DISTRICT JUDGE FOR THE NORTHERN DISTRICT OF GEORGIA; LEO MAURY GORDON, 
   OF NEW JERSEY, NOMINEE TO BE JUDGE OF THE UNITED STATES COURT OF 
 INTERNATIONAL TRADE; THOMAS E. JOHNSTON, OF WEST VIRGINIA, NOMINEE TO 
BE DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF WEST VIRGINIA; AND AIDA 
M. DELGADO-COLON, OF PUERTO RICO, NOMINEE TO BE DISTRICT JUDGE FOR THE 
                        DISTRICT OF PUERTO RICO

                              ----------                              


                       TUESDAY, FEBRUARY 7, 2006

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 4:04 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. John Cornyn 
presiding.
    Present: Senator Cornyn.

OPENING STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Senator Cornyn. The Committee will come to order. Today, we 
have a confirmation hearing for four of the President's 
judicial nominees, and it is my hope and expectation that 
barring any unforeseen events, we will get these nominations to 
the Committee and to the floor of the Senate as soon as 
possible.
    I have a statement from the ranking member, Senator Pat 
Leahy, which will be made part of the record, without 
objection. Also, Senator Frank Lautenberg has offered a written 
statement introducing Leo Gordon, which will likewise be made 
part of the record, without objection.
    I also have a statement from Senator Saxby Chambliss 
concerning the nomination of Timothy Batten. He explains that 
both he and Senator Isakson are attending the funeral of 
Coretta Scott King and so they are unable to be here. I know 
there are other members who are attending today, hence the 
light turn-out for the hearing. But, as I always tell nominees 
who come up for confirmation hearings, poor attendance is not a 
bad sign.
    [Laughter.]
    Senator Cornyn. You have to worry when everyone is here, 
loaded for bear, so to speak.
    We are honored to have members of the Senate and the House 
here to make some introductory comments about some of the 
nominees, and I would like to first recognize Senator 
Rockefeller for any comments he would like to make on behalf of 
Thomas Edward Johnston.

  PRESENTATION OF THOMAS E. JOHNSTON, NOMINEE TO BE DISTRICT 
JUDGE FOR THE SOUTHERN DISTRICT OF WEST VIRGINIA, BY HON. JOHN 
  ROCKEFELLER, A U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Rockefeller. Thank you, Mr. Chairman, and I just 
would pause to say that I admire what you have been through and 
gone through over the past several weeks. It has probably been 
some of the busier days of your life.
    Senator Cornyn. Well, we are glad to get to hopefully some 
simpler, easier to projects to deal with, like the hearings 
today.
    Senator Rockefeller. Well, I hope my suggestion here will 
be taken and the President's nominee will be accepted by the 
Senate, and I am sure that will be the case.
    Tom Johnston--and you gave his name--is our U.S. Attorney 
for the Northern District of West Virginia. We have two 
districts, North and South, and both are very complicated and 
both very, very different. That may be true in most States, but 
it certainly is true in ours.
    He has agreed, along with his family who is behind me--and 
perhaps at this point I should ask them to wave or rise or 
something.
    Senator Cornyn. That would be great.
    Mr. Johnston, if you would ask your family to stand? And if 
you would care to introduce them, please go ahead.
    Mr. Johnston. Thank you, Senator. This is my wife, Lisa 
Grimes Johnston; my son, Jack; my daughter, Joanna; and my 
mother-in-law, Jeanette Grimes.
    Senator Cornyn. Very good. Welcome. I am glad you are here.
    Senator Rockefeller. It is important to get that mother-in-
law part right.
    [Laughter.]
    Senator Rockefeller. Thank you, Mr. Chairman. He has been 
nominated to come down and take the vacancy created by somebody 
who is an extremely close friend of mine, Judge Charles Hayden, 
who was judge there for many years, participated heavily in the 
life of our State, as does yet his wife, Priscilla, whom I am 
sure Tom Johnston knows very well. She has been on the board of 
education and I voted for her every time.
    I don't know Tom Johnston that well, but I know him well 
enough to say that he is a very fine young lawyer in his own 
right, and by all accounts that I and my folks from my office 
working on this have been able to find out, he is a very 
capable and a very dedicated U.S. Attorney. I submit to the 
Committee that I expect him to be a very good Federal judge, 
also. I don't have any doubts about that.
    As I indicated, the seat that he will fill is a significant 
one. Judge Hayden has made a mark on the history of West 
Virginia like relatively few others. But Tom Johnston will be 
up to filling those shoes and I want to be able to see that 
happen. I support him, and I thank you for your attention, Mr. 
Chairman.
    Senator Cornyn. Well, thank you very much, Senator 
Rockefeller, for being here and for making that introduction. I 
am sure Mr. Johnston and his family appreciate it, and I can 
guarantee you the Committee does.
    We will stick with West Virginia, and Representative Capito 
is here. Welcome to the Committee and any additional comments 
you would care to make, now would be a good time to do that.

  PRESENTATION OF THOMAS E. JOHNSTON, NOMINEE TO BE DISTRICT 
   JUDGE FOR THE SOUTHERN DISTRICT OF WEST VIRGINIA, BY HON. 
  SHELLEY MOORE CAPITO, A REPRESENTATIVE IN CONGRESS FROM THE 
                     STATE OF WEST VIRGINIA


    Representative Capito. Thank you, Mr. Chairman, and I 
certainly would like to make an additional comment. Tom 
Johnston is born and bred in West Virginia. I consider him one 
of the best and brightest minds in our State of West Virginia. 
He is raising his family in West Virginia, and for those of us 
in West Virginia--and Senator Rockefeller knows this well, 
being a fellow West Virginian--there is nothing we treasure 
more than those that stay in West Virginia and raise their 
family and contribute to the fabric of the society and the 
economics of our State.
    Tom has been a good friend of mine, I would say, for 5 
years. I really met him through a political process, but we 
have grown to be friends with our families. He is raising, as I 
said, two fine young children back there, and he has led as the 
U.S. Attorney with great leadership and skill and we are very 
grateful to that.
    I know he has had some assignments with the Department of 
Justice that have been exceptional for our State and for our 
Nation, but I expect him to be an extremely fair-minded judge. 
And I will say he is a young man. I guess we have to admit 
that, don't we? A young man, but he will have the courage, I 
think, to make the right decision. He has a lot of kindness and 
compassion, which I believe is critical when you become a 
judge, and I know that he will have a great longevity in this 
position that is going to be very important to our State.
    So I am really pleased to be here with Senator Rockefeller. 
He has been a great guiding light for me, certainly, as the 
junior, junior, junior member of the West Virginia delegation. 
So I am pleased to have President Bush's great leadership in 
appointing Tom Johnston as a judge in the Southern District, 
and I look forward to his many years of service.
    Thank you for giving me the opportunity.
    Senator Cornyn. Thank you, Representative Capito, for 
taking the time to come here and make those remarks.
    We know that members of the Senate and the House have a lot 
of other engagements they could be involved in, and other 
duties. So, please feel free--if you would like to stay, fine. 
If you have other obligations, feel free to leave when you need 
to do so, but thank you very much for being here.
    Our next introducer is Luis Fortuno, U.S. Representative 
from Puerto Rico, and Resident Commissioner, to speak on behalf 
of Aida Delgado-Colon.
    Representative Fortuno, welcome to the Committee.

 PRESENTATION OF AIDA M. DELGADO-COLON, NOMINEE TO BE DISTRICT 
JUDGE FOR THE DISTRICT OF PUERTO RICO, BY HON. LUIS G. FORTUNO, 
 A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH OF PUERTO 
                              RICO


    Representative Fortuno. Thank you, Mr. Chairman. Thank you 
for allowing me the honor to introduce her.
    As the sole Representative in Congress of the 4 million 
U.S. citizens residing in Puerto Rico, it gives me great 
pleasure to introduce U.S. Magistrate Aida Delgado to the 
Senate Judiciary Committee.
    She is here with us and she has some members of the family 
and coworkers who are joining her today.
    Senator Cornyn. Would you introduce your family members so 
we can identify them and they can share in your glory here?
    Judge Delgado-Colon. I would be honored and pleased to do 
that, Mr. Chairman. First of all, I would like to introduce my 
mother, Luz Colon. She is a retired teacher for the 
Commonwealth of Puerto Rico.
    Senator Cornyn. Welcome.
    Judge Delgado-Colon. With her, my sister, Zulma. She is a 
devoted prosecutor within the Department of Justice in the 
Commonwealth of Puerto Rico. And along with me, as well, if you 
allow me to introduce at least a group of ten close, lifetime 
family friends whom I consider my relatives. All of them can 
stand at the same time. They have been very supportive and 
didn't hesitate to leave the warm temperature of the Caribbean 
to be here today.
    Senator Cornyn. Well, welcome to all of you, and I know 
that your presence here is a great comfort and encouragement to 
the nominee.
    Judge Delgado-Colon. Thank you.
    Senator Cornyn. Thank you.
    Representative Fortuno.
    Representative Fortuno. Thank you.
    She is the President's nominee for a vacancy on the U.S. 
District Court for the District of Puerto Rico. Mr. Chairman, I 
am honored and enthusiastic to appear before you today in 
support of her nomination.
    Ms. Delgado was born in Lares and educated at the 
University of Puerto Rico and the Pontifical Catholic 
University of Puerto Rico. From those two institutions, she 
graduated with honors. Early in her legal career, she joined 
the Governor of Puerto Rico's Advisory Council on Labor Law as 
Director of Research and Investigations.
    From 1982 to 1991, Ms. Delgado worked in the Office of the 
Federal Public Defender for the District of Puerto Rico, first 
as Assistant Federal Public Defender, then as First Assistant 
Federal Public Defender, and finally as Acting Federal Public 
Defender. Since 1993, Magistrate Judge Delgado has served with 
distinction as a U.S. Magistrate in the U.S. District Court of 
Puerto Rico.
    During that time, her rulings on both civil and criminal 
proceedings have had over a 98-percent adoption rate by the 
district court. From 1999 through 2003, she was accountable for 
resolving over 60 percent of all criminal pre-trial matters and 
over 55 percent of all civil pre-trial matters from the total 
number of issues assigned to magistrates of that court.
    Since 2002, Magistrate Judge Delgado has also been an 
adjunct professor of Federal civil and criminal forensics 
practice at the Pontifical Catholic University of Puerto Rico 
School of Law. Her impeccable record in public service and in 
the field of law has earned her a place amongst the most 
distinguished jurists and attorneys in Puerto Rico.
    This nominee has received widespread support from those who 
have worked with her. Actually, that is attested by so many of 
her co-workers joining us today. Those who face her in the 
courtroom speak with respect and admiration. Recently, the 
Federal Bar Association expressed its unconditional 
satisfaction with her qualifications and recognized her as, I 
quote, ``exceptional, competent and qualified Federal legal 
professional.''
    Yesterday, the Hispanic National Bar Association endorsed 
her nomination by saying, and I quote again, ``She has earned a 
well-deserved reputation of excellence over a 25-year career,'' 
end quote, and described her as, and I quote, ``eminently 
qualified for the job,'' end of quote.
    Last year, the American Bar Association issued a nearly 
unanimous vote rating Ms. Delgado as well qualified for 
appointment as judge of the United States District Court for 
Puerto Rico. It is the highest rating given by the American Bar 
Association Standing Committee on the Federal Judiciary.
    Mr. Chairman, Ms. Delgado without any doubt is at the top 
of the legal profession in her community. Aida Delgado has been 
a pioneer in her family and profession. As the first lawyer in 
her family, she became the first woman at the Federal public 
defender's office and the first woman to be appointed 
Magistrate Judge in the District Court for Puerto Rico. She has 
received numerous awards and acknowledgements, and recently the 
Puerto Rico House of Representatives adopted a resolution 
endorsing her nomination.
    I believe that Ms. Delgado possesses the intellectual 
capacity, the education and unbiased and dispassionate frame of 
mind which will allow her to excel in her new position. It is a 
pleasure for me to introduce to you and to recommend Ms. Aida 
Delgado as a nominee that fully understands the responsibility 
that a position on the Federal bench entails. I commend the 
President for selecting such an outstanding nominee, and if 
confirmed, she will be the second woman to go to the district 
court bench since 1985.
    Thank you very much again, Mr. Chairman.
    Senator Cornyn. Thank you, Representative Fortuno, for your 
introduction and the time you spent here. We appreciate that 
very much, and I know the nominee and her family and friends do 
as well. Thank you.
    At this time, could I ask the nominees please to step 
forward? I need to administer the oath.
    If you would raise your right hand, do each of you swear 
that your testimony before the Committee will be the truth, the 
whole truth and nothing but the truth, so help you God?
    Mr. Batten. I do.
    Mr. Gordon. I do.
    Mr. Johnston. I do.
    Judge Delgado-Colon. I do.
    Senator Cornyn. Thank you. Please have a seat.
    Welcome, Mr. Batten and Mr. Gordon, as well.
    By way of background, Timothy Carroll Batten, Sr., was 
nominated to be United States District Judge for the Northern 
District of Georgia. He received his Bachelor's of Science from 
the Georgia Institute of Technology and he has spent his entire 
legal career as an attorney with the firm of Shreeder, Wheeler 
and Flint, in Atlanta, working in commercial litigation, 
including fraud and breach of contract cases, construction 
cases, personal injury, products liability and malpractice 
litigation.
    Welcome, Mr. Batten. If you have some family members here, 
this would be a good time maybe to introduce them.
    Mr. Batten. Thank you, Mr. Chairman.
    My wife, Beth is here. We brought half of Georgia. I have 
got six children. This is my oldest daughter, Anna, and then 
Claire. No. 3 had to take care of No. 6, who had expired. This 
is Laura and Paige.
    And then I also brought my parents, Hosea and Carol Batten; 
my father-in-law, Carey Parkman; my brother, Eric, and his 
wife, Vicki; and three of their children, Scott, Rebecca and 
Mimi.
    Senator Cornyn. Well, welcome to all of you. Thank you for 
coming. You have got a lot of good support there.
    Mr. Batten. I am sorry if there aren't enough seats in the 
back.
    Senator Cornyn. Well, I know this is an important day not 
just for you, but for your family and friends as well.
    Senator Cornyn. Our fourth nominee is Leo Maury Gordon, 
nominated to be Judge of the United States Court of 
International Trade. Mr. Gordon received an A.B. from the 
University of North Carolina at Chapel Hill in 1973, and a J.D. 
from Emory in 1977.
    Following law school, he served as an assistant counsel to 
the House Judiciary Committee's Subcommittee on Monopolies and 
Commercial Law, focusing on antitrust and other commercial 
legislation. Since 1981, Mr. Gordon has been an attorney at the 
United States Court of International Trade, advising the judges 
of the court on substantive and procedural issues and 
litigation pending before the court, as well as on matters 
pertaining to the operation of the court.
    Mr. Gordon, welcome, and if you have some introductions, we 
would be pleased to hear those at this time.
    Mr. Gordon. Thank you very much, Mr. Chairman. It is my 
pleasure to introduce my wife, Marci Spero Gordon; my twin 
daughters, Jenny Gordon and Sarah Gordon; my brother, Toby 
Gordon; and the reason I am here today, my mother, Pearl 
Gordon.
    Senator Cornyn. Well, welcome to each of you. Thank you for 
coming, and thank you for introducing your family to us.
    We are going to entertain statements from each of the 
nominees, and I would ask for you to keep those in the 5-minute 
range. Hence, the clock, the timer out front. That is no 
stranger to any of you particularly in appellate courts. We 
don't have the green, yellow and red lights, but we do have a 
timer here.
    Mr. Batten, we will start with you, if we may, if you have 
an opening statement or any comments you would care to make.

  STATEMENT OF TIMOTHY C. BATTEN, SR., NOMINEE TO BE DISTRICT 
           JUDGE FOR THE NORTHERN DISTRICT OF GEORGIA

    Mr. Batten. Thank you, Mr. Chairman. I just would like to 
express my profound appreciation to the President and to 
Senators Chambliss and Isakson, from Georgia, for lending 
support to my nomination and the President for nominating me. 
This is a position that I have felt strongly about for many 
years and I feel like it is a tremendous opportunity to serve 
the public and one that I believe I am ready for. And it is 
with great enthusiasm that I look forward to this opportunity 
hopefully to be confirmed by the Senate and to serve.
    [The biographical information of Mr. Batten follows:] 

    [GRAPHIC] [TIFF OMITTED] T8736.001
    
    [GRAPHIC] [TIFF OMITTED] T8736.002
    
    [GRAPHIC] [TIFF OMITTED] T8736.003
    
    [GRAPHIC] [TIFF OMITTED] T8736.004
    
    [GRAPHIC] [TIFF OMITTED] T8736.005
    
    [GRAPHIC] [TIFF OMITTED] T8736.006
    
    [GRAPHIC] [TIFF OMITTED] T8736.007
    
    [GRAPHIC] [TIFF OMITTED] T8736.008
    
    [GRAPHIC] [TIFF OMITTED] T8736.009
    
    [GRAPHIC] [TIFF OMITTED] T8736.010
    
    [GRAPHIC] [TIFF OMITTED] T8736.011
    
    [GRAPHIC] [TIFF OMITTED] T8736.012
    
    [GRAPHIC] [TIFF OMITTED] T8736.013
    
    [GRAPHIC] [TIFF OMITTED] T8736.014
    
    [GRAPHIC] [TIFF OMITTED] T8736.015
    
    [GRAPHIC] [TIFF OMITTED] T8736.016
    
    [GRAPHIC] [TIFF OMITTED] T8736.017
    
    [GRAPHIC] [TIFF OMITTED] T8736.018
    
    [GRAPHIC] [TIFF OMITTED] T8736.019
    
    [GRAPHIC] [TIFF OMITTED] T8736.020
    
    [GRAPHIC] [TIFF OMITTED] T8736.021
    
    [GRAPHIC] [TIFF OMITTED] T8736.022
    
    [GRAPHIC] [TIFF OMITTED] T8736.023
    
    Senator Cornyn. Thank you, Mr. Batten.
    Mr. Johnston.

 STATEMENT OF THOMAS E. JOHNSTON, NOMINEE TO BE DISTRICT JUDGE 
           FOR THE SOUTHERN DISTRICT OF WEST VIRGINIA

    Mr. Johnston. Mr. Chairman, thank you very much. Mr. 
Chairman, I will be very brief. I just want to express my 
appreciation for the opportunity to be here. It is a great 
honor. I thank the President for considering me for nomination 
and I appreciate very much the opportunity to be here.
    [The biographical information of Mr. Johnston follows:] 

    [GRAPHIC] [TIFF OMITTED] T8736.047
    
    [GRAPHIC] [TIFF OMITTED] T8736.048
    
    [GRAPHIC] [TIFF OMITTED] T8736.049
    
    [GRAPHIC] [TIFF OMITTED] T8736.050
    
    [GRAPHIC] [TIFF OMITTED] T8736.051
    
    [GRAPHIC] [TIFF OMITTED] T8736.052
    
    [GRAPHIC] [TIFF OMITTED] T8736.053
    
    [GRAPHIC] [TIFF OMITTED] T8736.054
    
    [GRAPHIC] [TIFF OMITTED] T8736.055
    
    [GRAPHIC] [TIFF OMITTED] T8736.056
    
    [GRAPHIC] [TIFF OMITTED] T8736.057
    
    [GRAPHIC] [TIFF OMITTED] T8736.058
    
    [GRAPHIC] [TIFF OMITTED] T8736.059
    
    [GRAPHIC] [TIFF OMITTED] T8736.060
    
    [GRAPHIC] [TIFF OMITTED] T8736.061
    
    [GRAPHIC] [TIFF OMITTED] T8736.062
    
    [GRAPHIC] [TIFF OMITTED] T8736.063
    
    [GRAPHIC] [TIFF OMITTED] T8736.064
    
    [GRAPHIC] [TIFF OMITTED] T8736.065
    
    [GRAPHIC] [TIFF OMITTED] T8736.066
    
    [GRAPHIC] [TIFF OMITTED] T8736.067
    
    [GRAPHIC] [TIFF OMITTED] T8736.068
    
    [GRAPHIC] [TIFF OMITTED] T8736.069
    
    [GRAPHIC] [TIFF OMITTED] T8736.070
    
    [GRAPHIC] [TIFF OMITTED] T8736.071
    
    [GRAPHIC] [TIFF OMITTED] T8736.072
    
    [GRAPHIC] [TIFF OMITTED] T8736.073
    
    [GRAPHIC] [TIFF OMITTED] T8736.074
    
    [GRAPHIC] [TIFF OMITTED] T8736.075
    
    [GRAPHIC] [TIFF OMITTED] T8736.076
    
    [GRAPHIC] [TIFF OMITTED] T8736.077
    
    Senator Cornyn. Thank you, Mr. Johnston.
    Mr. Gordon.

  STATEMENT OF LEO MURRAY GORDON, NOMINEE TO BE JUDGE OF THE 
           UNITED STATES COURT OF INTERNATIONAL TRADE

    Mr. Gordon. Thank you, Mr. Chairman. Initially, let me 
thank you and the Committee for the opportunity to appear 
before you today. I also wish to express my profound gratitude 
to the President for his confidence in sending forth my 
nomination to the Senate.
    It is with a great deal of humility that I appear today in 
continuation and furtherance of my public service, and I look 
forward, if the Senate so desires, to serving in the capacity 
as a judge at the United States Court of International Trade 
and continuing my service to the country.
    Thank you.
    [The biographical information of Mr. Gordon follows:] 

    [GRAPHIC] [TIFF OMITTED] T8736.024
    
    [GRAPHIC] [TIFF OMITTED] T8736.025
    
    [GRAPHIC] [TIFF OMITTED] T8736.026
    
    [GRAPHIC] [TIFF OMITTED] T8736.027
    
    [GRAPHIC] [TIFF OMITTED] T8736.028
    
    [GRAPHIC] [TIFF OMITTED] T8736.029
    
    [GRAPHIC] [TIFF OMITTED] T8736.030
    
    [GRAPHIC] [TIFF OMITTED] T8736.031
    
    [GRAPHIC] [TIFF OMITTED] T8736.032
    
    [GRAPHIC] [TIFF OMITTED] T8736.033
    
    [GRAPHIC] [TIFF OMITTED] T8736.034
    
    [GRAPHIC] [TIFF OMITTED] T8736.035
    
    [GRAPHIC] [TIFF OMITTED] T8736.036
    
    [GRAPHIC] [TIFF OMITTED] T8736.037
    
    [GRAPHIC] [TIFF OMITTED] T8736.038
    
    [GRAPHIC] [TIFF OMITTED] T8736.039
    
    [GRAPHIC] [TIFF OMITTED] T8736.040
    
    [GRAPHIC] [TIFF OMITTED] T8736.041
    
    [GRAPHIC] [TIFF OMITTED] T8736.042
    
    [GRAPHIC] [TIFF OMITTED] T8736.043
    
    [GRAPHIC] [TIFF OMITTED] T8736.044
    
    [GRAPHIC] [TIFF OMITTED] T8736.045
    
    [GRAPHIC] [TIFF OMITTED] T8736.046
    
    Senator Cornyn. Thank you very much.
    Judge Delgado.

  STATEMENT OF AIDA M. DELGADO-COLON, NOMINEE TO BE DISTRICT 
             JUDGE FOR THE DISTRICT OF PUERTO RICO

    Judge Delgado-Colon. Thank you, Chairman. Certainly, I 
would like to join the statements made by the fellow nominees 
here and first of all thank the President for the nomination he 
has extended, this Committee for allowing me the opportunity of 
appearing before you here today, and certainly Resident 
Commissioner Luis Fortuno for the advice, support and 
encouragement he has given me throughout the process.
    And if there is one thing I would like to do is to take 
this opportunity to use it to honor and render tribute to my 
parents, which certainly have been the guiding the force 
driving me through the pathway that has brought me before you 
here today, and besides that to acknowledge the spiritual 
presence of my father. I know he would have loved to be here 
today.
    Aside from that, I must say that I am overwhelmed by the 
support and presence of the personnel from the Administrative 
Office, which I was not expecting. I have here also the Chief 
of the Magistrate Judge's Division, and I certainly thank them 
for their presence and support.
    Thank you.
    [The biographical information of Judge Delgado-Colon 
follows:] 

[GRAPHIC] [TIFF OMITTED] T8736.078

[GRAPHIC] [TIFF OMITTED] T8736.079

[GRAPHIC] [TIFF OMITTED] T8736.080

[GRAPHIC] [TIFF OMITTED] T8736.081

[GRAPHIC] [TIFF OMITTED] T8736.082

[GRAPHIC] [TIFF OMITTED] T8736.083

[GRAPHIC] [TIFF OMITTED] T8736.084

[GRAPHIC] [TIFF OMITTED] T8736.085

[GRAPHIC] [TIFF OMITTED] T8736.086

[GRAPHIC] [TIFF OMITTED] T8736.087

[GRAPHIC] [TIFF OMITTED] T8736.088

[GRAPHIC] [TIFF OMITTED] T8736.089

[GRAPHIC] [TIFF OMITTED] T8736.090

[GRAPHIC] [TIFF OMITTED] T8736.091

[GRAPHIC] [TIFF OMITTED] T8736.092

[GRAPHIC] [TIFF OMITTED] T8736.093

[GRAPHIC] [TIFF OMITTED] T8736.094

[GRAPHIC] [TIFF OMITTED] T8736.095

[GRAPHIC] [TIFF OMITTED] T8736.096

[GRAPHIC] [TIFF OMITTED] T8736.097

[GRAPHIC] [TIFF OMITTED] T8736.098

[GRAPHIC] [TIFF OMITTED] T8736.099

[GRAPHIC] [TIFF OMITTED] T8736.100

[GRAPHIC] [TIFF OMITTED] T8736.101

[GRAPHIC] [TIFF OMITTED] T8736.102

[GRAPHIC] [TIFF OMITTED] T8736.103

[GRAPHIC] [TIFF OMITTED] T8736.104

[GRAPHIC] [TIFF OMITTED] T8736.105

[GRAPHIC] [TIFF OMITTED] T8736.106

[GRAPHIC] [TIFF OMITTED] T8736.107

[GRAPHIC] [TIFF OMITTED] T8736.108

[GRAPHIC] [TIFF OMITTED] T8736.109

[GRAPHIC] [TIFF OMITTED] T8736.110

[GRAPHIC] [TIFF OMITTED] T8736.111

[GRAPHIC] [TIFF OMITTED] T8736.112

[GRAPHIC] [TIFF OMITTED] T8736.113

[GRAPHIC] [TIFF OMITTED] T8736.114

[GRAPHIC] [TIFF OMITTED] T8736.115

[GRAPHIC] [TIFF OMITTED] T8736.116

[GRAPHIC] [TIFF OMITTED] T8736.117

[GRAPHIC] [TIFF OMITTED] T8736.118

[GRAPHIC] [TIFF OMITTED] T8736.119

[GRAPHIC] [TIFF OMITTED] T8736.120

[GRAPHIC] [TIFF OMITTED] T8736.121

[GRAPHIC] [TIFF OMITTED] T8736.122

[GRAPHIC] [TIFF OMITTED] T8736.123

[GRAPHIC] [TIFF OMITTED] T8736.124

[GRAPHIC] [TIFF OMITTED] T8736.125

[GRAPHIC] [TIFF OMITTED] T8736.126

[GRAPHIC] [TIFF OMITTED] T8736.127

[GRAPHIC] [TIFF OMITTED] T8736.128

[GRAPHIC] [TIFF OMITTED] T8736.129

    Senator Cornyn. Well, thank you very much.
    Recently--I guess it was just about 7 months ago--Sandra 
Day O'Connor announced her retirement from the United States 
Supreme Court, and during that interim of 7 months we have had 
confirmation hearings and the confirmation of the Chief Justice 
of the United States and of Justice Sam Alito. This hearing 
will not be anything like theirs.
    [Laughter.]
    Senator Cornyn. That is the good news. I might just point 
out before I pose questions to the nominees that none of you 
are strangers to the Committee in this sense, that before you 
got here not only has a thorough investigation been made into 
your background and your professional qualifications, your 
integrity and your judicial temperament at the White House 
before you were nominated, but I am confident that an 
evaluation was made by the Senators and those who were 
responsible for your getting the nomination.
    In addition, we know that the Federal Bureau of 
Investigation does a thorough background investigation into 
each nominee, which is appropriate. And the American Bar 
Association, as was already mentioned, Standing Committee on 
the Judiciary does a thorough evaluation of judicial nominees 
and makes a recommendation to the Committee.
    So that is what I mean when I say none of you are strangers 
to the Committee. Even though we have just met face to face, 
the Committee already knows an awful lot about you, and that is 
as it should be. But I do have just a few questions and it 
won't be lengthy interrogation, but I would like to hear from 
each of you with regard to a couple of things.
    Mr. Gordon is going to have a chance to educate me a little 
more on the particular court that he has been nominated to. I 
am much more familiar with the functions of the courts the rest 
of you have been nominated to.
    Mr. Batten, could you share with me and the Committee some 
of your insights into the challenges of administering a docket 
on the court to which you have been nominated? Obviously, 
judicial philosophy was the focal point for a lot of 
discussions for the Supreme Court nominees because they are the 
last word, and certainly as a district court judge your 
responsibility will be to follow the law as determined by the 
United States Supreme Court, but perhaps directly in most cases 
by the circuit in which your court is located.
    Could you share with the Committee some of your thoughts 
about the nature of the docket you have--I am unfamiliar with 
it--and the challenges you will have in terms of administration 
and how you will approach that job?
    Mr. Batten. Yes, sir. Thank you, Mr. Chairman. The smooth 
administration of justice, of course, is critical if there is 
to be justice, and in the District Court of the Northern 
District of Georgia, which is Atlanta, approximately 15 percent 
of the cases that are tried are criminal in nature. And I know 
as a trial lawyer--I have been trying cases for 22 years--that 
it is imperative that the courts move quickly. As has been so 
frequently quoted, justice delayed is justice denied.
    It is my intention to act as expeditiously as possible with 
my cases. I have an expectation upon entering the court to see 
to it that there is a commitment to excellence among everyone 
on my staff, and especially myself where I would make 
decisions. I think it is crucial that a judge not lose sight of 
the fact that the public perception is that the cases languish 
too long. And then even when the lawyers start feeling that 
perception, then there is probably some truth to it.
    So my objective, Senator, would be to move my cases as 
rapidly as possible, to use alternate dispute resolution 
mechanisms such as mediation and arbitration to achieve as high 
a settlement rate as practicable, and to move my cases as 
quickly as possible.
    Senator Cornyn. Mr. Johnston, could you tell me a little 
bit about the nature of the docket of the court to which you 
have been nominated and your thoughts as to how you will make 
sure that all litigants get a timely and fair opportunity to be 
heard?
    Mr. Johnston. Yes, Mr. Chairman. I appreciate the 
opportunity to share some thoughts on those issues. The docket 
in the Southern District of West Virginia in many ways is very 
similar to the Northern District of West Virginia, where I now 
serve as United States Attorney and where I previously served 
as a law clerk to Hon. Frederick P. Stamp, Jr., who is a United 
States District Court Judge in Wheeling, West Virginia.
    I believe that in many ways I will borrow practices from 
Judge Stamp and his ability to move cases expeditiously, to 
decide cases fairly based on the law, to set cases for trial. 
In my experience from working with Judge Stamp, and certainly 
also being in private practice and also in the U.S. Attorney's 
offices, that there is nothing that moves a case toward 
resolution like a trial date.
    Also, the Northern District has been something of a pioneer 
in alternate dispute resolution. I am a big believer in that as 
a means to find resolution for cases more quickly, more 
expeditiously and more efficiently for the litigants involved.
    If I may, Mr. Chairman, I think that I would like to add to 
my introductory remarks, if I may. I do want to thank Senator 
Rockefeller and Congresswoman Capito for their very kind 
remarks today, and I also want to thank my family for their 
love and support and for them being here. I think I would be 
remiss in not making those remarks.
    Thank you very much.
    Senator Cornyn. Thank you. That is most appropriate.
    Mr. Gordon, tell me a little bit about the court to which 
you have been nominated. You have had quite a bit of 
experience, it sounds like, working in and around it, but tell 
me a little bit about the challenges that that court has in 
terms of administering its docket and making sure that justice 
is not delayed or denied.
    Mr. Gordon. Yes, Mr. Chairman. Thank you very much for the 
question and the opportunity to share with you some of my 
thoughts. As you may be aware, Mr. Chairman, the court only has 
civil jurisdiction and the court is responsible for hearing 
challenges to the administration and enforcement and 
interpretation of the Federal customs and international trade 
laws of the United States. As such, the United States 
Government is either the defendant or the plaintiff in almost 
every single case that comes before the court.
    In those situations, we are dealing principally with 
challenges to decisions made by the Bureau of Customs and 
Border Protection with respect to the importation of 
merchandise into the United States and decisions made by the 
Department of Commerce and the International Trade Commission 
with respect to the anti-dumping and countervailing duty laws 
of the United States.
    For the past 25 years, I have had the opportunity to work 
with judges on the court, the staff at the court and many, many 
attorneys, both in the private sector and the Government 
sector, with respect to that very issue that you raised, which 
is the administration of justice and the management of the 
court's docket.
    I am very proud to say that as clerk of the court, we have 
gone completely electronic, utilizing the Administrative 
Office's CMECF system, and so all of the cases that are on the 
docket before the court are now electronically filed, with the 
exception of certain initiating documents.
    I have had the opportunity to work with the court's 
Advisory Committee on Rules and with many attorneys in mega 
cases that are before the court in constructing efficient 
practices and procedures in order to make sure that the cases 
move through the system effectively, with fairness and an 
opportunity for all sides to present their arguments and issues 
to the court.
    I fully expect that the experience that I have had as the 
assistant clerk as the court and now as the clerk as the court, 
and my relationship with many counsel--that I will be able to 
continue those practices, if confirmed by the Senate as a 
judge. And I fully expect to be able to dispose of the docket 
before me in an efficient and effective manner, clearly with 
the goal of dispensing justice and doing it in a way that makes 
sure that there is an opportunity for each side to be heard.
    I absolutely believe that one of the most critical skill 
sets that a judge can have is the ability to listen and to make 
the litigants that appear before the court, along with their 
counsel, to be comfortable and to know that they have had their 
opportunity for a day in court, and that they can walk out the 
door feeling that the process has heard them and served them 
well, regardless of the outcome.
    Senator Cornyn. Well, I appreciate your comments with 
regard to the belief of the litigants that they have had a fair 
opportunity to be heard, win, lose or draw. Back in a previous 
lifetime, I served as a State trial court judge and then served 
on my State's supreme court.
    I was amazed at how many times people really just wanted 
somebody to listen to what they had to say, and it is, I guess, 
maybe a sign of the times that people don't get other people to 
listen to them unless they get them into court, where they have 
to listen. That was an amazing sort of revelation. I guess it 
is nothing profound, but there is a great sense of justice with 
giving people an opportunity to be heard.
    I know judges frequently feel like they are under pressure 
to move their docket, accelerate their production, but I 
appreciate your comments with regard to having people with the 
belief that they have experienced justice and not just been 
part of a cog in a huge machine.
    Judge Delgado, I would be interested in learning more about 
the court to which you have been nominated and your plans for 
administering your docket.
    Judge Delgado-Colon. Well, the District Court of Puerto 
Rico for which I have been nominated is the same court for 
which I have been serving as a magistrate judge for the past 12 
years.
    Of course, a trial court is a court of limited 
jurisdiction. We have a full and very active civil docket and 
criminal docket. Actually, within the First Circuit I think we 
rank and have ranked No. 1 in multi-defendant criminal cases. 
So that is a great challenge in terms of the pre-trial 
management and the skills that are compelled and the follow-up 
that the judge has to give to those types of cases.
    So it is a very active docket that thus far I understand is 
well under control. And I hope that I will be able, if 
confirmed by the Senate, to keep assisting the district judges 
of that court to dispense justice equally to all in a prompt 
and expedited and fair manner.
    In terms of the skills or mechanisms that I can utilize or 
can be utilized to expedite case management, certainly, sir, I 
will have to mention that the local rules of the district court 
provide for a very streamlined discovery process and motion 
practice that, when effectively implemented, serves very well 
the purpose.
    Besides that, I am a firm believer in the same trend of 
listening to the attorneys; that instead of imposing a 
scheduling order, what I do more so in complex cases is that I 
meet with the attorneys. I sit with them and I try to fix a 
reasonable schedule that is worked jointly. After that, the 
attorneys know that they will have to live to that schedule, 
and enforcing that schedule is something that prompts 
resolution.
    I think that a firm trial date always serves to expedite 
cases and matters, and it has been my experience and the result 
of my experience during the past 12 years that alternative 
dispute resolution is an incredible mechanism that is available 
and has been implemented in the district court successfully.
    Personally, I am a firm believer of communicating with the 
attorneys, members of the bar, either through the ABA, the 
Federal Bar, keeping in touch with members of the bar through 
continuing legal education, which is what we have done. And we 
share the needs of the court, the concerns of the attorneys, 
and we keep on a daily basis--or a frequent basis, I should 
say, trying to work out mechanisms that will expedite the cases 
in court and serving everyone fairly and expeditiously.
    Senator Cornyn. Well, thank you very much. You mentioned 
alternative dispute resolution, as did Mr. Johnston and Mr. 
Batten. One of the concerns I have about our civil justice 
system--and now we are talking about civil cases, obviously--is 
the time, the delay, and the expense of invoking the provisions 
of our law when it comes to having your case heard and decided 
in a court.
    If you are the plaintiff, obviously a contingent fee 
arrangement is the way that oftentimes that obstacle is 
overcome. But, you have to find a lawyer who will take your 
case and they have to obviously feel like it is a good economic 
decision for them to make or you may be out of luck, or you can 
be a wealthy litigant or have insurance.
    But, I worry that for many people who have disputes that 
they would like to present to courts for decision, the 
courthouse doors are locked, not literally, but because of the 
cost and the delays inherent in so much of our civil justice 
system.
    Mr. Batten, can you talk to that issue and maybe a little 
bit about your experience with alternative dispute resolution 
and how you would plan to implement those procedures perhaps to 
address those issues of cost and delay?
    Mr. Batten. Yes. Thank you, Mr. Chairman. I started 
practicing law in 1984 and it really was about that time, in 
the mid- to late 1980's, that ADR became more pervasive, more 
popular. Frankly, when I first introduced to it, I wasn't very 
excited about it because I wanted to try cases. And then I 
started mediating cases, more mediation than arbitration, which 
in the Northern District of Georgia that is more commonly used. 
And what I learned is this works.
    It is a rare case today where I am that the parties are not 
ordered to mediation. You know, I have had cases that I went in 
thinking there is absolutely no way that this case will settle; 
these people are too adamantly entrenched in their respective 
polar opposite positions to be able to reconcile through one 
mediator in 1 day. And I have had a number of occasions when I 
went in feeling that way and the case was resolved by 
mediation. So in my book, there is no such case, a case that 
can't be resolved by mediation.
    So I think one of the important things is the parties 
typically should be ordered to mediation because it is so 
effective, and although lawyers are much more receptive to the 
idea now than I was in the early or mid-1980's, there are still 
some lawyers today who don't embrace ADR as a regular part of 
the procedural machinery that should be employed to resolve 
cases. That is where I think help can be had.
    Senator Cornyn. Mr. Johnston, let me ask you a related but 
slightly different question. What do you think the role of the 
judge is with regard to alternative dispute resolution? Is that 
a function that is delegated to someone else or should the 
judge be in the middle of shuttling back and forth between the 
litigants trying to get the case settled? And, does that raise 
any issues, in your mind, about the judge's later role, that of 
being the impartial adjudicator?
    Mr. Johnston. Thank you for that question, Mr. Chairman. My 
experience is that a judge is in a position to encourage 
alternate dispute resolution. My experience--as I mentioned 
earlier, in the Northern District of West Virginia we have a 
program called the settlement week mediation, and each judge is 
asked to look at their docket and look at cases that are close 
to the end of discovery coming up for trial and put them on a 
list.
    And then we have all of the cases and mediators--we have a 
large number of trained mediators who will come in and we will 
assign rooms to them throughout the courthouse and mediate all 
together over a week-long period. The rate of resolution of 
those cases typically was around a third of those cases would 
be resolved as a result of that, which I thought was a 
remarkable result and a great bit of evidence for the efficacy 
of alternative dispute resolution.
    So I think to the extent that as a judge, if confirmed, I 
can encourage mediation, I will do that. I think it is 
appropriate for a judge to participate in settlement 
conferences as long as one does not step into the role of 
advocate. Certainly, facilitating settlement discussions is an 
appropriate and useful, in my opinion, function for a judge if 
it assists in resolving a case.
    Senator Cornyn. Mr. Gordon, does your court employ 
alternative dispute resolution?
    Mr. Gordon, Mr. Chairman, no, the court does not. We are 
not authorized by statute for an ADR program. However, the 
court does have what we call an in-court mediation program 
where one judge can refer a case for settlement discussions to 
another judge. We have had that for a couple of--the judges 
have had that for a couple of years. The program has had modest 
success.
    The thing that you need to know about our docket is that 
many of our cases are related to another case or have 
implications for other cases, so that the use of mediation is 
somewhat problematic because of the nature of the court's 
jurisdiction.
    Senator Cornyn. It doesn't just affect the immediate 
litigants or parties to the case?
    Mr. Gordon. That is absolutely correct, Mr. Chairman.
    Senator Cornyn. Judge Delgado, you said your court tries a 
lot of complicated, multi-party criminal cases. What percentage 
of the cases are civil?
    Judge Delgado-Colon. Right now, I will say--well, I think 
that there is a balanced number, but the number of defendants 
in one criminal case certainly is quite significant. We may 
have one criminal case with 40 defendants, 36 defendants. That 
is not unusual in our district. Twelve is run-of-the-mill, if I 
may use the expression. But in that sense, my share of work--
right now, I will say it is 50 percent civil, 50 percent 
criminal as a magistrate judge.
    Senator Cornyn. And how do you employ alternative dispute 
resolution or settlement techniques to try to resolve cases 
without trial? Could you comment on that, please?
    Judge Delgado-Colon. The alternative of mediation is always 
offered to the parties, and some of them, some of the attorneys 
of the bar, are familiarized with the process and they even 
request at their own initiative to have the case mediated by a 
judicial officer. In the sense that it may create a conflict or 
a dilemma for the judge that is presiding or would be presiding 
in the trial of the case, we have used--or the district judges 
have used magistrate judges to assist in that matter and we 
mediate many, many cases.
    On some occasions, if the case requires a lengthy process 
or it involves the need for an expert in certain topics or 
areas or legal fields, there is a panel of mediators to which 
the court can have the case assigned, or have some other 
magistrate judge from other districts within the First Circuit 
to conduct the mediation as well. But it is a mechanism that is 
always offered. It has been well accepted by members of the bar 
and frequently used in our district.
    Senator Cornyn. Thank you very much.
    Well, I thank each one of you for appearing here today and 
bringing your family and friends along with you. 
Congratulations on your nomination. It is my hope that now that 
the hearing is almost concluded that we can have a quick mark-
up of your nominations in the Judiciary Committee and hopefully 
get them to the floor of the Senate without any unnecessary 
delay.
    At this point, I would like to offer, without objection, 
the statement of Senator Johnny Isakson on the nomination of 
Timothy Batten, as well as a letter from the Customs and 
International Trade Bar Association on behalf of the nomination 
of Mr. Leo Gordon. That will also be made part of the record, 
without objection.
    We will leave the record open until 5 p.m. on Tuesday, 
February 14, in case any member of the Committee would like to 
submit written questions to the nominees. In the event that 
that occurs and you receive written questions, I would 
encourage you to get those answered and back to the Committee 
as soon as you can. Obviously, that will help us expedite the 
voting of your nominations out of the Committee and to the 
floor. And, I know you have an interest in making sure that 
there is not unnecessary delay, as I do.
    Thank you very much for being here. Good luck to each one 
of you.
    With that, the hearing is adjourned.
    [Whereupon, at 4:46 p.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T8736.646

[GRAPHIC] [TIFF OMITTED] T8736.647

[GRAPHIC] [TIFF OMITTED] T8736.130

[GRAPHIC] [TIFF OMITTED] T8736.131

[GRAPHIC] [TIFF OMITTED] T8736.132

[GRAPHIC] [TIFF OMITTED] T8736.133

[GRAPHIC] [TIFF OMITTED] T8736.134

[GRAPHIC] [TIFF OMITTED] T8736.135

[GRAPHIC] [TIFF OMITTED] T8736.136

[GRAPHIC] [TIFF OMITTED] T8736.137

[GRAPHIC] [TIFF OMITTED] T8736.138

[GRAPHIC] [TIFF OMITTED] T8736.139



NOMINATIONS OF STEPHEN G. LARSON, OF CALIFORNIA, NOMINEE TO BE DISTRICT 
 JUDGE FOR THE CENTRAL DISTRICT OF CALIFORNIA; JACK ZOUHARY, OF OHIO, 
  NOMINEE TO BE DISTRICT JUDGE FOR THE NORTHERN DISTRICT OF OHIO; AND 
JOHN F. CLARK, OF VIRGINIA, NOMINEE TO BE DIRECTOR OF THE UNITED STATES 
                            MARSHALS SERVICE

                              ----------                              


                      WEDNESDAY, FEBRUARY 15, 2006

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Mike DeWine 
presiding.
    Present: Senators DeWine and Feinstein.

OPENING STATEMENT OF HON. MIKE DEWINE, A U.S. SENATOR FROM THE 
                         STATE OF OHIO

    Senator DeWine. Good morning. We welcome all of you to the 
hearing. The Committee will come to order.
    Today we will have a confirmation hearing for two of the 
President's judicial nominees as well as the nominee for head 
of the United States Marshals Service. I think all of these 
nominees are well-qualified for their respective positions and 
I hope we can move these nominations through the Committee 
shortly and through the Senate as soon as possible.
    Let me welcome Senator Warner and Senator Allen with us 
today. Let me also welcome Senator Feinstein, and I would defer 
to her now for her comments.
    Senator Feinstein. Thank you very much.
    I would like to introduce to the Committee Judge Larson. I 
don't know if it is appropriate to do it now.
    Senator DeWine. We can do that. Are you going to stay with 
us during the--
    Senator Feinstein. I was hoping not to stay the whole 
hearing, if I might.
    Senator DeWine. Why don't you go right ahead, then.
    Senator Feinstein. Thank you.

PRESENTATION OF STEPHEN G. LARSON, NOMINEE TO BE DISTRICT JUDGE 
    FOR THE CENTRAL DISTRICT OF CALIFORNIA, BY HON. DIANNE 
     FEINSTEIN, A U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Feinstein. Mr. Chairman, Senator DeWine, it is my 
pleasure to introduce to the Committee Judge Stephen Larson, 
the nominee to the Federal District Court for the Central 
District of California.
    Judge Larson--it is a wonderful family.
    [Laughter.]
    Senator Feinstein. It is an amazing family, as you can 
probably see. But I will let Judge Larson at the appropriate 
time introduce his wife and children.
    He is a native of Fontana. He is specifically nominated for 
a seat on the Federal bench in Riverside, California. He comes 
to this Committee very familiar with the court to which he is 
nominated. Since October of 2000, he has served as a magistrate 
judge for the Central District in Riverside.
    He has spent his last 15 years in public service. Prior to 
becoming a magistrate judge, he was Assistant United States 
Attorney in the Central District of California, from 1991 to 
2000, serving as Chief of the U.S. Attorney's Organized Crime 
Strike Force and as coordinator of its Russian Organized Crime 
Unit.
    Judge Larson attended college here in Washington, at 
Georgetown University School of Foreign Service, from which he 
received a bachelor's of science in 1986. He then returned to 
California for law school, graduating from the University of 
Southern California Law School in 1989.
    The American Bar Association has unanimously declared him 
to be well qualified, and it is evident--to me, at least--that 
he has very strong support within the Inland Empire. I have 
received a number of letters endorsing his nomination. Judge 
Larson, you might be pleased to know that these recommendations 
come from a very diverse cross-section of the Inland Empire's 
legal community--from judges and law professors, from 
Government attorneys and private practitioners, and from 
Democrats as well as Republicans. In these letters, Judge 
Larson is praised for his legal knowledge, and words like 
``fairness,'' ``integrity,'' ``hard work,'' ``temperament,'' 
``intelligence,'' ``patience,'' and ``sense of social justice'' 
are all present.
    So I am very proud of the bipartisan judicial screening 
process that exists in California, because under this system a 
Committee of lawyers including Democrats and Republicans 
recommends qualified appointments to the President. And Judge 
Larson's nomination through this process gives me a great deal 
of confidence that he comes to the bench without an ideological 
agenda and is prepared to serve all of the people of 
California, as well, of course, as the law.
    So Judge Larson, let me congratulate you. Perhaps if the 
two Senators don't mind--because this is such a beautiful 
family--would you mind just standing and introducing your 
family?
    Judge Larson. This is my wife Dena and my little daughter 
Michaela; and Joseph, Brendan, Patrick, Thomas--and I believe 
Mary had to make a premature exit with my sister. They are 
right outside the door.
    Senator Feinstein. Thank you very much. And good luck, 
Judge.
    Thank you, Mr. Chairman.
    Senator DeWine. Senator, thank you very much for that very 
nice introduction.
    Senator Warner, Thank you for joining us.
    Senator Allen, Thank you for joining us.
    Senator Warner, we will recognize you.

   PRESENTATION OF JOHN F. CLARK, OF VIRGINIA, NOMINEE TO BE 
 DIRECTOR OF THE UNITED STATES MARSHALS SERVICE, BY HON. JOHN 
       WARNER, A U.S. SENATOR FROM THE STATE OF VIRGINIA

    Senator Warner. Thank you very much.
    Mr. Chairman and other members of the Committee, I am 
pleased to introduce a long-time Virginian, John Clark, who has 
been nominated to serve as the Director of the United States 
Marshals Service. He is joined here today by his wife Lucy.
    Would you kindly introduce your wife?
    Mr. Clark. This is my wife, Lucy.
    Senator Warner. As you know, the Marshals Service is the 
Nation's oldest Federal law enforcement agency--a point in 
history I think is worth remembering. When originally created 
in 1789, President Washington nominated 13 U.S. Marshals for 
Senate confirmation. Today, more than 200 years later, America 
has 94 U.S. Marshals and the Marshals Service employs more than 
4,800 Deputy Marshals and employees.
    The Director of the Marshals Service serves as the Agency's 
head. The Director's job is not only to effectively manage the 
Agency's nearly 5,000 employees, but also to ensure that the 
Marshals Service continues to accomplish its many day-to-day 
missions, from courthouse security, witness security, fugitive 
investigations, and prisoner detention services. The Director 
of the Marshals Service, without a doubt, has a very difficult 
and challenging job. This already tough job was made even more 
challenging in the post-9/11 world, particularly with respect 
to the unique security challenges that terrorism places upon 
the entire law enforcement structure of our nation.
    John Clark, in my humble judgment, is up to that 
responsibility in every respect. For the past 6 months, he has 
had the privilege of serving as the Acting Director of the 
Marshals Service. His past experience served him well for that 
position. Prior to taking over as the Acting Director, Mr. 
Clark worked for nearly 3 years as the United States Marshal 
for the Eastern District of Virginia, the very district that 
prosecutes most of America's high-profile terrorist-related 
cases. How fortunate we are in Virginia to have someone with 
his experience to take on this responsibility.
    I would now like to ask that the balance of my statement be 
placed in the record.
    Senator DeWine. It will be made a part of the record, 
Senator.
    [The prepared statement of Senator Warner appears as a 
submission for the record.]
    Senator Warner. I defer to my colleague. I am chairing a 
hearing downstairs, so I must leave.
    Senator DeWine. We understand. Thank you very much, 
Senator.
    Senator Allen.

   PRESENTATION OF JOHN F. CLARK, OF VIRGINIA, NOMINEE TO BE 
DIRECTOR OF THE UNITED STATES MARSHALS SERVICE, BY HON. GEORGE 
        ALLEN, A U.S. SENATOR FROM THE STATE OF VIRGINIA

    Senator Allen. Thank you, Mr. Chairman, Senator Feinstein, 
members of the Committee. I join with my good friend and 
colleague, Senator Warner, in giving my highest recommendation 
of John Clark in his position and nomination as Director of the 
United States Marshals Service. Those of us from Virginia 
believe this is an outstanding nomination, not just for 
Virginia but for our entire country.
    Let me add a few details to what Senator Warner said. John 
Clark, if you look at his record, has served this country very 
well for 22 years in a career with the Marshals Service, most 
recently as Acting Director since August of 2005. Prior to 
being named Director, he was the U.S. Marshal for the Eastern 
District of Virginia. It is important to recognize some of the 
challenges he faced there in the Marshals Service and the 
courtrooms and some really important matters to make sure the 
courtrooms were safe and they were secure in the conduct of 
some very high-profile judicial proceedings, including that of 
convicted spy Robert Hansen, terrorist suspects John Walker 
Lindh and Zacarias Moussaoui, and several members of the very 
dangerous MS-13 gang.
    Mr. Clark has extensive law enforcement experience. Prior 
to his role in the U.S. Marshals Service for the Eastern 
District, he served in a variety of positions, including Chief 
of Internal Affairs Division, Chief of the Internal Fugitive 
Investigations Division. And before joining the Marshals 
Service, he was a United States Capitol Police officer and a 
U.S. Border Patrol agent as well.
    John Clark has worked diligently in support of creation of 
the Capitol Area Regional Fugitive Task Force, which, under the 
Marshals Service leadership, has joined Federal, State, and 
local law enforcement agencies from Baltimore, Maryland, to 
Norfolk, Virginia, in a cooperative, highly successful 
partnership to fight crime and remove dangerous fugitives from 
our streets and communities. The task force has been very 
effective in capturing some of this region's most violent 
criminals--for which we are very grateful. He has put together, 
just since being the Acting Director, working groups of 
operational and administrative personnel to review a variety of 
court security issues, a topic that I know is very important to 
members of this Committee and the judiciary. His steadfast 
leadership during this time really has delivered a message that 
judicial security remains a top priority.
    So with his breadth and depth of experience, I have full 
confidence that the President has truly nominated a person with 
integrity, which is absolutely essential, since the motto of 
the Marshals Service is ``Justice, Integrity, and Service.'' 
John Clark, in my view, meets all those requirements and then 
some. I am glad his bride Lucy is here with him, and I hope 
that this Committee will move as expeditiously as possible to 
move this nomination forward toward confirmation.
    And I thank you, Mr. Chairman and Senator Feinstein, for 
your attention and allowing me to be with you all this morning.
    Senator DeWine. Senator Allen, thank you very much. A great 
statement. And we know that you have other business as well, 
and we will excuse you. We thank you very much. Appreciate 
that.
    At this point, as United States Senator from Ohio, I would 
like to say a few words to introduce my fellow Ohioan, Judge 
Jack Zouhary.
    Before I do, I should mention that Senator George Voinovich 
sends his regrets. He is actually traveling with the President 
of the United States today in Ohio. He had hoped to be here to 
help introduce the Judge, but unfortunately is not able to do 
so. He does have a written statement which I will make part of 
the record at this point.

PRESENTATION OF JACK ZOUHARY, NOMINEE TO BE DISTRICT JUDGE FOR 
   THE NORTHERN DISTRICT OF OHIO BY HON. MIKE DEWINE, A U.S. 
                SENTATOR FROM THE STATE OF OHIO

    It is my pleasure and honor to introduce my fellow Ohioan, 
Judge Jack Zouhary, to the members of this Committee today. The 
Judge currently serves on the Lucas County Common Pleas Court 
bench. President Bush has nominated him to serve as a Federal 
judge in the Northern District of the State of Ohio.
    Let me welcome the Judge's family members who are here with 
him today--his wife Kathleen, his daughters Katie Marie and 
Alexis. We thank all of you for joining us and welcome you to 
our Committee. We know that you are very proud of your husband 
and your father.
    Judge Zouhary has had a long and accomplished legal career, 
a career with 30 years of legal experience that has given him 
the background and the understanding of our legal system to 
successfully take on the role of a Federal judge. He attended 
Dartmouth College, where he received his undergraduate degree 
before returning to his home town to earn his law degree at the 
University of Toledo College of Law.
    The Judge began his legal career with Robison, Curphey and 
O'Connell, where he worked for 23 years as an associate and 
then as a partner. During this time, he had a varied practice, 
representing individuals and businesses on a range of legal 
issues with an emphasis on civil trial practice and corporate 
matters.
    In the year 2000, the Judge became the Senior Vice 
President and General Counsel for S.E. Johnson Companies, Inc., 
a large highway contractor and asphalt producer. Judge Zouhary 
was responsible for all the corporation's legal issues, 
including environmental safety, human resources, contract 
negotiations, supervision of risk management, union grievances, 
and litigation.
    In the year 2004, the Judge accepted a position as Of 
Counsel with the law firm of Fuller and Henry. He remained with 
Fuller and Henry until 2005, when he was appointed by Governor 
Bob Taft to the Lucas County Common Pleas Court. In Ohio the 
Common Pleas Court is our highest State trial bench that hears 
all major civil as well as criminal cases.
    During his time as an attorney in private practice, the 
Judge distinguished himself as an excellent litigator. He was 
honored by being selected as a member of the prestigious 
American College of Trial Lawyers. This is notable because 
membership in the American College of Trial Lawyers is by 
invitation only and is limited to the best of the trial bar. 
Judge Zouhary clearly meets that criterion.
    Even more important, Judge Zouhary has long been committed 
to the ideals of civility and professionalism in the legal 
field, something that sometimes we don't see enough of these 
days. He frequently has presented lectures focusing on legal 
ethics and civility in the practice of law for continuing legal 
education seminars. He is also a member of the Morrison Waite 
Chapter of the Inns of Court, a nationwide organization 
dedicated to improving the skills, professionalism, and ethics 
of the bench and the bar.
    Judge Zouhary's commitment to serving the community as a 
professional is also exemplified by his membership in the 
Toledo Rotary Club as well as a broad range and array of other 
charitable activities ranging from pro bono work for a local 
church to service at a community soup kitchen.
    Although he has been a common pleas judge for only a 
relatively short period of time, Judge Zouhary has already 
begun to distinguish himself on the bench. He has been working 
diligently to clear a very large backlog of cases on his 
crowded docket and successfully made a good deal of headway in 
that effort. Most important, attorneys who have appeared before 
him, criminal and civil, prosecution and defense, speak in 
glowing terms of his talent, his fairness, and excellent 
judicial temperament.
    With Judge Zouhary's impressive record as a legal 
professional and community leader, it should come as no 
surprise that the American Bar Association was unanimous in 
giving him its highest rating of Well Qualified.
    Judge Zouhary is an outstanding nominee, and I gladly, I 
gladly join his supporters in the belief that he will serve as 
a great Federal judge for the Northern District of Ohio.
    Let me ask all of the three nominees to now come forward 
and sit where your name tag is. I would ask you to remain 
standing, if you would. I will swear you in. Will you all raise 
your right hand, please?
    Do you swear that the testimony you are about to give 
before this Committee will be the truth, the whole truth, and 
nothing but the truth, so help you God?
    Judge Larson. I do.
    Judge Zouhary. I do.
    Mr. Clark. I do.
    Senator Feinstein. Mr. Chairman, may I ask that series of 
letters concerning Judge Larson be entered into the record?
    Senator DeWine. Those will certainly be made a part of the 
record.
    We would invite each one of you to make any opening 
statement that you would like to make. Judge Larson, we would 
start with you. And we would invite you to introduce any family 
members that have not been introduced. Or if you would like to 
introduce them again, that would be fine.

  STATEMENT OF STEPHEN G. LARSON, NOMINEE TO BE UNITED STATES 
     DISTRICT JUDGE FOR THE CENTRAL DISTRICT OF CALIFORNIA

    Judge Larson. Well, thank you very much, Mr. Chairman.
    Senator DeWine. It is just kind of a family day here today.
    [Laughter.]
    Judge Larson. Well, thank you very much, Mr. Chairman, 
Senator Feinstein. It is a tremendous honor, a real privilege 
to be here this morning.
    I want to thank the Senate Committee for inviting me, for 
holding this hearing. I want to thank the Senate staff for all 
of their hard work. I do want to thank the President as well 
for his confidence in nominating me and for his counsel, and 
all of the individuals all they way down to the bipartisan 
committee that Senator Feinstein referred to. And also, my 
colleagues on the judiciary for their encouragement. I know we 
have members of the Administrative Office here today. I 
appreciate their support.
    I would like to take a moment to introduce a few family 
members that I hadn't previously introduced.
    Senator DeWine. That would be great.
    Judge Larson. My mother and my father are here today, Dale 
and Sheila Larson.
    Senator DeWine. Why don't you all stand up? I know you are 
very proud. Thank you.
    Judge Larson. My sister Marette. And then, of course, you 
met previously my wife Dena and the six wonderful children.
    Senator DeWine. And what is the age range?
    Judge Larson. The oldest, Michaela, is 9. She's in fourth 
grade. And it goes all the way down to Mary, who unfortunately 
had to step out for a moment. She just turned 1 a few weeks 
ago.
    Senator DeWine. Very good.
    Judge Larson. She's out there with her brother Thomas, 
who's 2, who suffers from the terrible twos right now.
    [Laughter.]
    Senator DeWine. Well we welcome them. Very good.
    Judge Larson. Well, thank you very much. Like I say, it's 
truly a privilege to be here. If confirmed and if appointed, I 
truly will do all I can to continue my public service to this 
country and to assist as I can the Nation in its making true 
its promise of equal justice under law.
    [The biographical information of Judge Larson follows.] 
    [GRAPHIC] [TIFF OMITTED] T8736.140
    
    [GRAPHIC] [TIFF OMITTED] T8736.141
    
    [GRAPHIC] [TIFF OMITTED] T8736.142
    
    [GRAPHIC] [TIFF OMITTED] T8736.143
    
    [GRAPHIC] [TIFF OMITTED] T8736.144
    
    [GRAPHIC] [TIFF OMITTED] T8736.145
    
    [GRAPHIC] [TIFF OMITTED] T8736.146
    
    [GRAPHIC] [TIFF OMITTED] T8736.147
    
    [GRAPHIC] [TIFF OMITTED] T8736.148
    
    [GRAPHIC] [TIFF OMITTED] T8736.149
    
    [GRAPHIC] [TIFF OMITTED] T8736.150
    
    [GRAPHIC] [TIFF OMITTED] T8736.151
    
    [GRAPHIC] [TIFF OMITTED] T8736.152
    
    [GRAPHIC] [TIFF OMITTED] T8736.153
    
    [GRAPHIC] [TIFF OMITTED] T8736.154
    
    [GRAPHIC] [TIFF OMITTED] T8736.155
    
    [GRAPHIC] [TIFF OMITTED] T8736.156
    
    [GRAPHIC] [TIFF OMITTED] T8736.157
    
    [GRAPHIC] [TIFF OMITTED] T8736.158
    
    [GRAPHIC] [TIFF OMITTED] T8736.159
    
    [GRAPHIC] [TIFF OMITTED] T8736.160
    
    [GRAPHIC] [TIFF OMITTED] T8736.161
    
    [GRAPHIC] [TIFF OMITTED] T8736.162
    
    [GRAPHIC] [TIFF OMITTED] T8736.163
    
    [GRAPHIC] [TIFF OMITTED] T8736.164
    
    [GRAPHIC] [TIFF OMITTED] T8736.165
    
    [GRAPHIC] [TIFF OMITTED] T8736.166
    
    [GRAPHIC] [TIFF OMITTED] T8736.167
    
    [GRAPHIC] [TIFF OMITTED] T8736.168
    
    [GRAPHIC] [TIFF OMITTED] T8736.169
    
    [GRAPHIC] [TIFF OMITTED] T8736.170
    
    [GRAPHIC] [TIFF OMITTED] T8736.171
    
    [GRAPHIC] [TIFF OMITTED] T8736.172
    
    [GRAPHIC] [TIFF OMITTED] T8736.173
    
    [GRAPHIC] [TIFF OMITTED] T8736.174
    
    [GRAPHIC] [TIFF OMITTED] T8736.175
    
    [GRAPHIC] [TIFF OMITTED] T8736.176
    
    [GRAPHIC] [TIFF OMITTED] T8736.177
    
    [GRAPHIC] [TIFF OMITTED] T8736.178
    
    [GRAPHIC] [TIFF OMITTED] T8736.179
    
    [GRAPHIC] [TIFF OMITTED] T8736.180
    
    [GRAPHIC] [TIFF OMITTED] T8736.181
    
    [GRAPHIC] [TIFF OMITTED] T8736.182
    
    [GRAPHIC] [TIFF OMITTED] T8736.183
    
    [GRAPHIC] [TIFF OMITTED] T8736.184
    
    [GRAPHIC] [TIFF OMITTED] T8736.185
    
    [GRAPHIC] [TIFF OMITTED] T8736.186
    
    [GRAPHIC] [TIFF OMITTED] T8736.187
    
    [GRAPHIC] [TIFF OMITTED] T8736.188
    
    [GRAPHIC] [TIFF OMITTED] T8736.189
    
    [GRAPHIC] [TIFF OMITTED] T8736.190
    
    Senator DeWine. Judge, thank you very much.
    Judge Zouhary.

STATEMENT OF JACK ZOUHARY, NOMINEE TO BE UNITED STATES DISTRICT 
            JUDGE FOR THE NORTHERN DISTRICT OF OHIO

    Judge Zouhary. Thank you, Mr. Chairman, for your kind 
opening remarks. I want to express also my appreciation to you, 
Senator DeWine, and also to Senator Voinovich, for your 
recommendation to the President, for his confidence and my 
nomination.
    I also want to acknowledge the colleagues, the lawyers and 
judges, the family and friends back home who have lent their 
support during this process. Especially, I want to acknowledge 
the sacrifice of my parents. My father, if he were here today, 
I know would be very proud. My mother is back home in Toledo 
beaming, I am sure; my dear sisters back in Ohio, with their 
families; and last, certainly not least, but perhaps foremost, 
the love of my bride of 27 years, Kathleen.
    And, Kathleen, why don't you stand?
    [Ms. Zouhary stood.]
    Judge Zouhary. And my two daughters, Katie Marie and 
Alexis, who have been traveled along with me on this judicial 
journey, and I very much appreciate all they have done.
    And I appreciate the opportunity to be here today, and look 
forward to meeting the high expectations that people have laid 
out in front of me.
    Thank you.
    [The biographical information of Judge Zouhary follows.] 
    [GRAPHIC] [TIFF OMITTED] T8736.191
    
    [GRAPHIC] [TIFF OMITTED] T8736.192
    
    [GRAPHIC] [TIFF OMITTED] T8736.193
    
    [GRAPHIC] [TIFF OMITTED] T8736.194
    
    [GRAPHIC] [TIFF OMITTED] T8736.195
    
    [GRAPHIC] [TIFF OMITTED] T8736.196
    
    [GRAPHIC] [TIFF OMITTED] T8736.197
    
    [GRAPHIC] [TIFF OMITTED] T8736.198
    
    [GRAPHIC] [TIFF OMITTED] T8736.199
    
    [GRAPHIC] [TIFF OMITTED] T8736.200
    
    [GRAPHIC] [TIFF OMITTED] T8736.201
    
    [GRAPHIC] [TIFF OMITTED] T8736.202
    
    [GRAPHIC] [TIFF OMITTED] T8736.203
    
    [GRAPHIC] [TIFF OMITTED] T8736.204
    
    [GRAPHIC] [TIFF OMITTED] T8736.205
    
    [GRAPHIC] [TIFF OMITTED] T8736.206
    
    [GRAPHIC] [TIFF OMITTED] T8736.207
    
    [GRAPHIC] [TIFF OMITTED] T8736.208
    
    [GRAPHIC] [TIFF OMITTED] T8736.209
    
    [GRAPHIC] [TIFF OMITTED] T8736.210
    
    [GRAPHIC] [TIFF OMITTED] T8736.211
    
    [GRAPHIC] [TIFF OMITTED] T8736.212
    
    [GRAPHIC] [TIFF OMITTED] T8736.213
    
    [GRAPHIC] [TIFF OMITTED] T8736.214
    
    [GRAPHIC] [TIFF OMITTED] T8736.215
    
    [GRAPHIC] [TIFF OMITTED] T8736.216
    
    [GRAPHIC] [TIFF OMITTED] T8736.217
    
    [GRAPHIC] [TIFF OMITTED] T8736.218
    
    Senator DeWine. Thank you, Judge, very much.
    Mr. Clark, welcome.

  STATEMENT OF JOHN F. CLARK, NOMINEE TO BE DIRECTOR, UNITED 
                    STATES MARSHALS SERVICE

    Mr. Clark. Thank you, Mr. Chairman, Senator Feinstein. I am 
very honored to appear before the Committee as the President's 
nominee to serve as Director of the United States Marshals 
Service.
    I also wanted to thank the Attorney General and the 
President for the confidence they have placed in me, and it was 
also an additional honor to have both Senators Warner and Allen 
appear this morning to express their confidence in me in 
supporting me.
    As a career employee of the Marshals Service, nearly 23 
years, I can say without a doubt this is one of the most 
honorable things I have had to do in my career. So I look 
forward to answering your questions.
    Although my wife, Lucy, has been introduced, I would also 
like to thank her, my wife of 17 years, Lucy, for being with me 
today and to also be the captain of my support team.
    Thank you. I look forward to answering your questions.
    [The biographical information of Mr. Clark follows.] 
    [GRAPHIC] [TIFF OMITTED] T8736.219
    
    [GRAPHIC] [TIFF OMITTED] T8736.220
    
    [GRAPHIC] [TIFF OMITTED] T8736.221
    
    [GRAPHIC] [TIFF OMITTED] T8736.222
    
    [GRAPHIC] [TIFF OMITTED] T8736.223
    
    [GRAPHIC] [TIFF OMITTED] T8736.224
    
    [GRAPHIC] [TIFF OMITTED] T8736.225
    
    [GRAPHIC] [TIFF OMITTED] T8736.226
    
    [GRAPHIC] [TIFF OMITTED] T8736.227
    
    [GRAPHIC] [TIFF OMITTED] T8736.228
    
    [GRAPHIC] [TIFF OMITTED] T8736.229
    
    [GRAPHIC] [TIFF OMITTED] T8736.230
    
    [GRAPHIC] [TIFF OMITTED] T8736.231
    
    [GRAPHIC] [TIFF OMITTED] T8736.232
    
    [GRAPHIC] [TIFF OMITTED] T8736.233
    
    [GRAPHIC] [TIFF OMITTED] T8736.234
    
    [GRAPHIC] [TIFF OMITTED] T8736.235
    
    [GRAPHIC] [TIFF OMITTED] T8736.236
    
    [GRAPHIC] [TIFF OMITTED] T8736.237
    
    [GRAPHIC] [TIFF OMITTED] T8736.238
    
    [GRAPHIC] [TIFF OMITTED] T8736.239
    
    [GRAPHIC] [TIFF OMITTED] T8736.240
    
    [GRAPHIC] [TIFF OMITTED] T8736.241
    
    [GRAPHIC] [TIFF OMITTED] T8736.242
    
    Senator DeWine. Before I get started, I have letters of 
support from Congressmen Sessions and Boozman which will be 
entered into the record at this point.
    Judge Zouhary, let me start with you. You are in the 
middle. We will just start with you. You have been a frequent 
lecturer on the topic of civility in the practice of law. How 
did you get into this area, and what does that mean, actually?
    Judge Zouhary. I got into it because the practice of law 
changed from the time I first started, and when I first 
started, there were no special rules on civility and 
professionalism. But for whatever reason, that tended to 
deteriorate, and I think it is perhaps reflective not just of 
our judicial system, but perhaps society as a whole.
    In any event, it was a topic of concern to me as a 
practicing trial lawyer who has spent a number of years working 
in different courtrooms with different judges. I noted 
different temperaments, different attitudes, and I believed it 
important that we return a bit more of the professionalism to 
our profession that had perhaps been lacking.
    So I began to speak, and one talk led to another and 
another invitation, and now I use it not only with lawyers, but 
also with civic groups as well, in attempt to reverse, and I 
think somewhat successfully, the trend that--
    Senator DeWine. What kind of reaction do you get?
    Judge Zouhary. Positive reaction, a very positive reaction 
from both lawyers and again from those civic groups that I have 
spoken with.
    Senator DeWine. Does that reflect in your work on the 
bench?
    Judge Zouhary. I, of course, take that with me to the 
bench, and in my courtroom strive to maintain the highest of 
those standards of civility and professionalism. I find that 
one can be an advocate, which I was for many years, and yet 
maintain a professional decorum. It does not have to reduce it 
to the lowest level, and so in my courtroom, I am--I think a 
judge's role is to be fair and firm, maintain a professional 
atmosphere.
    I have found that when tension--and there are times when it 
does get tense. Humor can be a great way to de-fuse the 
situation and allow the parties to resume a professional 
decorum. And I have had jurors, frankly, thank me for my 
efforts in keeping trials moving and keeping them on a 
professional level.
    Senator DeWine. Judge, you did some mediation work on the 
Federal Court Panel of Alternative Dispute Resolution. How did 
you get involved in that and what has that taught you and what 
impact has that had on your work as a Common Pleas judge, and 
what impact might that have in your role if you are confirmed 
by the U.S. Senate, if you go to the Federal district court?
    Judge Zouhary. Thank you. That panel, when it was started--
and I forget the year--began because there was a perceived need 
because of the clog in the docket--a way to help move cases. 
And they asked for volunteers and I volunteered and was one of 
a group that was instructed and then became a mediator, where 
you are assigned cases.
    And it is a quasi-judicial role in the sense that you take 
on that case and try to resolve it. So I was able to shed my 
advocate hat and put on a neutral or mediator hat and help with 
cases to alleviate the docket of Federal judges, frankly, that 
were becoming pretty overburdened. I have taken that on and 
have done some private mediator.
    And as a judge now, I take a proactive role and am actively 
engaged in settlement conferences, and try to use that mediator 
role to again resolve those cases that the parties are willing 
to resolve, realizing that there are some cases that need to be 
tried. And that is what we are as trial judges; we are there to 
try cases, as well, but I find it is a great way to help move 
cases and to keep the docket moving, yet giving each case the 
attention it deserves.
    Senator DeWine. Judge, you have spent most of your career 
not on the bench. In other words, you have had--I gave your 
introduction, but a rather interesting career, some of it in 
the private practice of law, some of it in corporate life, and 
only recently on the bench.
    Why do you want to be a Federal judge?
    Judge Zouhary. Well, I want to take the experience of the 
many courtrooms, which I viewed as my classrooms as a trial 
lawyer, and also now my own classroom our courtroom as a State 
court judge--take those experiences to help improve the 
judicial system.
    And there are a few things that one can do as a Federal 
judge that one cannot do as a State judge. I believe the cases 
are more challenging in Federal court. I would also like to 
expand the audience for my civility and professionalism talk. 
And, finally, something very dear to me is the opportunity to 
preside over immigration ceremonies, which a Federal judge can 
do.
    As a first-generation American who grew up with a number of 
immigrants, hard-working immigrants, a number of whom were part 
of what some have called the greatest generation, they greatly 
inspired me and it would be quite an honor for me to have the 
opportunity to welcome new citizens to this country.
    Senator DeWine. Judge Larson, let me kind of followup with 
you on that question. You have served as a magistrate judge now 
for, what, 5 years, I guess?
    Judge Larson. Five years.
    Senator DeWine. Explain the duties of that office and how 
you think it has prepared you to serve as a district court 
judge, and then maybe kind of tell me why you want to be a 
district court judge.
    Judge Larson. Well, thank you, Senator. I have thoroughly 
enjoyed these last 5 years as a magistrate judge. It has been a 
real privilege to serve the people of the Central District in 
that capacity.
    As a magistrate judge, I have both civil and criminal 
responsibilities. The criminal cases are misdemeanor cases, as 
opposed to the felony cases that a Federal district judge would 
have. And on the civil side, I have actually been fortunate to 
have been involved in a pilot project these last 2 years which 
has placed me on the wheel along with the two other active 
district judges in the Eastern Division of our Central 
District. Of course, the parties must consent to a magistrate 
judge before the case proceeds, but it has provided me an 
opportunity to have a wide range of civil cases, civil trials. 
And I think all of that experience together has well prepared 
me for the opportunity to be a district judge.
    It has also engendered in me the desire to become a 
district judge. I have thoroughly enjoyed the civil caseload. I 
spent 9 years in the U.S. Attorney's office doing mostly felony 
criminal work, and I look forward to being able to have an 
opportunity to do that if I were to be confirmed.
    I love being a judge. I love the role of the judiciary. I 
think the judiciary has a very important role to play in our 
society, and so that is why I want to be a district judge.
    Senator DeWine. Judge, I was intrigued by reading that you 
have traveled extensively in Eastern Europe. You have spoken to 
foreign audiences about criminal justice and the rule of law.
    How did you get into doing that and what have you learned 
from that? Just tell us a little bit about that experience. I 
think that is kind of an interesting background to bring to the 
Federal bench.
    Judge Larson. Well, when I was in the U.S. Attorney's 
office in Los Angeles, I was assigned to the organized crime 
strike force that Senator Feinstein made reference to. And at 
that time, we were having--it was shortly after the fall of the 
Soviet Union and we were having a large influx of organized 
crime elements from that part of the world--Brighton Beach, in 
New York, places in Los Angeles, a few other major metropolitan 
cities.
    So the Justice Department decided to indicate an individual 
who would be the Russian organized crime coordinator for each 
judicial district in which there was this activity, or believed 
to be this activity. I was selected probably largely because I 
knew a little bit about Russia. I had studied Russian language 
and culture and history at Georgetown University.
    And, of course, if you know a little bit about something, 
all of a sudden you are the expert in the area. And since no 
one else stepped forward, I was assigned to do that, and it was 
a tremendous opportunity. I was able to work on a lot of cases 
with colleagues from overseas, and as part of that I also had a 
chance to go over on behalf of the Justice Department to speak 
at conferences which were designed to try to spread the rule of 
law.
    From that experience, I developed a tremendous appreciation 
for the importance of the rule of law. I saw firsthand and 
heard firsthand accounts of what it was like to live in a 
totalitarian society in which the rule of individuals or the 
rule of an individual party was substituted for the rule of 
law.
    I spoke to judges who held that role under the communist 
system and who were now struggling to develop a judicial system 
very much modeled after many Western countries, and the 
challenges that they were facing. And in trying to provide some 
assistance or insight on our effort, it gave me a renewed 
appreciation for what a valuable system we have here, a renewed 
appreciation and commitment on my part to the rule of law.
    Senator DeWine. Judge, you have spent practically your 
entire career working daily in the Federal courthouse as a 
prosecutor and magistrate judge. You certainly must know the 
Central District of California's caseload quite well. What do 
you think are the unique challenges of that particular court? 
You have kind of sized it up, I am sure.
    Judge Larson. That is kind of the obvious one, is the size. 
It is a huge judicial district. There are approximately 18 
million people in the Central District, which I believe makes 
it the largest judicial district in the country by population. 
We have currently, I believe, 28 active district judges, 23 
magistrate judges. And so the first challenge is just dealing 
with the sheer volume, both in terms of the number of cases, 
the population, the size of the district. It is quite large. So 
that is probably our biggest challenge.
    We also have the challenges that are presented, I suppose, 
by having a very diverse population. While that is very 
rewarding and it is a great asset for Southern California, it 
raises a whole panoply of different issues that find their way 
in one form or another into Federal court.
    Senator DeWine. Let me ask both of you, Judge Larson and 
Judge Zouhary, a question we ask all nominees. Supreme Court 
and Federal circuit court precedents are binding on district 
courts, as you know. Are you committed and willing to follow 
the precedents of the higher courts faithfully and give them 
full force and effect even if you might personally disagree 
with those precedents?
    Judge Zouhary?
    Judge Zouhary. Yes.
    Senator DeWine. Judge Larson?
    Judge Larson. Yes.
    Senator DeWine. Mr. Clark, what do you think is the biggest 
challenge facing the Marshals Service?
    Mr. Clark. I seem to be having a little feedback here with 
this microphone, but--
    Senator DeWine. Technical problems.
    Mr. Clark. Technical problems, yes.
    Senator DeWine. The biggest challenge today.
    Mr. Clark. That could be the first challenge from Capitol 
Hill, yes.
    Thank you, Chairman. There are a number of challenges, I 
think, that face the Marshals Service. And as you know from our 
history, and as Senators Warner and Allen explained, we have a 
rather unique series of missions we perform, be it detaining 
nearly 55,000 inmates around the country in various regional or 
local jails; protecting Federal witnesses; apprehending 
fugitives, which last year, with our State and local Federal 
partners, arrested nearly 89,000 nationally.
    But one of the greatest challenges that I have faced since 
becoming the Acting Director--and it is one that I believe the 
two gentlemen sitting with me here today can appreciate--is 
that of judicial security. We are at a point in our history 
where the challenges from terrorism, other individuals who have 
attacked members of the judiciary, have required us to rethink 
our strategies and our game plan, if you will, on how we will 
do our judicial security mission. So to me, one of the first 
and foremost challenges I have faced is providing first-class, 
superior protection to the members of our judiciary.
    Senator DeWine. Without compromising security or discussing 
any details about security, which you are obviously not going 
to do, what changes have been made, Mr. Clark, since the recent 
tragedy regarding the tragic murder of Judge Lefkow's husband 
and mother? It concerns us all. What are you doing differently?
    Mr. Clark. Sure. Mr. Chairman, soon after I was appointed 
as the Acting Director of the Marshals Service, I realized that 
we needed to look at all the various strategies, the types of 
things we do to protect the Federal judiciary, and looking at 
how we are doing it now compared to the days where we had used, 
I would say, strategies that could be in need of improvement.
    A couple of the areas that I immediately sought to improve 
is how we collect and analyze threats and the intelligence on 
those threats, the analysis of those threats. I immediately 
formed a working group to look at how we can do that better. I 
put a rather fast time line on this working group to recommend 
to me how we can make some significant improvements to doing 
the threat analysis and the threat intelligence process 
following the tragedy that happened in the Judge Lefkow 
situation, which, as you know, required a lot of additional 
investigation on the threat and the threatener in that case.
    They returned to me a number of recommendations. Just to 
share one or two of them with you, for example, I am in the 
process of formulating a 24/7 threat analysis center at our 
headquarters. I believe this will provide not only to the 
judiciary, but to our field offices around the country in our 
94 judicial districts real-time analysis of threats that come 
in so that we can respond to them quickly and thoroughly.
    Additionally, I asked a separate working group to look at 
how we can explore the use of technology to provide electronic 
observation of judges' residences, such as in the Judge Lefkow 
situation, if we need to do protective details. This particular 
working group also made some very good recommendations as to 
how we can improve our technology and the use of technology to 
protect the judiciary.
    Senator DeWine. Well, I appreciate that. As you know, the 
Judiciary Committee held an oversight hearing entitled 
``Protecting the Judiciary at Home and in the Courthouse.'' 
That was held on May 18, 2005. Judge Roth testified at that 
time that the U.S. Marshals Service fails to adequately consult 
and coordinate with the Federal judiciary regarding judicial 
security.
    I wonder if you can react to that at this point. What has 
the Marshals Service done to address those specific concerns?
    Mr. Clark. Yes, Mr. Chairman. Soon after I assumed the 
duties of the Acting Director of the Marshals Service, one of 
my very first meetings with members of the judiciary concerned 
working with the Administrative Office of the U.S. Courts and a 
number of the Committee members on the national Judicial 
Conference's Committee on Judicial Security. I met with them 
specifically to discuss this very issue about how I can 
personally improve the coordination and the collaboration with 
the members not only of the judiciary, but of the 
Administrative Office of the U.S. Courts.
    I also should note the two working groups that I mentioned 
a few minutes ago--I invited, and received great response from 
the Administrative Office of the U.S. Courts, to serve as 
Committee members on those two working groups. Most recently, I 
went to Tucson, Arizona, to meet with the Judicial Security 
Committee. I outlined for them a number of the recommendations 
that I intend to take, should I be confirmed by this Committee, 
to improve the cooperation and collaboration with the courts.
    Senator DeWine. So your pledge to this Committee is that 
one of your priorities will be very excellent communication 
with the judges, then?
    Mr. Clark. That is certainly my pledge.
    Senator DeWine. They are obviously part of your main 
constituency.
    Mr. Clark. Very much. That is certainly my pledge, Mr. 
Chairman.
    Senator DeWine. Following that May hearing, then-Director 
Reyna received a series of written followup questions from 
Committee members. I believe, to my knowledge, at least, these 
questions were never answered by the Director at that time and 
remain unanswered. Can you check into that and see if we could 
get answers to those questions? And if you don't have them, we 
can supply them to you.
    Mr. Clark. We do have them and we are working on getting 
them answered, having received them after I assumed the--
    Senator DeWine. I understand you didn't--
    Mr. Clark. Yes, sir. Yes, Chairman, we are working on them.
    Senator DeWine. We would appreciate that.
    Mr. Clark. Sure.
    Senator DeWine. Let me go back to these tragic murders. 
Congress passed an emergency supplemental appropriations bill 
which was signed into law in May of 2005. It specifically $11.9 
million to the Marshals Service for increased judicial security 
outside of courthouse facilities. That funding specified 
priority consideration of home intrusion detection systems in 
the homes of Federal judges.
    To my knowledge, none of the money has yet been used on 
home intrusion detection systems. Is that correct?
    Mr. Clark. Well, not entirely, Mr. Chairman. We have 
recently begun the implementation--
    Senator DeWine. You have begun to do that now?
    Mr. Clark. Correct. Just within recent months after I 
assumed the acting directorship, I began working on allocating 
and using the funds to install the home intrusion alarms.
    Senator DeWine. It is my understanding that the U.S. 
Marshals Service is not currently statutorily charged with 
protecting the United States Tax Court. Is that your 
understanding?
    Mr. Clark. That is correct, Mr. Chairman.
    Senator DeWine. This court is often in relatively unsecured 
locations, and I think we all can imagine that it might be 
subject to some problems and there might be some security 
problems.
    What is your opinion about the possibility of Congress 
adding the Tax Court to your jurisdiction?
    Mr. Clark. Well, Mr. Chairman, we, as you know, now have 
about 2,200 judges nationally that we are in charge of 
protecting, as well as approximately 5,500 U.S. Attorneys.
    Senator DeWine. I know you probably want some money to do 
it.
    Mr. Clark. Yes, I would be concerned about the resources.
    Senator DeWine. You want some resources, but if we gave you 
the resources, could you deal with that?
    Mr. Clark. Mr. Chairman, the judges certainly deserve the 
best protection that we can give them and we would react 
appropriately to any legislation that would require us to take 
on those additional duties, as you noted, with the right 
resources.
    Senator DeWine. Talk to me a little bit, Mr. Clark, about 
apprehension of fugitives. We have noticed some innovative 
programs in Ohio recently by the Marshal there, and I wonder if 
you could just talk about where you see that going. It seems 
that this is an area where boldness and innovation can bring 
about some fairly dramatic results.
    Mr. Clark. Sure. Mr. Chairman, the Marshals Service, as you 
have noted, has a longstanding history of apprehending 
dangerous fugitives, lowering violent crime. And as you pointed 
out as well, one of our, I think, very innovative, excellent 
fugitive apprehension projects has come forth from your 
particular State.
    Senator DeWine. We are kind of proud of that.
    Mr. Clark. Well, I just recently was--
    Senator DeWine. Not that I did anything about it, but you 
all did, and we are proud you did it.
    Mr. Clark. Well, thank you, thank you. The particular 
program you are referring to, Operation Safe Surrender, allows 
fugitives to surrender to community clergy as a way to have a 
sort of a neutral site, if you will, for a fugitive to 
surrender. That softens, if you will, sort of the law 
enforcement response that sometimes comes with the apprehension 
of fugitives.
    It also, as we noted in that particular instance, resulted 
in about 850 fugitives turning themselves in. Very remarkable 
to say it even went beyond our target goals and desired 
thinking that that many fugitives would turn themselves in. So 
we were delighted with the results.
    I am pleased to report to the Committee that since I have 
served as Acting Director, I have approved an additional eight 
cities around the country that have a particularly high violent 
crime ratio where we hope to utilize this program that 
originated from Ohio to be very effective.
    Senator DeWine. Well, I want to again commend you for that 
program. From what we have seen in Ohio, it looks to be a very 
effective program. That type of innovation and kind of thinking 
outside the box seems to make a lot of sense and it seems to 
work very, very well.
    Mr. Clark. Thank you.
    Senator DeWine. Let me just say that we look forward to 
working with you. Your job is a very important job. You have 
some very good people around the country who are doing very, 
very tough work everyday. They are protecting some very 
important people, but they are also getting some very tough 
people off the streets. If you need our assistance or you need 
our help or you need additional resources, we hope that you 
won't hesitate to come to us.
    Mr. Clark. Thank you, Senator.
    Senator DeWine. So we look forward to a good relationship 
with you.
    Mr. Clark. Likewise. Thank you, Senator.
    Senator DeWine. Thank you.
    Let me ask our two judge candidates, Judge Larson and Judge 
Zouhary, a question about how you would describe how you run a 
court. One of the complaints I always hear from lawyers and 
kind of a complaint I had when I practiced law when I was a 
prosecutor was judges who would not let lawyers kind of try 
their case.
    What is the balance there between controlling your own 
courtroom, which you have to do, but also letting a prosecutor 
or a U.S. Attorney or a defense counsel have some leeway in 
trying their case? You know what I am talking about.
    Judge Larson?
    Judge Larson. Thank you, Senator. Yes, as a former 
prosecutor who spent a lot of time in the Federal courts and 
observing the way that different Federal judges ran their 
courtroom, I definitely developed--
    Senator DeWine. You have kind of seen it all.
    Judge Larson. I haven't seen it all by any sense, but I 
have seen quite a bit.
    Senator DeWine. You have seen a lot of variation, range.
    Judge Larson. I have tried to strike that balance in my own 
courtroom. I will give you one example. During the voir dire 
process, which, of course, is a very important process by which 
we select a fair and impartial jury, there were some Federal 
judges who would never allow attorneys to ask any questions 
themselves. There were others that perhaps allowed them to go 
on a bit too much.
    Senator DeWine. Right.
    Judge Larson. And I have tried to strike a balance there by 
always making sure that the attorneys do have an opportunity to 
ask some followup questions after I have asked the general 
questions, but placed what I considered to be reasonable 
limitations on that. That is just one example.
    I do think it is important for judges to be aware that you 
need to maintain control of the courtroom. There is a need for 
firmness, but here is also a need for gentleness and allowing 
attorneys to try their case.
    Senator DeWine. Judge Zouhary.
    Judge Zouhary. The only thing I would add to Judge Larson's 
fine answer is that I promised myself when I took the bench 
that I would not forget my years as a trial lawyer and utilize 
those experiences and to remember what it is like to be on the 
other side of the bench.
    Senator DeWine. I want to congratulate our children in the 
audience. They are doing well. We haven't put them to sleep yet 
and we won't press our luck here. Thank you all very much.
    The record will remain open, which means that other members 
of the Committee can send you questions. We will keep that open 
for a week. The record will actually close on Wednesday, 
February 22, at 5 p.m. So that is the official time the record 
will close. At any point until then, written questions can be 
submitted to you. If you get written questions, we would hope 
that you would turn those around very quickly. That will 
expedite our procedure. If they are not turned around, we can't 
move, so we will wait for those. We hope then to have a markup, 
or markups, depending on the pleasure of the Chairman and 
ranking member, and move your nominations forward.
    So we appreciate it. You have been very helpful and we wish 
you all good luck, and we thank the families for being here and 
we congratulate all of you. Thank you very much.
    [Whereupon, at 10:51 a.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
[GRAPHIC] [TIFF OMITTED] T8736.243

[GRAPHIC] [TIFF OMITTED] T8736.244

[GRAPHIC] [TIFF OMITTED] T8736.245

[GRAPHIC] [TIFF OMITTED] T8736.246

[GRAPHIC] [TIFF OMITTED] T8736.247

[GRAPHIC] [TIFF OMITTED] T8736.248

[GRAPHIC] [TIFF OMITTED] T8736.249

[GRAPHIC] [TIFF OMITTED] T8736.250

[GRAPHIC] [TIFF OMITTED] T8736.251

[GRAPHIC] [TIFF OMITTED] T8736.252

[GRAPHIC] [TIFF OMITTED] T8736.253

[GRAPHIC] [TIFF OMITTED] T8736.254

[GRAPHIC] [TIFF OMITTED] T8736.255

[GRAPHIC] [TIFF OMITTED] T8736.256

[GRAPHIC] [TIFF OMITTED] T8736.257

[GRAPHIC] [TIFF OMITTED] T8736.258

[GRAPHIC] [TIFF OMITTED] T8736.259

[GRAPHIC] [TIFF OMITTED] T8736.260

[GRAPHIC] [TIFF OMITTED] T8736.261

[GRAPHIC] [TIFF OMITTED] T8736.262

[GRAPHIC] [TIFF OMITTED] T8736.263

[GRAPHIC] [TIFF OMITTED] T8736.264

[GRAPHIC] [TIFF OMITTED] T8736.265

[GRAPHIC] [TIFF OMITTED] T8736.266

[GRAPHIC] [TIFF OMITTED] T8736.267

[GRAPHIC] [TIFF OMITTED] T8736.268

[GRAPHIC] [TIFF OMITTED] T8736.269

[GRAPHIC] [TIFF OMITTED] T8736.270

[GRAPHIC] [TIFF OMITTED] T8736.271

[GRAPHIC] [TIFF OMITTED] T8736.272

[GRAPHIC] [TIFF OMITTED] T8736.273

[GRAPHIC] [TIFF OMITTED] T8736.274

[GRAPHIC] [TIFF OMITTED] T8736.275

[GRAPHIC] [TIFF OMITTED] T8736.276

[GRAPHIC] [TIFF OMITTED] T8736.277

[GRAPHIC] [TIFF OMITTED] T8736.278

[GRAPHIC] [TIFF OMITTED] T8736.279

[GRAPHIC] [TIFF OMITTED] T8736.280

[GRAPHIC] [TIFF OMITTED] T8736.281

[GRAPHIC] [TIFF OMITTED] T8736.282

[GRAPHIC] [TIFF OMITTED] T8736.283

[GRAPHIC] [TIFF OMITTED] T8736.284

[GRAPHIC] [TIFF OMITTED] T8736.285



  NOMINATIONS OF NORMAN RANDY SMITH, OF IDAHO, NOMINEE TO BE CIRCUIT 
JUDGE FOR THE NINTH CIRCUIT; AND PATRICK JOSEPH SCHILTZ, OF MINNESOTA, 
       NOMINEE TO BE DISTRICT JUDGE FOR THE DISTRICT OF MINNESOTA

                              ----------                              


                        WEDNESDAY, MARCH 1, 2006

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 4 p.m., in room 
SD-226, Dirksen Senate Office Building, Hon. Tom Coburn 
presiding.
    Present: Senator Coburn.

 OPENING STATEMENT OF HON. TOM COBURN, A U.S. SENATOR FROM THE 
                       STATE OF OKLAHOMA

    Senator Coburn. The Committee will come to order.
    Today we will have a confirmation hearing for two of the 
President's judicial nominees. I hope we can get your 
nominations voted out of the Committee shortly and through the 
Senate as fast as possible.
    We have no Ranking Member here as yet, so if they show up, 
we will allow them an opportunity to make a comment.
    We are very privileged to have our distinguished colleagues 
here from the great State of Idaho as well as Senator Coleman 
from the State of Minnesota. Welcome, and we will start with 
Senator Craig.

  PRESENTATION OF NORMAN RANDY SMITH, OF IDAHO, NOMINEE TO BE 
  CIRCUIT JUDGE FOR THE NINTH CIRCUIT, BY HON. LARRY CRAIG, A 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Craig. Well, Mr. Chairman, thank you very much for 
the courtesy that you have extended to us. I say that of the 
Chairman of the full Committee, Senator Specter. These hearings 
had been canceled because of scheduling conflicts, and when 
Senator Crapo and I met with him on the floor earlier in the 
day, he recognized that we had nominees who had flown literally 
the distance across our Nation to be here today, and 
recognizing that--and I think the Committee record also ought 
to show that I then appealed to you. Your schedule was tight, 
and you adjusted your schedule accordingly, and that is truly 
appreciated.
    So I do appreciate the opportunity to appear before the 
Committee today to introduce Randy Smith, who has been 
nominated to fill the Ninth Circuit seat in Boise, Idaho, being 
vacated by Judge Stephen Trott.
    Randy Smith comes to you with considerable judicial 
experience. He has been a State district judge in Idaho's Sixth 
Judicial District for a decade. He has served as a felony drug 
court judge and a pro tem Justice for the Idaho Supreme Court 
and the Idaho Court of Appeals. He has a wealth of experience 
in both the practice of teaching law and he has been an active 
member of the Bar Association and other professional 
associations, Mr. Chairman.
    He has a life beyond law as well, as most of our judges do. 
He is deeply involved in his community and his State. He has 
held positions of leadership and responsibility in a wide 
variety of organizations. All of these things you can see for 
yourself in Judge Smith's long resume.
    What you cannot see there and what I would like to share 
with you is a reputation that Randy Smith has earned in the 
State of Idaho amongst his neighbors, his peers, and the people 
he serves. I hope today you will see what Idahoans have come to 
like and respect in Judge Smith. He is a fine man, the kind of 
person that you would want to have as a Scout leader for your 
kids. He is a principled and a knowledgeable community citizen, 
the kind of person you would want to have on your team or on 
your board. He is a thoughtful and objective judge, the kind of 
judge you would trust to render an impartial and well-reasoned 
decision.
    Men and women come to the bench by many different roads, 
including academia and the elected public office. Randy Smith's 
real-world experiences give him a perspective and skill set 
that will be extremely valuable on the appellate court. His 
character and competence fits him to advance to this important 
position, and Idahoans are confident he will be a tremendous 
asset to our region and to the Nation as a judge on the Ninth 
Circuit Court of Appeals.
    Finally, let me say a few words about the history of this 
particular seat, Mr. Chairman, because it may well be discussed 
before the Committee. As the Committee well knows, there are 
geographic traditions attached to some court seats. In this 
case, this seat's pedigree is very mixed. In 70 years, it has 
moved from Oregon to Washington State to California and to 
Idaho. Although Judge Trott, the judge that is going senior, 
worked in California during his career, he was nominated to the 
seat as a Virginian and he worked from Boise, Idaho, for all of 
the full 19 years of his tenure. So that is a rather mixed 
approach to get to where we need to get, but it clearly 
explains what some may question. In fact, the seat has resided 
in Idaho longer than it has resided in California.
    I do not believe any tradition was violated within 
President Bush nominated an Idahoan to this seat, and I support 
his decision to maintain the status quo by keeping the seat in 
Idaho. I know the California Senators have expressed concern as 
to why this is, and that is why I speak to the history of this 
seat of the Ninth Circuit.
    Again, Mr. Chairman, and to the full Committee, thank you 
very much for allowing these hearings to go forth this 
afternoon.
    Senator Coburn. Thank you, Senator Craig.
    I know that Senator Coleman is here, and you were supposed 
to be sitting in the Chair for me. I hope somebody is doing 
that. I would feel rest assured that that has been taken care 
of.
    Senator Coleman. I think they took care of that, Mr. 
Chairman. Thank you.
    Senator Coburn. Senator Crapo?

  PRESENTATION OF NORMAN RANDY SMITH, OF IDAHO, NOMINEE TO BE 
CIRCUIT JUDGE FOR THE NINTH CIRCUIT, BY HON. MIKE CRAPO, A U.S. 
                SENATOR FROM THE STATE OF IDAHO

    Senator Crapo. Thank you very much, Mr. Chairman. I want to 
join with Senator Craig in personally thanking you for 
accommodating and changing your schedule so that we could 
accommodate Judge Smith, who has literally traveled across the 
country to be here and faced the prospect of having the hearing 
canceled had you not been willing to do that. So thank you. I 
also thank the Chairman of the full Committee, Senator Specter, 
for being so willing to work with us to accommodate these 
changes.
    Mr. Chairman, I am pleased to also join with Senator Craig 
in introducing Randy Smith. On December 16, 2005, President 
Bush nominated Judge Smith to fill the seat on the Ninth 
Circuit Court of Appeals that was, as Senator Craig said, 
vacated by Judge Stephen Trott of Idaho who took senior status. 
And it is a pleasure for me to be able to be here, not only 
because we have an outstanding Idahoan, but because Judge Smith 
is a personal friend of mine whom I have known for many years. 
And I could not be more happy to sit before this Committee to 
recommend and support any nominee from the State of Idaho than 
Randy Smith for this position.
    Since 1996, Judge Smith has served as district judge for 
the Sixth Judicial District of the State of Idaho, and it is my 
understanding that the American Bar Association has given him a 
unanimous ``well qualified'' rating for his nomination to the 
Ninth Circuit Court of Appeals.
    Randy Smith earned both his undergraduate and law degrees 
from Brigham Young University. Throughout his career, both in 
private practice and as a judge, Randy Smith has continued to 
be a student and teacher of the law. He taught courses in 
business law and tax law at Brigham Young and later at Boise 
State University. Since 1993, he has served on the faculty at 
Idaho State University teaching legal environment and business 
law.
    Prior to becoming a judge, Randy spent more than 15 years 
in private practice gaining significant experience before both 
the State and Federal courts. Judge Smith is a member of the 
bar of the U.S. Supreme Court, the Ninth Circuit Court of 
Appeals, the U.S. District Court for the District of Idaho, the 
U.S. Tax Court, the Idaho Supreme Court, and all courts in 
Idaho.
    In addition to his current position as district judge in 
Idaho, Judge Smith also serves from time to time as pro tem 
Justice on the Idaho Supreme Court, as a Justice of the Idaho 
Court of Appeals, and as a temporary judge in the district 
courts throughout the State of Idaho. He mediates approximately 
100 Federal and State civil cases each year.
    In 2004, Judge Smith received the George G. Granada, Jr., 
Award presented by the Idaho State Judiciary in recognition of 
demonstrated professionalism as an Idaho trial judge and for 
motivating and inspiring his colleagues on the bench by his 
character and his actions. In 2002, he received the Outstanding 
Service Award from the Idaho State Bar Board of Commissioners.
    Judge Smith is also a member of the Board of Directors and 
is the Past President of the Idaho State Civic Symphony. It is 
clear that the President has nominated a well-qualified judge 
in Randy Smith to fill this vacancy in the Ninth Circuit, and I 
urge this Committee to approve the nomination.
    Before I conclude, Mr. Chairman, I have a lot of material 
as well, as Senator Craig has presented, about the history of 
this seat. But I think that it is very clear that the President 
violated no precedent and, in fact, followed the best precedent 
that could be taken from the history of this seat in nominating 
a candidate from Idaho, and certainly with such an outstanding 
and well-qualified candidate as Judge Smith, we should proceed 
rapidly with this nomination.
    Thank you.
    Senator Coburn. Senator Coleman?

 PRESENTATION OF PATRICK JOSEPH SCHILTZ, OF MINNESOTA, NOMINEE 
  TO BE DISTRICT JUDGE FOR THE DISTRICT OF MINNESOTA, BY HON. 
    NORM COLEMAN, A U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Coleman. Thank you, Mr. Chairman, and I do hope 
that there is somebody covering and presiding over the Senate 
right now. My staff assures me that was taking place.
    Senator Crapo. You would have heard about it if there 
wasn't.
    Senator Coleman. The BlackBerry would have been going off.
    Mr. Chairman, I also want to express my appreciation for 
your willingness to step forward to have this hearing. The 
Schiltz family traveled from Minnesota today. It is Mrs. 
Schiltz's birthday, it is his son's birthday, and they are 
here, and I am thrilled to have this opportunity to present 
them and introduce them to you and the Committee.
    This is the first opportunity I have had to be involved as 
a U.S. Senator in recommending a candidate for a position as a 
district judge. And I am just thrilled t have been able to work 
with somebody of the extraordinary talent and character and 
integrity of Patrick Schiltz. He brings broad legal experience 
and remarkable qualifications to the position as U.S. District 
Judge for the District of Minnesota.
    Mr. Schiltz is a native of Duluth, Minnesota, and I am sure 
this is a proud day for the people of that city and the College 
of St. Scholastica, where he graduated. The Duluth view from 
the high bluff above Lake Superior is one of the Nation's most 
amazing and beautiful, incredible landmarks. I think the lake 
is the world's largest body of fresh water, so as Mr. Schiltz 
steps forward to take on this big job, he knows what big really 
is.
    After graduating from St. Scholastica, Mr. Schiltz attended 
Harvard Law School, where he graduated magna cum laude and was 
editor of the Harvard Law Review. He served as a law clerk to 
U.S. Supreme Court Justice Antonin Scalia for 2 years. In fact, 
Mr. Chairman, he first clerked for Judge Scalia on the D.C. 
Circuit Court of Appeals, and then when Judge Scalia became 
Justice Scalia, he was asked to clerk for him during his first 
year as a United States Supreme Court Justice.
    Mr. Schiltz then joined with the Faegre and Benson law 
firm, Minnesota's second largest law firm. He has represented a 
wide variety of clients, including the Evangelical Lutheran 
Church in America, the Archdiocese of St. Paul in Minneapolis, 
the Star Tribune, the National Football League, the Minnesota 
Vikings, and the Minnesota Timberwolves. In Minnesota, there 
aren't any more important clients than the Lutherans and the 
Minnesota Vikings.
    [Laughter.]
    Senator Coleman. Mr. Chairman, I think we all know that the 
very best way to learn a subject is to teach it. In 1995, Mr. 
Schiltz joined the faculty of Notre Dame Law School, where he 
became a nationally recognized scholar in the areas of legal 
ethics and appellate procedure. As a reporter to the Advisory 
Committee on the Federal Rules of Appellate Procedure, and as 
the primary co-author of the leading treatise on those rules, 
Mr. Schiltz is a preeminent expert on appellate procedure in 
the United States.
    In July 2000, he became the founding associate dean and 
interim dean of the University of St. Thomas Law School in St. 
Paul, Minnesota, where he played a significant role in many 
aspects of creating the new law school.
    On December 14, 2005, President Bush nominated Mr. Schiltz 
to serve as United States District Judge for the District of 
Minnesota. This nomination will replace retiring Judge Richard 
Kyle who served as our senior judge with passion, dignity, and 
integrity.
    The authors of the Constitution vested the President with 
the power to make nominations to the Federal judiciary. Federal 
judges receive a lifetime appointment and, therefore, should be 
individuals of high intellect with the appropriate judicial 
temperament and finest character.
    I take my constitutional responsibility to provide advice 
and consent very seriously, as all members of this Committee 
do. I am very supportive of Mr. Schiltz's nomination. He is 
clearly a nominee with high intellect, high character, the 
right judicial temperament and integrity. I encourage the 
Committee to do a thorough job of examining him, to then 
support his nomination, and then to forward the nomination to 
the full Senate.
    I want to take this opportunity to congratulate Mr. Schiltz 
on his outstanding career and the willingness of him and his 
family, his wife, Elizabeth Rose Schiltz, and their four 
children, to step forward to provide public service in this 
important post.
    Thank you, Mr. Chairman.
    Senator Coburn. Thank you, Senator Coleman.
    We realize there are many demands on your time. If you 
would care to stay, that would be fine. But, otherwise, we will 
excuse you, and we would ask our two nominees to come forward 
and be sworn in.
    Raise your right hand. Do you swear that the testimony you 
are about to give before this Committee is the truth, the whole 
truth, and nothing but the truth, so help you God?
    Judge Smith. I do.
    Mr. Schiltz. I do.
    Senator Coburn. You may be seated.
    The first nominee is Judge Norman Randy Smith, nominated to 
be a circuit court judge on the United States Court of Appeals 
for the Ninth Circuit. Judge Smith graduated from the Brigham 
Young University in 1974 and received his J.D. from BYU's J. 
Reuben Clark School of Law in 1977.
    Following law school, Judge Smith joined the J.R. Simplot 
Company as a corporate attorney, and in 1981, he began a long 
association with the law firm of Merrill and Merrill, where his 
practice focused on corporate and insurance defense litigation. 
He later became a partner at the firm. He remained with Merrill 
and Merrill until his election to the Idaho bench in 1996 as a 
district court judge in Idaho's Sixth Judicial District. In 
2004, he was made an administrative judge for that district.
    While serving on the bench, Judge Smith has continued to 
contribute to the community in Idaho and to the legal 
profession in that State. He has taught as an adjunct professor 
at Idaho State University since 1984. Last year, he was named 
the Outstanding Teacher of the Year. Judge Smith has received a 
unanimous ``well qualified'' rating from the American Bar 
Association.
    Second is Patrick Schiltz, nominated to be a district court 
judge for the District of Minnesota. Mr. Schiltz received his 
B.A. from the College of St. Scholastica in 1981 and his J.D. 
from Harvard Law School. He has had a distinguished legal 
career and will bring over 20 years of legal experience to the 
Federal bench.
    Following law school, he served as law clerk to Justice 
Scalia during his last year on the United States Court of 
Appeals for the D.C. Circuit and his first year on the Supreme 
Court. Mr. Schlitz--Schiltz--I have a problem with that. That 
beer is not available anymore.
    [Laughter.]
    Senator Coburn. He has worked as a private practitioner at 
Faegre and Benson, LLP, from 1987 to 1995, serving as associate 
until becoming partner in 1993. More recently, he has made his 
mark in the legal profession as a scholar. He has served on the 
faculty of Notre Dame Law School from 1995 to 2000 and left to 
help found the University of St. Thomas School of Law. He 
currently holds the school's St. Thomas More Chair in law. He 
is recognized as an expert in the areas of legal ethics and 
appellate procedure. He is co-author of the recent editions of 
Wright and Miller's ``Federal Practice and Procedure,'' the 
seminal treatise for litigators across the country.
    In 1997, he was appointed by Chief Justice Rehnquist to 
serve as the reporter to the Advisory Committee on the Federal 
Rules of Appellate Procedure, a position he still holds. The 
American Bar Association gave Mr. Schiltz a unanimous ``well 
qualified'' rating.
    Gentlemen, we welcome you to the Committee. We would be 
pleased to hear any statement that you care to make, and I 
would ask you to introduce your family and friends who are here 
for your hearing. I would ask you to limit your statement to 5 
minutes.
    Judge Smith?

 STATEMENT OF NORMAN RANDY SMITH, NOMINEE TO BE CIRCUIT JUDGE 
                     FOR THE NINTH CIRCUIT

    Judge Smith. Thank you very much, Mr. Chairman. I 
appreciate very much you holding this hearing for us today, and 
I appreciate having the Committee have this hearing for us.
    I am very appreciative to the President of the United 
States for presenting my nomination to the Committee, and I am 
very appreciative of those two wonderful Idaho Senators who 
introduced me here today. I have become friends with both of 
them, and I find them both to be strengths to Idaho and the 
best representatives we can have. I appreciate very much their 
effort on my regard.
    I do have my cousin Dirk Smith here today. He has joined 
us. I know that it is often told to me that I should not start 
out with apologies, but I am going to have two.
    The first that I apologize because, as I came in, somehow I 
have a cold, and that cold has left me a little bit under the 
weather, and I hope you--I apologize for that.
    My second apology is for my wife, La Dean, who would be 
here. She felt this was very appropriate to come, but she is a 
teacher at the Hawthorne Junior High School in Pocatello, and 
her parents are very ill in Layton. We had to take one to the 
emergency room last weekend, and she thought, as their only 
daughter, she ought to be with them. So she apologizes for not 
being here and a part of this hearing.
    Thank you very much. I have no other statement.
    [The biographical information of Judge Smith follows:] 
    [GRAPHIC] [TIFF OMITTED] T8736.286
    
    [GRAPHIC] [TIFF OMITTED] T8736.287
    
    [GRAPHIC] [TIFF OMITTED] T8736.288
    
    [GRAPHIC] [TIFF OMITTED] T8736.289
    
    [GRAPHIC] [TIFF OMITTED] T8736.290
    
    [GRAPHIC] [TIFF OMITTED] T8736.291
    
    [GRAPHIC] [TIFF OMITTED] T8736.292
    
    [GRAPHIC] [TIFF OMITTED] T8736.293
    
    [GRAPHIC] [TIFF OMITTED] T8736.294
    
    [GRAPHIC] [TIFF OMITTED] T8736.295
    
    [GRAPHIC] [TIFF OMITTED] T8736.296
    
    [GRAPHIC] [TIFF OMITTED] T8736.297
    
    [GRAPHIC] [TIFF OMITTED] T8736.298
    
    [GRAPHIC] [TIFF OMITTED] T8736.299
    
    [GRAPHIC] [TIFF OMITTED] T8736.300
    
    [GRAPHIC] [TIFF OMITTED] T8736.301
    
    [GRAPHIC] [TIFF OMITTED] T8736.302
    
    [GRAPHIC] [TIFF OMITTED] T8736.303
    
    [GRAPHIC] [TIFF OMITTED] T8736.304
    
    [GRAPHIC] [TIFF OMITTED] T8736.305
    
    [GRAPHIC] [TIFF OMITTED] T8736.306
    
    [GRAPHIC] [TIFF OMITTED] T8736.307
    
    [GRAPHIC] [TIFF OMITTED] T8736.308
    
    [GRAPHIC] [TIFF OMITTED] T8736.310
    
    [GRAPHIC] [TIFF OMITTED] T8736.311
    
    [GRAPHIC] [TIFF OMITTED] T8736.312
    
    [GRAPHIC] [TIFF OMITTED] T8736.313
    
    [GRAPHIC] [TIFF OMITTED] T8736.314
    
    [GRAPHIC] [TIFF OMITTED] T8736.315
    
    [GRAPHIC] [TIFF OMITTED] T8736.316
    
    Senator Coburn. Professor Schiltz?

  STATEMENT OF PATRICK JOSEPH SCHILTZ, NOMINEE TO BE DISTRICT 
              JUDGE FOR THE DISTRICT OF MINNESOTA

    Mr. Schiltz. Thank you, Mr. Chairman. I, too, want to 
express my appreciation to the Judiciary Committee, and 
particularly to you for allowing this hearing to go forward. I 
did not have as far to come as Judge Smith did, but I had four 
kids to get into their Sunday best and try to keep clean all 
day.
    [Laughter.]
    Mr. Schiltz. Doing that twice would have been a lot. So 
thank you personally for making sure this hearing went forward.
    I also want to express my deep gratitude to the President 
for nominating me, to Senator Coleman for recommending me, and 
to Senator Dayton for helping to make sure this hearing would 
go forward.
    I don't have an opening statement, but I would like just 
briefly to introduce my family: My wife, Elizabeth Schiltz. 
This happens to be her birthday, as Senator Coleman mentioned. 
This is the first time we have had a birth day at a 
confirmation hearing. My oldest child, Anna, who is 15. My son 
Joe, whose birthday is also today. He is 13 today. My son 
Peter, who is sitting behind me to my left. And, finally, the 
last of our children, as I underscore, Katie, who is 5.
    Thank you again, Mr. Chairman.
    [The biographical information of Mr. Schiltz follows:] 
    [GRAPHIC] [TIFF OMITTED] T8736.317
    
    [GRAPHIC] [TIFF OMITTED] T8736.318
    
    [GRAPHIC] [TIFF OMITTED] T8736.319
    
    [GRAPHIC] [TIFF OMITTED] T8736.320
    
    [GRAPHIC] [TIFF OMITTED] T8736.321
    
    [GRAPHIC] [TIFF OMITTED] T8736.322
    
    [GRAPHIC] [TIFF OMITTED] T8736.323
    
    [GRAPHIC] [TIFF OMITTED] T8736.324
    
    [GRAPHIC] [TIFF OMITTED] T8736.325
    
    [GRAPHIC] [TIFF OMITTED] T8736.326
    
    [GRAPHIC] [TIFF OMITTED] T8736.327
    
    [GRAPHIC] [TIFF OMITTED] T8736.328
    
    [GRAPHIC] [TIFF OMITTED] T8736.329
    
    [GRAPHIC] [TIFF OMITTED] T8736.330
    
    [GRAPHIC] [TIFF OMITTED] T8736.331
    
    [GRAPHIC] [TIFF OMITTED] T8736.332
    
    [GRAPHIC] [TIFF OMITTED] T8736.333
    
    [GRAPHIC] [TIFF OMITTED] T8736.334
    
    [GRAPHIC] [TIFF OMITTED] T8736.335
    
    [GRAPHIC] [TIFF OMITTED] T8736.336
    
    [GRAPHIC] [TIFF OMITTED] T8736.337
    
    [GRAPHIC] [TIFF OMITTED] T8736.338
    
    [GRAPHIC] [TIFF OMITTED] T8736.339
    
    [GRAPHIC] [TIFF OMITTED] T8736.340
    
    [GRAPHIC] [TIFF OMITTED] T8736.341
    
    [GRAPHIC] [TIFF OMITTED] T8736.342
    
    [GRAPHIC] [TIFF OMITTED] T8736.343
    
    [GRAPHIC] [TIFF OMITTED] T8736.344
    
    [GRAPHIC] [TIFF OMITTED] T8736.345
    
    [GRAPHIC] [TIFF OMITTED] T8736.346
    
    [GRAPHIC] [TIFF OMITTED] T8736.347
    
    [GRAPHIC] [TIFF OMITTED] T8736.348
    
    [GRAPHIC] [TIFF OMITTED] T8736.349
    
    [GRAPHIC] [TIFF OMITTED] T8736.350
    
    [GRAPHIC] [TIFF OMITTED] T8736.351
    
    [GRAPHIC] [TIFF OMITTED] T8736.352
    
    [GRAPHIC] [TIFF OMITTED] T8736.353
    
    [GRAPHIC] [TIFF OMITTED] T8736.354
    
    [GRAPHIC] [TIFF OMITTED] T8736.356
    
    [GRAPHIC] [TIFF OMITTED] T8736.357
    
    [GRAPHIC] [TIFF OMITTED] T8736.358
    
    [GRAPHIC] [TIFF OMITTED] T8736.359
    
    [GRAPHIC] [TIFF OMITTED] T8736.360
    
    [GRAPHIC] [TIFF OMITTED] T8736.361
    
    [GRAPHIC] [TIFF OMITTED] T8736.362
    
    [GRAPHIC] [TIFF OMITTED] T8736.363
    
    Senator Coburn. Well, thank you for being here.
    I have the wonderful opportunity to do all the questioning 
and save the Senator from Idaho.
    Judge Smith, how has your job as a State trial judge 
prepared you to serve as a Federal appellate judge?
    Judge Smith. Mr. Chairman, a State trial judge has the 
opportunity, as you well know, to be involved in Federal issues 
as well as State issues on a trial basis, in a trial situation, 
and, therefore, I see Federal issues on a regular basis.
    But I have done one other thing in Idaho to especially 
assist me. It is often the case when the Federal judges will 
refer a case from the Federal court to my court for mediation. 
So I have mediated, I would suggest, 20 to 30 Federal cases as 
a part of helping the Federal judges with their caseloads each 
year as I have been a State judge.
    So I think all of those are ways that I have been able to 
prepare.
    Senator Coburn. In Idaho, I understand that judges may 
permit jurors to ask questions of witnesses during a trial. You 
have been outspoken about your belief that judges should not 
allow this practice. Could you explain your thoughts on this?
    Judge Smith. Thank you. My worry about this is that it 
seems to me that the system was based on two pretty fundamental 
principles of law that are essential to us, providing to each 
one of the litigants the special opportunity to come to our 
courtroom, the first being a due process consideration, that of 
having a burden of proof which is important that the burden of 
proof be satisfied in order for someone to prevail. I believe 
that allowing the jurors to then ask the questions allows the 
parties to escape the burden of proof that they might have 
otherwise necessary. I think that that is one thing that across 
the Nation people are very worried about as it relates to 
criminal proceedings. But I would suggest the same in civil 
proceedings.
    The second is a constitutional question, and that is the 
right for a defendant to have a fair trial, to have the jury be 
able to go through the whole of the trial and not make up their 
mind and not become advocates, but to remain dispassionate. And 
by asking the questions, they then become passionate because 
they feel like their question is important, and that is the 
reason that I have stood against this.
    Senator Coburn. Thank you.
    One other question that I have for you. One of the 
questions we ask Supreme Court nominees, and myself and Senator 
Kyl specifically, is the frame of reference with which you make 
a decision based in law. Would you characterize what will be 
your frame of reference in terms of making decisions on the 
Ninth Circuit? And I am talking about the Constitution, 
treaties, and statutes.
    Judge Smith. Well, my frame of reference is to apply the 
law as it is to each one of the given case situations that I 
have. It is my understanding--and I truly believe it to be the 
case--that when you review statutes, you look at the plain 
meaning of the statutes. And if, in fact, you can find the 
statute to be something that would be ambiguous, then you would 
look at other situations, whether it would be legislative 
history or those kind of things.
    But in all of that kind of review and in all my review, I 
am very cognizant of the fact that precedent is very important 
and that we apply the constitutional precedent to the case law 
and we follow the precedent as it is.
    Senator Coburn. All right. Thank you.
    Judge Smith. I hope that was the answer--or the question 
you were asking.
    Senator Coburn. It is, as well as what I normally would 
followup with: Is there a basis for foreign law in the making 
of decisions by a U.S. appellate judge?
    Judge Smith. Mr. Chairman, in my mind, I don't find in 
interpreting the law as it is and seeing exactly the plain 
language of it and then applying the Constitution to it, I am 
not aware of how the foreign law consideration would come into 
that interpretation.
    Senator Coburn. I think you got it right.
    Professor Schiltz, you have had a great career. I 
understand you worked with C-SPAN to try to open the Supreme 
Court to television coverage. Would you tell us a little bit 
about that?
    Mr. Schiltz. Shortly after I clerked for Justice Scalia, C-
SPAN put together a panel of former Supreme Court clerks of the 
then-living active Justices to try to brainstorm with us about 
ways to open the Supreme Court proceedings to television. We 
obviously did not lobby our particular Justices. It was to give 
C-SPAN ideas for how they might identify and meet the concerns 
of the Justices. And so I did that. It involved a couple of 
meetings here in Washington among us. I believe that the 
Supreme Court--it is something that, unfortunately, my former 
boss and I don't see eye to eye on, but I believe that this is 
one of the most important institutions in our country, and that 
they can do their work without the American people being able 
to watch it I personally think is a shame. And I hope that in 
my lifetime--I expect in my lifetime we will see them 
televised, as your proceedings are televised.
    Senator Coburn. Do you have any opinion on the use of 
foreign law in adjudicating cases before your court?
    Mr. Schiltz. There are obviously some instances where I 
think everybody would agree that reference to foreign law is 
appropriate, for example, where there is a treaty that 
specifically incorporates it. But I have to confess, I haven't 
yet heard a compelling argument for what foreign law would have 
to do, for example, with interpreting our own Constitution.
    Senator Coburn. I would commend you to the statements of 
Judge Alito and Chief Justice Roberts in response to that. I 
think that they are fairly straightforward, and I would also 
remind you that the oath you take, when you are sworn in, will 
say what you will use. And it is the U.S. Constitution, the 
statutes, and the treaties, and it doesn't say anything about 
foreign law.
    We will leave the record open for 1 week. The statements of 
Senators Leahy and Feinstein will be entered into the record, 
without objection. I appreciate you making the trip. I hope 
your cold is better. My staff gave me one last week. I am 
fighting it off. Congratulations on your nominations. We look 
forward to the process moving through the Judiciary Committee.
    Thank you very much.
    Judge Smith. Thank you, Mr. Chairman.
    Mr. Schiltz. Thank you.
    Senator Coburn. The hearing is adjourned.
    [Whereupon, at 4:27 p.m., the Committee was adjourned.]
    [Submissions for the record follow.]
    [GRAPHIC] [TIFF OMITTED] T8736.364
    
    [GRAPHIC] [TIFF OMITTED] T8736.365
    
    [GRAPHIC] [TIFF OMITTED] T8736.366
    
    [GRAPHIC] [TIFF OMITTED] T8736.367
    
    [GRAPHIC] [TIFF OMITTED] T8736.368
    
    [GRAPHIC] [TIFF OMITTED] T8736.369
    
    [GRAPHIC] [TIFF OMITTED] T8736.370
    


   NOMINATIONS OF MICHAEL A. CHAGARES, OF NEW JERSEY, NOMINEE TO BE 
  CIRCUIT JUDGE FOR THE THIRD CIRCUIT; GRAY HAMPTON MILLER, OF TEXAS, 
   NOMINEE TO BE DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF TEXAS; 
    JEFFREY L. SEDGWICK, NOMINEE TO BE DIRECTOR, BUREAU OF JUSTICE 
STATISTICS, DEPARTMENT OF JUSTICE; AND SHAREE M. FREEMAN, NOMINEE TO BE 
      DIRECTOR, COMMUNITY RELATIONS SERVICE, DEPARTMENT OF JUSTICE

                              ----------                              


                        TUESDAY, MARCH 14, 2006

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:01 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Jeff 
Sessions, presiding.
    Present: Senators Sessions, Hatch, and Cornyn.

 OPENING STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM 
                      THE STATE OF ALABAMA

    Senator Sessions. The Committee will come to order.
    We are delighted to have each of you with us today. I would 
offer for the record a statement of Senator Patrick Leahy, the 
Ranking Member of the Judiciary Committee, without objection.
    Today we have a confirmation hearing for two of the 
President's judicial nominees and two of his executive nominees 
to serve at the Department of Justice. I hope we can get each 
of your nominations voted out of Committee shortly and through 
the Senate as soon as possible.
    We are privileged to have a distinguished panel of 
legislators here, at least Senators at this point, to help us 
introduce the nominees. Senator Lautenberg and Senator 
Menendez, our distinguished colleagues from New Jersey, will 
introduce Mr. Chagares.
    Senator Lautenberg, would you like to start off? We thank 
you for coming; you have introduced quite a number of nominees 
over the years. It is great to have you back.

  PRESENTATION OF MICHAEL A. CHAGARES, NOMINEE TO BE CIRCUIT 
 JUDGE FOR THE THIRD CIRCUIT, BY HON. FRANK LAUTENBERG, A U.S. 
              SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you, Mr. Chairman. It is always a 
pleasure to be heard. It is particularly a pleasure when one 
has the full confidence that the person being recommended is 
someone we can all be proud of.
    I did, however, say to Mr. Michael Chagares that I was 
curious as to where he was able to rent this beautiful family 
to make an appearance before--his wife and his four children. 
And we are delighted to have them here. It is an honor to 
present your Dad to this Committee.
    He is recommended, as we all know, for a seat on the United 
States Court of Appeals for the Third Circuit. Mr. Chagares is 
currently in private practice, but he served in the U.S. 
Attorney's Office in New Jersey for 14 years, despite a 
relatively youthful appearance. How I envy that.
    Through hard work and diligence, he rose to become the head 
of the Civil Division where he supervised and managed all civil 
cases on behalf of the United States Government, its agencies 
and officials. He oversaw litigation, directed legal positions 
to be taken in court, and approved settlements.
    Before he became head of the Civil Division, Mr. Chagares 
directed the Affirmative Civil Enforcement Unit of the U.S. 
Attorney's Office for several years. And during his tenure in 
the U.S. Attorney's Office, Mr. Chagares received a number of 
awards and commendations for the good work that he did, 
including two Director's Awards for superior performance as an 
Assistant U.S. Attorney. Mr. Chagares is a graduate of Seton 
Hall Law School in Newark, where he also taught as an adjunct 
professor since 1991.
    His familiarity with the Third Circuit goes back to the 
late 1980's when he worked as a law clerk for Hon. Morton 
Greenberg, a distinguished member of the Court of Appeals. The 
Third Circuit is based in Philadelphia, and it considers 
appeals from Federal district courts in Pennsylvania, New 
Jersey, and Delaware. And I believe that the members of this 
Committee would agree with me that this is one of the most 
important Federal courts in the Nation, and I hope they will 
agree with me that Mr. Chagares is well qualified.
    The last time I introduced a New Jerseyan--and the Chairman 
made reference--to this Committee, the Chairman asked if I was 
endorsing the nominee. Today I can say without reservation that 
I endorse Michael Chagares for the Third Circuit Court of 
Appeals, and I thank the Senator from Alabama and the Senator 
from Texas for your own distinguished service and for letting 
me present this fine candidate to the Committee.
    Senator Sessions. Thank you, Senator Lautenberg. We 
appreciate those remarks.
    Senator Menendez, we are delighted to have you in the 
Senate--you are not so fresh anymore, I guess. There have been 
some interesting days since you have been here, but we are 
delighted that you are here, and we look forward to hearing 
from you at this time.

  PRESENTATION OF MICHAEL A. CHAGARES, NOMINEE TO BE CIRCUIT 
 JUDGE FOR THE THIRD CIRCUIT, BY HON. ROBERT MENENDEZ, A U.S. 
              SENATOR FROM THE STATE OF NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman. I got a little 
nervous when you said, ``You are not so fresh anymore.''
    [Laughter.]
    Senator Sessions. Well, after the House, you know.
    Senator Menendez. We are a little bit of a firebrand there. 
We get tempered when we come to the Senate.
    Mr. Chairman, thank you for the opportunity to join with my 
distinguished and senior colleague from New Jersey, Senator 
Lautenberg, who has had the privilege of introducing many 
people from our home State to the Nation's judiciary system and 
who has been called upon to serve the Nation by this 
administration. Unlike Senator Lautenberg, who has been in the 
Senate and introducing New Jerseyans for the past 21 years, 
this is my first opportunity, so I appreciate the opportunity 
to be here. I know that the confirmation of a judge to a 
lifetime appointment is a vital responsibility given to this 
body, and I know that I take that seriously, and I know that 
this Committee takes it very seriously as well.
    I appreciate the chance to join Senator Lautenberg in 
introducing Michael Chagares, who has been nominated to replace 
the current Secretary of Homeland Security, Michael Chertoff, 
on the U.S. Court of Appeals for the Third Circuit. And we all 
take pride in the honor that has been bestowed on a fellow New 
Jerseyan.
    Mr. Chagares, who is a New Jersey native, graduated from 
Gettysburg College and Seton Hall Law School with honors. Upon 
graduation, as Senator Lautenberg said, he clerked for Judge 
Greenberg on the Third Circuit. And for over a decade and a 
half, he has served the public with distinction in the United 
States Attorney's Office for the District of New Jersey, as 
well as working in private practice.
    Senator Lautenberg mentioned that he is also an adjunct 
professor at Seton Hall. I would add he is a popular professor 
of both appellate advocacy and civil trial practice at Seton 
Hall, and I think that goes as a testament when you can be able 
to attract a student body that is in the process of pursuing a 
career in the law to be able to both convey the essence of the 
subject matter and do it in a way that excites a new generation 
of lawyers.
    As you know, Mr. Chairman, the American Bar Association has 
rated Mr. Chagares as well qualified for the position that he 
has been nominated. It is a view that I share as well.
    He and his wife, Peggy, as you can see, are proud parents 
of four children: Caroline, Meredith, Matthew, and Sarah. Sarah 
has got her priorities right. She is snoozing right now. And I 
did ask Mr. Chagares if he was aware of the salary that an 
appellate court judge earns in light of college tuition costs. 
And he assured me that he had given careful consideration to 
this subject before accepting the honor of this nomination, 
which is indeed a high honor.
    And so we are pleased to see that people of his quality are 
willing to serve the Nation in the administration of justice, 
and we join Senator Lautenberg in commending him to the 
Committee, and we thank you for the opportunity.
    Senator Sessions. Thank you very much, Senator Menendez.
    We have, I think most of you know, a vote that just 
started, and the bad news, I will tell everyone that is here, 
is that they have stacked seven votes to commence at 3:05. So 
the first one has just started. It takes about 15 minutes or so 
to get that vote completed. I do not think it is going to be 
possible for Senators to come and go and keep this hearing 
ongoing. So we will be able to stay, I would say, until about a 
little past 3:15, and then we will have to vote and see how 
fast we can get those seven votes over. But it will be an hour 
or more, for sure. So I am very sorry that it will take a 
little while to complete this hearing.
    Senator Hutchison, it is great to have you here. We look 
forward to your comments, and then we will hear from Senator 
Cornyn also on your nominee from Texas.

  PRESENTATION OF GRAY HAMPTON MILLER, NOMINEE TO BE DISTRICT 
 JUDGE FOR THE SOUTHERN DISTRICT OF TEXAS, BY HON. KAY BAILEY 
       HUTCHISON, A U.S. SENATOR FROM THE STATE OF TEXAS

    Senator Hutchison. Thank you very much, Mr. Chairman, for 
holding this hearing. I know it will be difficult because of 
the votes scheduled. I can think of few people who I can more 
highly recommend for a Federal judgeship than Gray Miller. 
Senator Cornyn and I interviewed him and other candidates, and 
he just has so many qualities that we want in Federal judges.
    He is a partner today in Fulbright and Jaworski in Houston, 
and his practice has almost exclusively been in the Federal 
court system. He headed the firm's Admiralty Department from 
1996 to 2004 and was named in Euromoney's Guide to the World's 
Leading Maritime Lawyers as one of the leading maritime lawyers 
in the world. He was also included in ``Texas Super Lawyer,'' 
an article that appeared in Texas Monthly magazine, in which he 
was recognized as one of the best lawyers in America.
    But what really made me want to put him on the Federal 
bench is he worked his way through law school while serving in 
the Houston Police Department. He was a police officer from 
1969 to 1978, and he went through undergraduate and law school 
as a police officer working his way through. And when you talk 
to him, he is a straight shooter. He knows exactly what right 
is, and he does not veer from that. And I just think that he 
will bring an experience of being a police officer to the 
bench, which will be very valuable.
    He has also served on the Board of the Texas Department of 
Mental Health and Retardation. He is a lifetime member of the 
One Hundred Club of Houston, which is a police support 
organization for firefighters and police officers who are 
killed or injured in the line of duty.
    He has with him today his wife, Joanne, and their two 
children, and his daughter-in-law and two granddaughters, and 
we are very pleased that all of them are here. And, Mr. 
Chairman, I do hope that the Committee will act favorably on 
his nomination.
    Thank you very much.
    Senator Sessions. Thank you, Senator Hutchison. I am 
confident that they will.
    It is a pleasure to have Senator Cornyn here, former 
Justice Cornyn on the Texas Supreme Court, and Attorney General 
in Texas, and just a tremendously valuable member of this 
Committee. John, we are glad you are here, and we would love to 
hear your comments on the nominee.

  PRESENTATION OF GRAY HAMPTON MILLER, NOMINEE TO BE DISTRICT 
JUDGE FOR THE SOUTHERN DISTRICT OF TEXAS, BY HON. JOHN CORNYN, 
             A U.S. SENATOR FROM THE STATE OF TEXAS

    Senator Cornyn. Thank you, Mr. Chairman.
    I want to tell both of our nominees that it is not 
universally true that people who are nominated to the Federal 
bench get uniformly high praise during judicial confirmation 
proceedings, but I anticipate you both will. And it is my 
pleasure to say a few nice things about Gray Miller, the 
nominee for the U.S. District Court for the Southern District 
of Texas.
    Senator Hutchison has covered his professional 
qualifications, and I think one of the things that attracted 
both of us to him is, as she said, his service as a police 
officer, someone who has experienced the law enforcement system 
from the bottom up. And I don't think people will be pulling 
many fast ones on Judge Miller.
    He succeeds Judge Ewing Werlein, who is just such an 
outstanding human being and a great judge, formerly of the law 
firm of Vinson and Elkins, as Senator Hutchison knows. And he 
is stepping down to take senior status, thus creating this 
vacancy.
    Mr. Miller has, in addition to his distinguished legal 
career, done a lot in his community. He serves on the Board of 
Trustees of the Mental Health/Mental Retardation Authority of 
Harris County and the Texas Department of Mental Health and 
Mental Retardation Board, the Volunteer Lawyers Program. 
Senator Hutchison mentioned his specialty in admiralty law. I 
noticed missing from his resume, he was a member of the Texas 
Navy, but has just about every other kind of qualification you 
could hope for.
    And so let me just say, Mr. Chairman, I would join Senator 
Hutchison in commending this outstanding nominee to our 
colleagues and hope that the confidence that the President has 
put in him and that Senator Hutchison and I have in him will be 
shared by our colleagues and he will be swiftly confirmed.
    Senator Sessions. Thank you, Senator Cornyn.
    Perhaps we could administer the oath for our nominees. If 
you would step forward and take your seats, we will do that. We 
will get the right names up there. The competent staff is right 
on the move.
    If you would raise your right hands, and do you solemnly 
swear that the testimony you are about to give before this 
Committee is the truth, the whole truth, and nothing but the 
truth, so help you God?
    Mr. Chagares. I do.
    Mr. Miller. I do.
    Mr. Sedgwick. I do.
    Ms. Freeman. I do.
    Senator Sessions. Thank you. Have a seat.
    Again, I will just restate, I believe this vote has started 
already. I don't think we will get very far starting now, and I 
will not try to do that. Unfortunately, it is three--it is 
probably going to be closer to 4:30 before we get back, unless 
for some reason somebody vitiates some of the votes and we do 
not actually have to do a roll call vote. Sometimes we can do a 
voice vote or something of that kind. So we will take care of 
that.
    I think what I will do, since our nominees have been 
introduced, Mr. Miller and Mr. Chagares, I would--let's see 
here. I will introduce Mr. Sedgwick, he being nominated to be 
the Director of the Bureau of Justice Statistics at the 
Department of Justice. Over the years, during my 15 years in 
the Department of Justice, I always read those reports. I 
thought they were very valuable reports, and I think this is an 
incredibly important position that you are undertaking.
    You are a political scientist with extensive experience and 
expertise relating to the American Government, the 
Constitution, and criminal justice. You have been a professor 
at the University of Massachusetts-Amherst since 1978. You 
received your A.B. degree from Kenyon College, magna cum laude 
(with honors) in political science in 1973, earning both your 
MAPA, Master's in Public Administration, and Ph.D. from the 
University of Virginia. In graduate school, nearly 60 percent 
of your work related to politics, while 40 percent related to 
economics. Your dissertation applied sociological and economic 
methodologies to law enforcement planning--important issues 
indeed. When you consider how many billions of dollars we spend 
in law enforcement, we ought to know a little bit more about 
what we are doing, I think.
    After graduate school, Dr. Sedgwick spent nearly his entire 
career in academia, although in the 1980's he served 1 year as 
Deputy Director of the Justice Department's Bureau of Justice 
Statistics, so you are familiar with that office.
    Dr. Sedgwick's research and teaching interests have 
included the study of democratization, democratic leadership, 
and the American Presidency. He has continued to develop 
expertise in the application of social science methods, 
including economics, to political science and public policy 
issues.
    Our final nominee today is Sharee Freeman, nominated to be 
the Director of the Community Relations Service at the 
Department of Justice, a valuable institution that I have found 
on more than one occasion to help bring a good result out of 
tense circumstances. It has a role to play of importance.
    Ms. Freeman received a B.A. from St. Lawrence University 
and a J.D. from Georgetown University Law Center. She began her 
legal career as a clerk to Judge Norma Holloway Johnson on the 
U.S. District Court for the District of Columbia. Beginning in 
1982, Ms. Freeman served as an assistant district attorney with 
the Philadelphia District Attorney's Office--knowing that that 
would make Senator Specter happy, I am sure.
    Following her service in Philadelphia, she served as Acting 
Assistant Solicitor and Attorney Advisor with the U.S. 
Department of Interior before leaving for Capitol Hill in 1997. 
Ms. Freeman's Capitol Hill service began as counsel to the 
House Judiciary Committee and Congressman Henry Hyde. She also 
served as counsel to Congressman Hyde on the House 
International Relations Committee. Sometimes these issues are 
like dealing with foreign powers when you achieve harmony among 
different groups that come in contention.
    In 2001, Ms. Freeman was appointed by President Bush and 
unanimously confirmed by the Senate to be the Director of CRS 
for a term of 4 years. Following the recent expiration of her 
4-year term as Director, Ms. Freeman was named as Acting 
Director of CRS, where she continues to serve.
    So I am glad we got to introduce each of you. Let's take 
our recess now. It will probably be 4:30 or somewhat after 
before we finish. I will return as quickly as I can. As Senator 
Cornyn indicated, count your blessings that it is not a 
contentious hearing, that we do not have a lot of things to 
say. Your records seem to have spoken for themselves. But there 
will be some questions that we will want to ask in this 
proceeding, and at the conclusion of it, then it will go to the 
full Committee for markup and vote at a different date.
    So if there is no other business at this time, we will 
recess until approximately 4:30.
    [Recess 3:21 p.m. to 3:46 p.m.]
    Senator Hatch. [Presiding.] Mr. Chagares, you served for 
many years as U.S. Attorney in the District of New Jersey. You 
know, when people think about U.S. Attorneys, they think about 
prosecutors, but you spent most of your career handling civil 
cases, as I understand it. Is that correct?

 STATEMENT OF MICHAEL A. CHAGARES, NOMINEE TO BE CIRCUIT JUDGE 
                     FOR THE THIRD CIRCUIT

    Mr. Chagares. That is correct, Mr. Chairman.
    Senator Hatch. Can you explain just what some of these 
civil cases were about?
    Mr. Chagares. I will be happy to, Mr. Chairman. I should 
say, though--
    Senator Hatch. You were chief of the Civil Division, right?
    Mr. Chagares. I certainly was, but I did actually handle--I 
actually did work on various criminal matters, and actually now 
do criminal defense work.
    Senator Hatch. I see.
    Mr. Chagares. But I worked on all types of civil matters, 
largely what the U.S. Attorney's Office and Department of 
Justice calls affirmative cases, and that's where the United 
States is seeking relief--fraud cases, telemarketing fraud 
cases, endangered species cases, all different types of cases 
where the United States is the plaintiff.
    Senator Hatch. I happen to think that is real good 
experience for you for this court, and I happen to think that 
is a great thing that you are doing. Of course, I belong to the 
Third Circuit Court of Appeals, and we appreciate that circuit.
    [The biographical information of Mr. Chagares follows:] 
    [GRAPHIC] [TIFF OMITTED] T8736.371
    
    [GRAPHIC] [TIFF OMITTED] T8736.372
    
    [GRAPHIC] [TIFF OMITTED] T8736.373
    
    [GRAPHIC] [TIFF OMITTED] T8736.374
    
    [GRAPHIC] [TIFF OMITTED] T8736.375
    
    [GRAPHIC] [TIFF OMITTED] T8736.376
    
    [GRAPHIC] [TIFF OMITTED] T8736.377
    
    [GRAPHIC] [TIFF OMITTED] T8736.378
    
    [GRAPHIC] [TIFF OMITTED] T8736.379
    
    [GRAPHIC] [TIFF OMITTED] T8736.380
    
    [GRAPHIC] [TIFF OMITTED] T8736.381
    
    [GRAPHIC] [TIFF OMITTED] T8736.382
    
    [GRAPHIC] [TIFF OMITTED] T8736.383
    
    [GRAPHIC] [TIFF OMITTED] T8736.384
    
    [GRAPHIC] [TIFF OMITTED] T8736.385
    
    [GRAPHIC] [TIFF OMITTED] T8736.386
    
    [GRAPHIC] [TIFF OMITTED] T8736.387
    
    [GRAPHIC] [TIFF OMITTED] T8736.388
    
    [GRAPHIC] [TIFF OMITTED] T8736.389
    
    [GRAPHIC] [TIFF OMITTED] T8736.390
    
    [GRAPHIC] [TIFF OMITTED] T8736.391
    
    [GRAPHIC] [TIFF OMITTED] T8736.392
    
    [GRAPHIC] [TIFF OMITTED] T8736.393
    
    [GRAPHIC] [TIFF OMITTED] T8736.394
    
    [GRAPHIC] [TIFF OMITTED] T8736.395
    
    [GRAPHIC] [TIFF OMITTED] T8736.396
    
    [GRAPHIC] [TIFF OMITTED] T8736.397
    
    [GRAPHIC] [TIFF OMITTED] T8736.398
    
    [GRAPHIC] [TIFF OMITTED] T8736.399
    
    [GRAPHIC] [TIFF OMITTED] T8736.400
    
    [GRAPHIC] [TIFF OMITTED] T8736.401
    
    [GRAPHIC] [TIFF OMITTED] T8736.402
    
    [GRAPHIC] [TIFF OMITTED] T8736.403
    
    [GRAPHIC] [TIFF OMITTED] T8736.404
    
    [GRAPHIC] [TIFF OMITTED] T8736.405
    
    [GRAPHIC] [TIFF OMITTED] T8736.406
    
    [GRAPHIC] [TIFF OMITTED] T8736.407
    
    [GRAPHIC] [TIFF OMITTED] T8736.408
    
    [GRAPHIC] [TIFF OMITTED] T8736.409
    
    [GRAPHIC] [TIFF OMITTED] T8736.410
    
    [GRAPHIC] [TIFF OMITTED] T8736.411
    
    [GRAPHIC] [TIFF OMITTED] T8736.412
    
    [GRAPHIC] [TIFF OMITTED] T8736.413
    
    [GRAPHIC] [TIFF OMITTED] T8736.414
    
    Senator Hatch. Mr. Miller, you have had a distinguished 
career as a private practitioner. How do you think those 
experiences have helped prepare you to become a Federal judge?

STATEMENT OF GRAY HAMPTON MILLER, NOMINEE TO BE DISTRICT JUDGE 
               FOR THE SOUTHERN DISTRICT OF TEXAS

    Mr. Miller. Well, I have been in Federal court a lot, Mr. 
Chairman, and I have seen good judges and I have seen bad 
judges. And I have taken a lot of experience and the lessons I 
have learned from the good judges I hope to apply if I am 
fortunate enough to be confirmed to this position.
    Senator Hatch. That is great. I have heard good things 
about you, about both of you, and we are really happy to 
support both of you.
    Mr. Miller. Thank you, sir.
    Mr. Chagares. Thank you, Mr. Chairman.
    [The biographical information of Mr. Miller follows:] 
    [GRAPHIC] [TIFF OMITTED] T8736.415
    
    [GRAPHIC] [TIFF OMITTED] T8736.416
    
    [GRAPHIC] [TIFF OMITTED] T8736.417
    
    [GRAPHIC] [TIFF OMITTED] T8736.418
    
    [GRAPHIC] [TIFF OMITTED] T8736.419
    
    [GRAPHIC] [TIFF OMITTED] T8736.420
    
    [GRAPHIC] [TIFF OMITTED] T8736.421
    
    [GRAPHIC] [TIFF OMITTED] T8736.422
    
    [GRAPHIC] [TIFF OMITTED] T8736.423
    
    [GRAPHIC] [TIFF OMITTED] T8736.424
    
    [GRAPHIC] [TIFF OMITTED] T8736.425
    
    [GRAPHIC] [TIFF OMITTED] T8736.426
    
    [GRAPHIC] [TIFF OMITTED] T8736.427
    
    [GRAPHIC] [TIFF OMITTED] T8736.428
    
    [GRAPHIC] [TIFF OMITTED] T8736.429
    
    [GRAPHIC] [TIFF OMITTED] T8736.430
    
    [GRAPHIC] [TIFF OMITTED] T8736.431
    
    [GRAPHIC] [TIFF OMITTED] T8736.432
    
    [GRAPHIC] [TIFF OMITTED] T8736.433
    
    [GRAPHIC] [TIFF OMITTED] T8736.434
    
    [GRAPHIC] [TIFF OMITTED] T8736.435
    
    [GRAPHIC] [TIFF OMITTED] T8736.436
    
    [GRAPHIC] [TIFF OMITTED] T8736.437
    
    [GRAPHIC] [TIFF OMITTED] T8736.438
    
    [GRAPHIC] [TIFF OMITTED] T8736.439
    
    [GRAPHIC] [TIFF OMITTED] T8736.440
    
    [GRAPHIC] [TIFF OMITTED] T8736.441
    
    [GRAPHIC] [TIFF OMITTED] T8736.442
    
    [GRAPHIC] [TIFF OMITTED] T8736.443
    
    [GRAPHIC] [TIFF OMITTED] T8736.444
    
    Senator Hatch. Dr. Sedgwick, your academic work covers a 
wide range of subjects, everything from politics to history to 
social science. Can you just tell the Committee a little bit 
about your scholarship and how that has prepared you to serve 
as Director of the Bureau of Justice Statistics?

   STATEMENT OF JEFFREY L. SEDGWICK, NOMINEE TO BE DIRECTOR, 
      BUREAU OF JUSTICE STATISTICS, DEPARTMENT OF JUSTICE

    Mr. Sedgwick. Yes, Senator, I can. My dissertation work, 
which led to my book, was on the application of economic and 
sociological approaches to the study of crime as they related 
to the question of law enforcement planning. I have also 
written fairly widely on the death penalty and also on 
deterrence and retribution, different theories of punishment 
and their purposes. So I have taught and done research on 
criminal justice issues for a good part of my 28-year career as 
a professor.
    Senator Hatch. That is great.
    [The biographical information of Mr. Sedgwick follows:] 
    [GRAPHIC] [TIFF OMITTED] T8736.445
    
    [GRAPHIC] [TIFF OMITTED] T8736.446
    
    [GRAPHIC] [TIFF OMITTED] T8736.447
    
    [GRAPHIC] [TIFF OMITTED] T8736.448
    
    [GRAPHIC] [TIFF OMITTED] T8736.449
    
    [GRAPHIC] [TIFF OMITTED] T8736.450
    
    [GRAPHIC] [TIFF OMITTED] T8736.451
    
    [GRAPHIC] [TIFF OMITTED] T8736.452
    
    [GRAPHIC] [TIFF OMITTED] T8736.453
    
    [GRAPHIC] [TIFF OMITTED] T8736.454
    
    [GRAPHIC] [TIFF OMITTED] T8736.455
    
    [GRAPHIC] [TIFF OMITTED] T8736.456
    
    [GRAPHIC] [TIFF OMITTED] T8736.457
    
    [GRAPHIC] [TIFF OMITTED] T8736.458
    
    [GRAPHIC] [TIFF OMITTED] T8736.459
    
    [GRAPHIC] [TIFF OMITTED] T8736.460
    
    [GRAPHIC] [TIFF OMITTED] T8736.461
    
    [GRAPHIC] [TIFF OMITTED] T8736.462
    
    [GRAPHIC] [TIFF OMITTED] T8736.463
    
    [GRAPHIC] [TIFF OMITTED] T8736.464
    
    [GRAPHIC] [TIFF OMITTED] T8736.465
    
    [GRAPHIC] [TIFF OMITTED] T8736.466
    
    [GRAPHIC] [TIFF OMITTED] T8736.467
    
    [GRAPHIC] [TIFF OMITTED] T8736.468
    
    Senator Hatch. Ms. Freeman, as you have traveled the 
country during your first term as Director of Community 
Relations Service, the CRS, you probably encountered a lot of 
people who are not familiar with CRS, its history or its 
mission. Could you explain to the Committee the mission and 
purpose of the Community Relations Service?

    STATEMENT OF SHAREE M. FREEMAN, NOMINEE TO BE DIRECTOR, 
       COMMUNITY RELATIONS SERVICE, DEPARTMENT OF JUSTICE

    Ms. Freeman. Very simply put, sir, the Community Relations 
Service is responsible for resolving conflicts based on race, 
color, and national origin throughout the country. We are 
Federal mediators. My staff mediate disputes based on race, 
color, and national origin.
    Senator Hatch. That is great.
    [The biographical information of Ms. Freeman follows:] 
    [GRAPHIC] [TIFF OMITTED] T8736.469
    
    [GRAPHIC] [TIFF OMITTED] T8736.470
    
    [GRAPHIC] [TIFF OMITTED] T8736.471
    
    [GRAPHIC] [TIFF OMITTED] T8736.472
    
    [GRAPHIC] [TIFF OMITTED] T8736.473
    
    [GRAPHIC] [TIFF OMITTED] T8736.474
    
    [GRAPHIC] [TIFF OMITTED] T8736.475
    
    [GRAPHIC] [TIFF OMITTED] T8736.476
    
    [GRAPHIC] [TIFF OMITTED] T8736.477
    
    [GRAPHIC] [TIFF OMITTED] T8736.478
    
    [GRAPHIC] [TIFF OMITTED] T8736.479
    
    [GRAPHIC] [TIFF OMITTED] T8736.480
    
    [GRAPHIC] [TIFF OMITTED] T8736.481
    
    [GRAPHIC] [TIFF OMITTED] T8736.482
    
    [GRAPHIC] [TIFF OMITTED] T8736.483
    
    [GRAPHIC] [TIFF OMITTED] T8736.484
    
    [GRAPHIC] [TIFF OMITTED] T8736.485
    
    [GRAPHIC] [TIFF OMITTED] T8736.486
    
    [GRAPHIC] [TIFF OMITTED] T8736.487
    
    [GRAPHIC] [TIFF OMITTED] T8736.488
    
    [GRAPHIC] [TIFF OMITTED] T8736.489
    
    [GRAPHIC] [TIFF OMITTED] T8736.490
    
    [GRAPHIC] [TIFF OMITTED] T8736.491
    
    [GRAPHIC] [TIFF OMITTED] T8736.492
    
    [GRAPHIC] [TIFF OMITTED] T8736.493
    
    [GRAPHIC] [TIFF OMITTED] T8736.494
    
    [GRAPHIC] [TIFF OMITTED] T8736.495
    
    [GRAPHIC] [TIFF OMITTED] T8736.496
    
    [GRAPHIC] [TIFF OMITTED] T8736.497
    
    [GRAPHIC] [TIFF OMITTED] T8736.498
    
    [GRAPHIC] [TIFF OMITTED] T8736.499
    
    Senator Hatch. Well, let me tell you, I have read 
extensively about each of you. I have great confidence in each 
of you for the respective positions to which you have been 
nominated. And I am just happy that we have had this hearing 
finally for you and that we can push you forward and hopefully 
get this done.
    I am going to keep the record open for 1 week for written 
questions, and we will close that record on March 21st at 5 
p.m.
    Now, there are two letters that we have to enter into the 
record: Congressman David Dreier has submitted a letter, and 
Wade Henderson of the Leadership Conference on Civil Rights. We 
are very familiar with both of them. They are both good people, 
and, frankly, we are very pleased to support your nominations. 
I did not want you to have to sit around here until 4:30 or 5 
o'clock, so I scooted over from the Senate. We are having a 
series of 10-minute votes right now, and I got over here so 
that we could end this hearing and push your nominations 
forward. And we will do everything we can to get them through, 
OK?
    Mr. Chagares. Thank you, Mr. Chairman.
    Mr. Miller. Thank you, Mr. Chairman.
    Mr. Sedgwick. Thank you, Mr. Chairman.
    Ms. Freeman. Thank you, Mr. Chairman.
    Senator Hatch. Well, thank you so much.
    With that, we will recess this Committee until further 
notice. We will enjoy supporting you.
    [Whereupon, at 3:50 p.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
[GRAPHIC] [TIFF OMITTED] T8736.500

[GRAPHIC] [TIFF OMITTED] T8736.501

[GRAPHIC] [TIFF OMITTED] T8736.502

[GRAPHIC] [TIFF OMITTED] T8736.503

[GRAPHIC] [TIFF OMITTED] T8736.504

[GRAPHIC] [TIFF OMITTED] T8736.505

[GRAPHIC] [TIFF OMITTED] T8736.506

[GRAPHIC] [TIFF OMITTED] T8736.507

[GRAPHIC] [TIFF OMITTED] T8736.508

[GRAPHIC] [TIFF OMITTED] T8736.509

[GRAPHIC] [TIFF OMITTED] T8736.510

[GRAPHIC] [TIFF OMITTED] T8736.511

[GRAPHIC] [TIFF OMITTED] T8736.512

[GRAPHIC] [TIFF OMITTED] T8736.513

[GRAPHIC] [TIFF OMITTED] T8736.514

[GRAPHIC] [TIFF OMITTED] T8736.515



  NOMINATIONS OF BRIAN M. COGAN, OF NEW YORK, NOMINEE TO BE DISTRICT 
 JUDGE FOR THE EASTERN DISTRICT OF NEW YORK; MICHAEL RYAN BARRETT, OF 
 OHIO, NOMINEE TO BE DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF OHIO; 
                                  AND 
THOMAS M. GOLDEN, OF PENNSYLVANIA, NOMINEE TO BE DISTRICT JUDGE FOR THE 
                    EASTERN DISTRICT OF PENNSYLVANIA

                              ----------                              


                       WEDNESDAY, MARCH 29, 2006

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Arlen 
Specter, Chairman of the Committee, presiding.
    Present: Senators Specter, DeWine, and Schumer.

 OPENING STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Chairman Specter. Good morning, ladies and gentlemen. The 
Judiciary Committee will now proceed. We have on the agenda the 
nominations of three candidates for United States District 
Court: Mr. Brian Cogan for the Eastern District of New York; 
Mr. Michael Barrett for the Southern District of Ohio; and Mr. 
Thomas Golden for the Eastern District of Pennsylvania.
    I am going to yield the gavel in a moment or two to my 
distinguished colleague, Senator DeWine. We are moving to the 
floor with the immigration bill, and that requires a great deal 
of time.
    Good morning, Senator Voinovich.
    But before excusing myself, I want to make a few comments 
about Thomas Golden, who is the candidate for the Eastern 
District of Pennsylvania.
    Senator Santorum. and I have a judicial nominating panel, 
bipartisan and representative, and Mr. Golden was selected by 
the panel as the nominee for the court, and Senator Santorum 
and I forwarded our recommendation to the President, and the 
President has submitted his nomination.
    Mr. Golden comes from Berks County, Reading, Pennsylvania. 
Senator Santorum and I make it a point, as I know the Ohio 
Senators do, and all Senators, to have balance and distribution 
to the extent we can. And Mr. Golden will be sitting in Reading 
and trying to bring access to the Federal court and convenience 
of the litigants and the lawyers in the neighborhood.
    Tom Golden is a graduate of the Dickinson Law School in 
1972. After graduating from Penn State in 1969, he has been 
with the law firms of Stevens and Lee and more recently with 
Fry, Hibschman and Golden. He is a general practitioner, has a 
very distinguished record at the bar, has served as president 
of the Pennsylvania Bar Association, and he comes to this 
nomination with an ABA rating of unanimously well qualified. So 
I welcome you here this morning, Mr. Golden.
    I had a chance to talk with him briefly earlier today, and 
I do not think we are jinxing his nomination to say that we are 
planning his swearing-in ceremony. I think that is reasonably 
safe.
    At this time I want to yield the gavel to my distinguished 
colleague, Senator DeWine, with my thanks for chairing these 
hearings. Michael?
    Senator DeWine. [Presiding.] Mr. Chairman, thank you very 
much.
    Let me at this point turn to Senator Voinovich, who has an 
introduction.

 PRESENTATION OF MICHAEL RYAN BARRETT, NOMINEE TO BE DISTRICT 
  JUDGE FOR THE EASTERN DISTRICT OF NEW YORK, BY HON. GEORGE 
        VOINOVICH, A U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Senator DeWine.
    I am pleased today to be speaking on behalf of Michael 
Barrett, whom the President has nominated to serve on the U.S. 
District Court for the Southern District of Ohio. I welcome the 
Committee's review of Mr. Barrett, and I believe that you will 
come to the same conclusion that I have, that Mr. Barrett is 
well qualified to serve as a Federal judge and should be 
confirmed by the Senate. He has a distinguished and impressive 
record as a prosecutor, defense attorney, community leader, and 
he has deep roots in southwest Ohio. I have known him for 25 
years.
    Mr. Barrett is a graduate of the University of Cincinnati 
where he obtained his bachelor of arts in 1974 and his law 
degree in 1977. After graduating from law school, Mr. Barrett 
served as an administrative hearing officer for the State of 
Ohio where he helped resolve employment disputes arising out of 
changes to the Ohio employee classification system.
    He then joined the Hamilton County prosecutor's office as 
an assistant prosecuting attorney. Upon joining the 
prosecutor's office, Mr. Barrett was assigned to the felony 
trial division where he participated in investigations, grand 
jury proceedings, and felony trials. In 1983, Mr. Barrett was 
promoted to be the chief assistant of that division.
    In 1984, Mr. Barrett joined Graydon, Head and Ritchey, 
where he worked on both criminal and civil matters, initially 
as an associate before being promoted to a partner. In 1995, he 
joined his current firm Barrett and Weber where he has 
continued to practice in the same areas of law.
    Mr. Barrett's clients in the criminal defense practice area 
covered the spectrum of the criminal code with a concentration 
in the area of white-collar crime. His civil litigation clients 
include a number of business clients, and his recent experience 
includes a number of security law cases in which he has 
represented individual plaintiffs as well as the Attorney 
General's Office for the State of Ohio. His practice has earned 
him several listings in Best Lawyers in America and Ohio's 
Super Lawyers. In addition, Mr. Barrett has received the 
Outstanding Service Award as a mediator for the U.S. District 
Court for the Southern District of Ohio.
    In sum, Mr. Barrett has the broad courtroom experience that 
will serve him well as a Federal judge. He is eminently 
qualified to serve on this bench. He has also served on the 
Supreme Court of Ohio's Board of Commissioners on Grievances 
and Discipline, which evidences the high esteem in which 
members of the Ohio Bar hold him and is testimony to his 
excellent character. I think it is important to get a sense of 
any judicial nominee's character because it will have a great 
influence over how the judge will manage his courtroom.
    As a result of Mr. Barrett's fine academic and professional 
achievements, I am not surprise that the American Bar 
Association has found Mr. Barrett qualified to be on the 
Federal bench. His legal credentials are not the only reasons I 
support his nomination. In an age where I believe too many 
people do not take the time to become active members of their 
communities, Mr. Barrett has been a community leader. Some of 
Mr. Barrett's community activities include his current service 
on the Board of Trustees of Talbert House, a Cincinnati area 
social service organization; his current service as Director of 
Boys Hope/Girls Hope of Cincinnati, an organization to provide 
an array of services for at-risk children; and his past service 
as trustee of the Children's Services of Hamilton County.
    When I was Governor, I was pleased to appoint Mr. Barrett 
to the Board of Trustees of the University of Cincinnati. He 
served on that Board of Trustees for 9 years, including a 
period as Chairman of the Board of Trustees. Involvement in 
one's community is important. We need judges who not only have 
exceptional legal skills, but also who recognize how the law 
impacts on individuals and communities. I believe Mr. Barrett 
has this understanding because he is out in his community every 
day.
    In reviewing his academic professional record, it is clear 
he certainly is well qualified to serve as a Federal district 
court judge on the U.S. District Court for the Southern 
District of Ohio, and I look forward to this Committee's review 
of his nomination.
    I thank you for the opportunity to introduce him to you 
today, and, of course, Mr. Chairman, you know Mr. Barrett's 
qualifications as well or better than I do.
    Senator DeWine. Senator Voinovich, thank you very much, and 
we know that you have a very busy schedule today, so you will 
be excused at any time that you need to leave. We appreciated 
very much your great statement.
    Senator Santorum, we welcome you.

PRESENTATION OF THOMAS M. GOLDEN, NOMINEE TO BE DISTRICT JUDGE 
    FOR THE EASTERN DISTRICT OF PENNSYLVANIA, BY HON. RICK 
    SANTORUM, A U.S. SENATOR FROM THE STATE OF PENNSYLVANIA

    Senator Santorum. Thank you, Mr. Chairman. It is great to 
be here, and it is a real pleasure for me to come before the 
Committee to introduce Tom Golden. Tom is the nominee of the 
President for the Eastern District Court in Pennsylvania. He is 
from Berks County, which is a county that has long sought a 
nominee for a courtroom in Reading that has largely been 
unoccupied for quite some time. It has been quite an 
inconvenience for lawyers in the western part of the Eastern 
District, and this nominee is very important not only because 
of the judicial emergency that exists because of this vacancy. 
The Administrative Office of the U.S. Courts has declared this 
district to be a judicial emergency, and so we need Tom Golden 
on the court to fill that need, but also for the need of 
lawyers practicing in--who have to drive all the way from the 
western part of the Eastern District into Philadelphia 
basically to receive justice. And this is an important nominee 
for that reason.
    Tom has been rated unanimously well qualified by the Bar 
Association. I am not surprised at that, in part because of 
Tom's active participation in the Bar Association over the 
years. He was President of the Pennsylvania Bar Association in 
2003 and 2004, serves as a member of the House of Delegates to 
the ABA and has since 2002, has been head of the local bar, the 
whole nine yards. He has been very, very active in the legal 
field, reaching the highest levels as a result of his 
outstanding legal abilities as well as his tremendous 
dedication to the bar.
    He has been active--like all the nominees that we are very 
proud to put forward, he is also active beyond the legal field, 
in the area of his church and in the community, which I 
particularly look at as something that is important. He is not 
someone who has just got great legal scholarship, but also 
understands and has a footing in the community and 
understanding the importance of community service and being an 
active citizen in your community.
    He has one of the most outstanding education backgrounds. 
He went to Penn State University and Dickinson School of Law. I 
happened to go to Penn State University and Dickinson School of 
Law, so that is why I say it is probably one of the most 
outstanding backgrounds that I can imagine. So he comes from 
good stock. In his legal career, he is the managing partner at 
a firm in Reading. His practice concentrates in the area of 
business, civil litigation, real estate, and estate planning. 
He is truly, as the Bar Association, incredibly well qualified 
for this position, and it is an honor to come here today to 
offer his name in nomination before the Committee, and I would 
urge your speedy confirmation in moving this nominee through 
the process.
    Thank you, Mr. Chairman.
    Senator DeWine. Senator Santorum, thank you very much. We 
appreciate your good statement.
    Senator Schumer?

 PRESENTATIONO F BRIAN M. COGAN, NOMINEE TO BE DISTRICT JUDGE 
   FOR THE EASTERN DISTRICT OF NEW YORK, BY HON. CHARLES E. 
       SCHUMER, A U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Schumer. Mr. Chairman, thank you. I am happy to 
introduce Mr. Brian Cogan of New York as we consider his 
nomination to the Federal court for the Eastern District of New 
York, which sits in Brooklyn, a borough which I have some 
familiarity with, being the first Senator from Brooklyn in 140 
years. Alas, Mr. Cogan was born in Chicago, but he has quickly 
moved to New York. After going to the University of Illinois, 
he migrated to our great State and attended Cornell University 
Law School, where he was editor for the law review. He went on 
to clerk for a Federal judge in the Southern District of 
Florida--he had sort of wanderlust in his younger days--before 
having the good sense to return to New York where he has been, 
I am proud to say, ever since.
    Mr. Cogan has had a long and distinguished career. He 
joined the firm of Stroock, Stroock and Lavan in 1980, where he 
made partner in 1988, and has worked on many high-profile 
domestic and international cases. In 2004, he was appointed the 
general counsel of Stroock.
    Joining Mr. Cogan today is his wife, Robin Keller, also a 
partner at Stroock. My brother is a partner at another New York 
law firm, and when he was dating seriously one of the other 
partners, they passed what they called the Bob and Pam rule: no 
marriages in the partnership. And they did not get married. He 
is happily married now, I might add. Just for your awareness, 
Mr. Chairman.
    [Laughter.]
    Senator Schumer. So I guess Stroock has the good sense not 
to have the Bob and Pam rule in its rules. The two obviously 
make a fabulous team, and they have co-authored several 
publications together on bankruptcy law.
    Despite his busy practice, Mr. Cogan has found considerable 
time for public service. He serves as an attorney for enlisted 
soldiers throughout the New York Guard JAG Corps, for which he 
received an award from his firm. And through the program he 
provides soldiers with legal assistance as they prepared for 
deployment.
    Mr. Cogan has helped countless soldiers by devoting up to 
30 hours per month to the program since 2002, and knowing how 
busy a corporate partner is in a New York corporate law firm, 
that is a huge undertaking for which we thank you. I know I 
speak for all of my colleagues when I commend Mr. Cogan for his 
public service.
    Now I want to take a moment, Mr. Chairman, to recognize 
that we in New York have a system in place for nominating 
Federal judges that works. With all of the sturm und drang 
about the nomination of judges, you would think the 
disagreements between the White House and a place like New York 
with two both shy Democratic Senators would lead to all kinds 
of problems. But, no, just the opposite. We work together in an 
effective and bipartisan way to ensure that only the most 
qualified, moderate, and diverse candidates are considered. And 
the nomination of Mr. Cogan and what I expect to be a smooth 
and speedy confirmation is testament to that process in New 
York.
    So I would like to thank you, Mr. Chairman, for holding 
this hearing. I want to congratulate Mr. Cogan. I am very glad 
that his wife will remain a partner in the firm so they will be 
able to live a decent lifestyle, and I hope the hearing moves 
forward expeditiously.
    Senator DeWine. Well, I thank my colleague from New York 
for that very fine introduction.
    I would invite our three nominees to come up now, and I 
will, as we are doing that, introduce Michael Barrett as well. 
Senator Voinovich has already done this, but I am going to add 
my comments at this point.
    It is my pleasure and honor to introduce my fellow Ohioan 
Michael Barrett to the members of this Committee today. Michael 
Barrett's legal career spans almost 30 years. It has been 
certainly very distinguished not only by his accomplishments as 
a litigator, but also by his truly extraordinary record of 
public and civic leadership.
    Gentlemen, please have a seat. This is going to take more 
than 30 seconds.
    A brief summary of his background offers ample evidence of 
his qualifications. He is a graduate of the University of 
Cincinnati where he earned both his bachelor of arts degree and 
his law degree. Directly out of law school, Mr. Barrett served 
the State of Ohio as an administrative hearing officer for over 
a year and then moved to the Hamilton County prosecutor's 
office, where he served first as an assistant prosecutor and 
then as chief assistant prosecuting attorney of the felony 
trial division.
    During this time, Mr. Barrett also served as chief of the 
special County Arson Task Force, supervising the investigation 
and prosecution of arson cases.
    After 6 years in the Hamilton County prosecutor's office, 
Mr. Barrett moved into private practice with the firm of 
Graydon, Head and Ritchey, where he remained for 10 years as 
associate and then as a partner. He was listed several times in 
Best Lawyers in America for his domestic relations practice. He 
then joined the Cincinnati law firm of Barrett and Weber, where 
he continues to practice today in the area of general 
litigation.
    Mr. Barrett has an extremely diverse career as a litigator. 
He has argued in both State and Federal courts, and his court 
appearances are almost evenly split between civil and criminal 
cases. In addition to his background as a prosecutor, he has 
developed a very successful defense practice. He is a member of 
the National Association of Criminal Defense Attorneys, and it 
is particularly noteworthy that he has argued capital murder 
cases as both a prosecutor and as a defense attorney.
    Mr. Barrett's expertise, however, extends well beyond 
litigation. He was appointed as a special master trustee in a 
class action lawsuit in which he analyzed over 900 claims 
responses in the allocation of settlement funds under that 
suit. He also was chosen to be the receiver in a securities 
case, and in that role he worked with counsel to conduct a 
collection and liquidation of investors' assets, which is an 
important and often very complicated financial and legal task.
    His experience with alternative dispute resolution 
techniques is also quite impressive. He was a board member of 
the Cincinnati Center for the Resolution of Disputes and was 
awarded the Outstanding Service Award as a mediator for the 
Southern District of Ohio.
    This unusually diverse legal background gives Mr. Barrett a 
broad view of the legal system and a wide understanding that 
will help him as a successful Federal judge.
    Mr. Barrett is also an extremely accomplished community 
leader who has served the public in a variety of roles, only a 
few of which I will mention here today. He served on the 
Supreme Court of Ohio Board of Commissioners on Grievances and 
Discipline for 15 years. That is a long time, Mr. Barrett. He 
was on the Board of Trustees for the University of Cincinnati, 
the Board of Trustees of the Health Alliance of Greater 
Cincinnati. He was also co-chair of the Police and Justice 
Committee of Community Action Now, a project formed by and for 
Cincinnati community leaders and charged with the task of 
achieving greater equity, opportunity, and inclusion for all 
Cincinnati residents.
    He has also been involved with a wide range of charitable 
and social service organizations, including Children's Services 
of Hamilton County, Talbert House, and Boys and Girls Hope of 
Cincinnati.
    Michael Barrett is clearly an accomplished attorney and 
experienced community leader. Both are important qualifications 
for this position. Given his background and experience, it is 
not surprising that a substantial majority of the ABA panel 
that reviewed his qualifications found him to be well 
qualified, which, of course, is the highest possible rating. 
The remaining members of the panel gave him the next highest 
rating of qualified. This very high rating merely confirms his 
excellent credentials for the position.
    Even more important, however, is simply that Mike Barrett 
is a good person, a good man. I have spoken with attorneys and 
judges who have worked with him, both with him and against him, 
and they all describe him as a calm, even-tempered man who is 
always willing to listen. They confirm what I think of Mike 
Barrett. He is a bright, affable, intellectually open-minded 
person with a strong sense of the law, someone who will make an 
excellent Federal judge.
    Michael Barrett is an outstanding nominee, and I strongly 
believe that he will serve as a great Federal District Court 
Judge for the Southern District of Ohio.
    Let me ask the members of the panel now to stand and I will 
swear you in. Please raise your right hand. Do you swear that 
the testimony you are about to give before this Committee will 
be the truth, the whole truth, and nothing but the truth, so 
help you God?
    Mr. Golden. I do.
    Mr. Barrett. I do.
    Mr. Cogan. I do.
    Senator DeWine. You may be seated.
    We welcome all of you here, and we will give each one of 
you the opportunity to make any kind of opening statement and 
also the opportunity to introduce anyone who is with you today, 
including certainly any members of your family. Mr. Golden?

STATEMENT OF THOMAS M. GOLDEN, NOMINEE TO BE DISTRICT JUDGE FOR 
              THE EASTERN DISTRICT OF PENNSYLVANIA

    Mr. Golden. Good morning, Mr. Chairman.
    Senator DeWine. Good morning.
    Mr. Golden. I can't help but start by thanking the 
President for nominating me. I am deeply gratified by the 
remarks made by Senator Specter and Senator Santorum. Without 
their help, I would not be here. Without their kindness and 
support, I would not be here.
    It is a pleasure for me to introduce to you my family who 
is with me. Seated behind me in the first row is my daughter, 
Kristin Mancuso; my two grandsons, Will Mancuso and Alex 
Mancuso. Behind those beautiful people are my son Matthew and 
his lovely wife, Olivia, and the person who has made it 
possible for me to be here, my wife, Penny.
    Senator DeWine. Welcome.
    Mr. Golden. It is a pleasure to be here, Senator, and thank 
you, and I conclude my remarks.
    [The biographical information of Mr. Golden follows.] 
    [GRAPHIC] [TIFF OMITTED] T8736.516
    
    [GRAPHIC] [TIFF OMITTED] T8736.517
    
    [GRAPHIC] [TIFF OMITTED] T8736.518
    
    [GRAPHIC] [TIFF OMITTED] T8736.519
    
    [GRAPHIC] [TIFF OMITTED] T8736.520
    
    [GRAPHIC] [TIFF OMITTED] T8736.521
    
    [GRAPHIC] [TIFF OMITTED] T8736.522
    
    [GRAPHIC] [TIFF OMITTED] T8736.523
    
    [GRAPHIC] [TIFF OMITTED] T8736.524
    
    [GRAPHIC] [TIFF OMITTED] T8736.525
    
    [GRAPHIC] [TIFF OMITTED] T8736.526
    
    [GRAPHIC] [TIFF OMITTED] T8736.527
    
    [GRAPHIC] [TIFF OMITTED] T8736.528
    
    [GRAPHIC] [TIFF OMITTED] T8736.529
    
    [GRAPHIC] [TIFF OMITTED] T8736.530
    
    [GRAPHIC] [TIFF OMITTED] T8736.531
    
    [GRAPHIC] [TIFF OMITTED] T8736.532
    
    [GRAPHIC] [TIFF OMITTED] T8736.533
    
    [GRAPHIC] [TIFF OMITTED] T8736.534
    
    [GRAPHIC] [TIFF OMITTED] T8736.535
    
    [GRAPHIC] [TIFF OMITTED] T8736.536
    
    [GRAPHIC] [TIFF OMITTED] T8736.537
    
    [GRAPHIC] [TIFF OMITTED] T8736.538
    
    [GRAPHIC] [TIFF OMITTED] T8736.539
    
    [GRAPHIC] [TIFF OMITTED] T8736.540
    
    [GRAPHIC] [TIFF OMITTED] T8736.541
    
    [GRAPHIC] [TIFF OMITTED] T8736.542
    
    [GRAPHIC] [TIFF OMITTED] T8736.543
    
    [GRAPHIC] [TIFF OMITTED] T8736.544
    
    [GRAPHIC] [TIFF OMITTED] T8736.545
    
    [GRAPHIC] [TIFF OMITTED] T8736.546
    
    [GRAPHIC] [TIFF OMITTED] T8736.547
    
    [GRAPHIC] [TIFF OMITTED] T8736.548
    
    [GRAPHIC] [TIFF OMITTED] T8736.549
    
    [GRAPHIC] [TIFF OMITTED] T8736.550
    
    [GRAPHIC] [TIFF OMITTED] T8736.551
    
    [GRAPHIC] [TIFF OMITTED] T8736.552
    
    [GRAPHIC] [TIFF OMITTED] T8736.553
    
    [GRAPHIC] [TIFF OMITTED] T8736.554
    
    [GRAPHIC] [TIFF OMITTED] T8736.555
    
    [GRAPHIC] [TIFF OMITTED] T8736.556
    
    [GRAPHIC] [TIFF OMITTED] T8736.557
    
    [GRAPHIC] [TIFF OMITTED] T8736.558
    
    Senator DeWine. Mr. Golden, thank you very much.
    Mr. Barrett, good morning.

STATEMENT OF MICHAEL RYAN BARRETT, NOMINEE TO BE DISTRICT JUDGE 
               FOR THE SOUTHERN DISTRICT OF OHIO

    Mr. Barrett. Mr. Chairman, good morning. I would just like 
to express my--
    Senator DeWine. Hit your mike there, Mr. Barrett.
    Mr. Barrett. Is it on now? Thank you. I am sorry.
    Mr. Chairman, I would just like to express my deepest 
gratitude to you and Senator Voinovich for the remarks you made 
and also for just providing the opportunity to even be here 
today. I greatly appreciate it from the bottom of my heart, and 
I would like to thank the President for the nomination.
    Thank you.
    [The biographical information Mr. Barrett follows.] 
    [GRAPHIC] [TIFF OMITTED] T8736.559
    
    [GRAPHIC] [TIFF OMITTED] T8736.560
    
    [GRAPHIC] [TIFF OMITTED] T8736.561
    
    [GRAPHIC] [TIFF OMITTED] T8736.562
    
    [GRAPHIC] [TIFF OMITTED] T8736.563
    
    [GRAPHIC] [TIFF OMITTED] T8736.564
    
    [GRAPHIC] [TIFF OMITTED] T8736.565
    
    [GRAPHIC] [TIFF OMITTED] T8736.566
    
    [GRAPHIC] [TIFF OMITTED] T8736.567
    
    [GRAPHIC] [TIFF OMITTED] T8736.568
    
    [GRAPHIC] [TIFF OMITTED] T8736.569
    
    [GRAPHIC] [TIFF OMITTED] T8736.570
    
    [GRAPHIC] [TIFF OMITTED] T8736.571
    
    [GRAPHIC] [TIFF OMITTED] T8736.572
    
    [GRAPHIC] [TIFF OMITTED] T8736.573
    
    [GRAPHIC] [TIFF OMITTED] T8736.574
    
    [GRAPHIC] [TIFF OMITTED] T8736.575
    
    [GRAPHIC] [TIFF OMITTED] T8736.576
    
    [GRAPHIC] [TIFF OMITTED] T8736.577
    
    [GRAPHIC] [TIFF OMITTED] T8736.578
    
    [GRAPHIC] [TIFF OMITTED] T8736.579
    
    [GRAPHIC] [TIFF OMITTED] T8736.580
    
    [GRAPHIC] [TIFF OMITTED] T8736.581
    
    [GRAPHIC] [TIFF OMITTED] T8736.582
    
    [GRAPHIC] [TIFF OMITTED] T8736.583
    
    [GRAPHIC] [TIFF OMITTED] T8736.584
    
    [GRAPHIC] [TIFF OMITTED] T8736.585
    
    [GRAPHIC] [TIFF OMITTED] T8736.586
    
    [GRAPHIC] [TIFF OMITTED] T8736.587
    
    [GRAPHIC] [TIFF OMITTED] T8736.588
    
    Senator DeWine. Mr. Cogan?

 STATEMENT OF BRIAN M. COGAN, NOMINEE TO BE DISTRICT JUDGE FOR 
                THE EASTERN DISTRICT OF NEW YORK

    Mr. Cogan. Senator DeWine, thank you for chairing this 
hearing this morning. I would echo my colleagues and express my 
appreciation to the President for the confidence he has shown 
in me in putting my nomination forward. My wife is here with me 
today. Senator Schumer I think has adequately introduced her.
    And I also wanted to thank the people from the Department 
of Justice and the FBI for the professionalism and efficiency 
they showed throughout the background investigation that led to 
us being here today.
    Thank you.
    [The biographical information of Mr. Cogan follows.] 
    [GRAPHIC] [TIFF OMITTED] T8736.589
    
    [GRAPHIC] [TIFF OMITTED] T8736.590
    
    [GRAPHIC] [TIFF OMITTED] T8736.591
    
    [GRAPHIC] [TIFF OMITTED] T8736.592
    
    [GRAPHIC] [TIFF OMITTED] T8736.593
    
    [GRAPHIC] [TIFF OMITTED] T8736.594
    
    [GRAPHIC] [TIFF OMITTED] T8736.595
    
    [GRAPHIC] [TIFF OMITTED] T8736.596
    
    [GRAPHIC] [TIFF OMITTED] T8736.597
    
    [GRAPHIC] [TIFF OMITTED] T8736.598
    
    [GRAPHIC] [TIFF OMITTED] T8736.599
    
    [GRAPHIC] [TIFF OMITTED] T8736.600
    
    [GRAPHIC] [TIFF OMITTED] T8736.601
    
    [GRAPHIC] [TIFF OMITTED] T8736.602
    
    [GRAPHIC] [TIFF OMITTED] T8736.603
    
    [GRAPHIC] [TIFF OMITTED] T8736.604
    
    [GRAPHIC] [TIFF OMITTED] T8736.605
    
    [GRAPHIC] [TIFF OMITTED] T8736.606
    
    [GRAPHIC] [TIFF OMITTED] T8736.607
    
    [GRAPHIC] [TIFF OMITTED] T8736.608
    
    [GRAPHIC] [TIFF OMITTED] T8736.609
    
    [GRAPHIC] [TIFF OMITTED] T8736.610
    
    [GRAPHIC] [TIFF OMITTED] T8736.611
    
    [GRAPHIC] [TIFF OMITTED] T8736.612
    
    [GRAPHIC] [TIFF OMITTED] T8736.613
    
    [GRAPHIC] [TIFF OMITTED] T8736.614
    
    [GRAPHIC] [TIFF OMITTED] T8736.615
    
    [GRAPHIC] [TIFF OMITTED] T8736.616
    
    [GRAPHIC] [TIFF OMITTED] T8736.617
    
    [GRAPHIC] [TIFF OMITTED] T8736.618
    
    [GRAPHIC] [TIFF OMITTED] T8736.619
    
    [GRAPHIC] [TIFF OMITTED] T8736.620
    
    [GRAPHIC] [TIFF OMITTED] T8736.621
    
    [GRAPHIC] [TIFF OMITTED] T8736.622
    
    [GRAPHIC] [TIFF OMITTED] T8736.623
    
    [GRAPHIC] [TIFF OMITTED] T8736.624
    
    [GRAPHIC] [TIFF OMITTED] T8736.625
    
    [GRAPHIC] [TIFF OMITTED] T8736.626
    
    [GRAPHIC] [TIFF OMITTED] T8736.627
    
    [GRAPHIC] [TIFF OMITTED] T8736.628
    
    [GRAPHIC] [TIFF OMITTED] T8736.629
    
    [GRAPHIC] [TIFF OMITTED] T8736.630
    
    [GRAPHIC] [TIFF OMITTED] T8736.631
    
    [GRAPHIC] [TIFF OMITTED] T8736.632
    
    [GRAPHIC] [TIFF OMITTED] T8736.633
    
    [GRAPHIC] [TIFF OMITTED] T8736.634
    
    [GRAPHIC] [TIFF OMITTED] T8736.635
    
    [GRAPHIC] [TIFF OMITTED] T8736.636
    
    [GRAPHIC] [TIFF OMITTED] T8736.637
    
    [GRAPHIC] [TIFF OMITTED] T8736.638
    
    [GRAPHIC] [TIFF OMITTED] T8736.639
    
    [GRAPHIC] [TIFF OMITTED] T8736.640
    
    [GRAPHIC] [TIFF OMITTED] T8736.641
    
    [GRAPHIC] [TIFF OMITTED] T8736.642
    
    [GRAPHIC] [TIFF OMITTED] T8736.643
    
    [GRAPHIC] [TIFF OMITTED] T8736.644
    
    Senator DeWine. Mr. Cogan, I notice that you have dedicated 
a significant amount of your time in the past few years to 
serving enlisted men and women prior to their deployments to 
Afghanistan and Iraq. Do you want to tell us about your service 
among these folks going into the armed service?
    Mr. Cogan. Yes, Senator. The New York Guard is a State of 
New York agency, a sister service to the New York National 
Guard. My unit is composed of volunteers, and although our 
military is entirely volunteers, my unit are unpaid volunteers, 
lawyers who go on to military bases on the eve of deployment 
and counsel soldiers and their families about their legal 
rights and needs. We draw wills and have them sign there. We 
draft living wills, do not resuscitate orders, and generally 
answer any questions they have so that they have peace of mind 
before they are deployed overseas.
    Senator DeWine. I am sure that must be very rewarding work. 
Mr. Cogan, you have spent a good part of your practice, your 
career, representing large corporations. Whoever comes to the 
bench brings a certain background, part of your background at 
least. How will you make that transition to, obviously, a 
different background of being a Federal judge?
    Mr. Cogan. Senator, thanks for that question. It is a good 
question. My practice has not at all been confined to major 
corporations. I have represented a number of individuals, many 
individuals of modest means, and also small businesses. I do 
quite a bit of that. I would say at the current time my 
practice is probably 50 percent small businesses. So I have 
seen quite a lot of diversity in the kinds of people I have 
represented, and through the volunteer work I have done, you 
know, I consider myself the lawyer for those soldiers. So I 
have seen all kinds of people in connection with my practice.
    Senator DeWine. You have had experience in the area of 
bankruptcy law, I see, and commercial litigation.
    Mr. Cogan. Yes, sir.
    Senator DeWine. Tell us a little bit about that, how that 
might have prepared you for this job.
    Mr. Cogan. It has given me a fair amount of trial work, 
Senator. As you know, everything in bankruptcy court, even a 
motion for an extension of time, can turn into a trial. And it 
has given me a range of small cases and very large cases, cases 
that have gone to the Second Circuit and cases that get no 
further than bankruptcy court.
    It has also given me a lot of international litigation 
exposure. I have done a lot of work with lawyers in foreign 
countries, and I know how their legal systems work.
    Senator DeWine. Mr. Barrett, you have handled some death 
penalty cases on both sides; is that correct?
    Mr. Barrett. Yes, Mr. Chairman.
    Senator DeWine. I don't know if that is totally unique, but 
some people go through their lifetime career and never handle a 
death penalty case on either side, I guess. How has that 
affected your view of an attorney's role or a judge's role 
within our legal system? And what, if anything, did you learn 
from these cases?
    Mr. Barrett. I think the most important thing that I have 
learned is the absolute need to be careful and make sure that 
all the I's are dotted and the T's are crossed and that all of 
the procedural requirements are met, and when there is so much 
on the line on either side of those cases, you have total 
concentration and you just can't spend enough time on them. And 
it has taught me to be very careful.
    Senator DeWine. The State v. Randall Ayers case, tell us a 
little bit about that case.
    Mr. Barrett. Your Honor, that was a case--due to an 
extraordinary set of circumstances, an identification was made 
of a defendant which later proved out to be incorrect after--
    Senator DeWine. You were the prosecutor or the defense 
lawyer.
    Mr. Barrett. I was the prosecutor, assistant prosecutor on 
that. And he was convicted, and several years later, a serial 
sexual assault defendant in another jurisdiction confessed to 
the crime. And I can't highlight what that meant to me in terms 
of trying to be careful, trying to understand cases, reliance 
on scientific evidence, where possible and where appropriate.
    Senator DeWine. You also have handled domestic relations 
cases. This is not the type case that you are probably going to 
be dealing with on the Federal bench, but what have you taken 
from the handling of this type case that might be of some 
assistance to you on the Federal bench?
    Mr. Barrett. One of the main things I think that I learned 
from my domestic relations practice is the benefit of alternate 
dispute resolution, trying to resolve cases through mediation 
or special settlement counsel. As the court is probably aware, 
a number of those cases are contentious and emotional, and it 
helps take the steam out of those if you have a mediator that 
can sit down with the parties and actually try to arrive at a 
resolution that benefits everybody, especially the children.
    Senator DeWine. Tell me a little bit about one of your 
first jobs right out of law school. You were an administrative 
hearing officer. What was that like?
    Mr. Barrett. That was very interesting, Your Honor. The 
State of Ohio had changed their entire job description 
classification code, and all of the State employees had an 
automatic right to appeal their new designations. And myself 
and a group of 30 other attorneys traveled around the State, 
and we conducted employee hearings at all of the State 
facilities from penal institutions to ODOT installations, and 
we determined the appropriateness of classifications and pay 
grades.
    Senator DeWine. That was right out of law school, was it?
    Mr. Barrett. Yes, it was a situation where there was a 
special House bill that was passed because they needed to get a 
number of attorneys on board very quickly, and the 
qualification was you had to be a law school graduate but did 
not have to actually be licensed in the State of Ohio yet. And 
as a result of that, I would say out of our group of attorneys 
that handled these cases, probably 95 percent of us were 
graduates waiting for the bar results and not licensed 
attorneys. But that was a real eye-opener to start with.
    Senator DeWine. Mr. Golden, for the last several years, you 
have served as the director of a group called Lawyers Concerned 
for Lawyers, Inc. What is that all about?
    Mr. Golden. Senator, that is the group formulated by the 
Pennsylvania Supreme Court to assist lawyers, impaired lawyers 
who have addiction problems, mental health problems. It sets up 
a confidential hotline, and trained counselors are then used to 
refer those folks who have problems to necessary treatment 
facilities and to programs to help in their rehabilitation.
    Senator DeWine. And how long have you served in that 
position?
    Mr. Golden. I believe, Senator, 5 years or 6 years.
    Senator DeWine. Your practice has been a more general 
practice; is that right?
    Mr. Golden. Yes, Senator. I started out as an insurance 
company defense lawyer doing civil litigation, and I did that 
for approximately 15 years, and it blossomed into commercial 
litigation, all types of litigation, and then my practice began 
to change and I came to represent a cross-section of a small 
town. Reading is a town of about 80,000, in a county of about 
400,000. And I represent businesses, banks, a college, and a 
lot of individuals. And through that I still maintained the 
litigation practice, but it diminished.
    Senator DeWine. Mr. Golden, you have been pretty active in 
the Bar Association, the county level, State level, too; is 
that right?
    Mr. Golden. Yes, sir.
    Senator DeWine. Do you want to tell us a little bit about 
that?
    Mr. Golden. Throughout my career as a lawyer, I have always 
been involved in bar activities. Initially, it was a wonderful 
way to get to know people. More importantly, it was a way to 
learn about the law from the practical side.
    For whatever reason, I ended up being selected for 
different positions in my local bar, and then later on assumed 
a role as a Governor on the Pennsylvania Bar Association Board. 
And from that I was asked to run for president of the bar, and 
I was president of the Pennsylvania Bar, which was a wonderful 
experience. I probably got more out of that than I ever gave 
back in it, and it allowed me to get to know so many people, so 
many great lawyers, be involved in all aspects of the legal 
profession, and realize that what we do as lawyers has a broad 
effect and a great effect on our society.
    Senator DeWine. My understanding is that, if confirmed, you 
would keep your--the chambers would be in Reading; is that 
correct?
    Mr. Golden. Yes, Senator.
    Senator DeWine. Is that your choice? Do you get to make 
that decision?
    Mr. Golden. Yes, Senator. Although we love the great city 
of Philadelphia, with all deference to Senator Specter, I am 
very pleased to remain in my community. This is an outlying--as 
Senator Santorum described, Berks County is at the westernmost 
edge of the Eastern District, and it is a huge inconvenience 
for lawyers and the party litigants and the witnesses to travel 
into Philadelphia. It is a wonderful opportunity for the local 
population to understand the Federal court system, to be 
exposed to the Federal court system, and it will be a real 
benefit for our community. I am more than happy to stay there, 
Senator.
    Senator DeWine. I was just curious how you handle that in 
Pennsylvania. Mr. Barrett will not get to make that decision in 
Ohio. So you get to make that decision in Pennsylvania.
    Mr. Golden. Senator--
    Senator DeWine. I am just giving you a hard time, Mr. 
Golden. Don't worry about that.
    [Laughter.]
    Mr. Golden. And I am enjoying it. No, I like Reading, so I 
am happy to be there.
    Senator DeWine. We want you to be where you want to be, I 
am sure.
    Let me ask you this: Mr. Cogan, why do you want to be a 
Federal judge?
    Mr. Cogan. Senator, I think that any litigator, or at least 
most litigators who want to do and have the financial ability 
to do public service, for any of us it is really the ideal job. 
There is no public service job that allows you to interact with 
the public on that level one on one to let them know that their 
opportunity to be part of the judicial system, to have their 
cases heard, to have someone listen to their grievances, will 
be carried out. That to me is an indispensable part that we 
bring when we become Federal judges, if we are fortunate enough 
to be confirmed, and it is a contribution that I don't think 
anything else is like.
    Senator DeWine. Mr. Barrett?
    Mr. Barrett. Thank you, Mr. Chairman. I have been engaged 
in trial practice for almost 30 years now in just about every 
kind of court, and I have dealt with a number of different 
types of litigants, their attorneys, and judges. And I have 
reached an age where I think that I have developed enough 
experience and enough ideas that, if I were fortunate enough to 
get this position, I could actually have a positive impact on 
issues such as docket control and case management, and I think 
I can make a positive contribution to the community, if I were 
lucky enough to be selected.
    Senator DeWine. Mr. Golden?
    Mr. Golden. Senator, as my colleagues have just said, being 
a Federal judge is a wonderful opportunity to give back. When 
you reach a certain point in your career and you have done an 
awful lot of things, I think every lawyer comes to the 
recognition that public service is part of what we do.
    To become a Federal judge is a wonderful opportunity for me 
to help my community, to give back, and to perform public 
service at a time in my life when I continue to--where I can 
continue to make a valuable contribution to my society.
    Senator DeWine. Mr. Golden, let me ask you the question we 
ask all the nominees. The Supreme Court and Federal circuit 
court precedents are, of course, binding on district courts. I 
must ask you: Are you committed and willing to follow the 
precedents of the higher courts faithfully and give them full 
force and effect even if you might personally disagree with 
those precedents?
    Mr. Golden. Absolutely, Senator.
    Senator DeWine. Mr. Barrett, same question.
    Mr. Barrett. Absolutely, Mr. Chairman.
    Senator DeWine. Mr. Cogan, same question.
    Mr. Cogan. Same answer.
    Senator DeWine. I have a statement from Senator Leahy which 
he would like to be made a part of the record. Without 
objection, it will be made a part of the record.
    Mr. Golden, one of the objections that lawyers sometimes 
have with Federal judges as well as with State judges is that 
the judge doesn't let them ``try their case.'' Occasionally, 
when I practiced law, many, many, many, many years ago, I used 
to be a prosecutor. I had some great judges, but once in a 
while I might have that objection. I might have been wrong 
about it, but do you want to react to that? What is your 
philosophy about how much leeway you give lawyers?
    Mr. Golden. I agree with you, Senator. I think it is a 
great comment, and when I do trial work, I think it is 
absolutely imperative for the judge to permit the lawyers to 
try their case. I also think it is imperative for the judge to 
be courteous. I think that the spirit of a courtroom is to make 
it fair for both sides, and in that spirit the lawyers must be 
given an opportunity to try their case.
    Senator DeWine. Mr. Barrett?
    Mr. Barrett. Mr. Chairman, I think that one of the most 
important things, having been on both sides of it in the 
courtroom, is whether you win or lose, you walk out of the 
courtroom feeling that you got fair treatment. And I think that 
the temperament of a judge and the way he allows the litigants 
to present the case according to their theory of the case, 
within certainly, you know, the appropriate constraints of the 
Rules of Evidence, I think that goes a long way in allowing the 
litigants and the parties to feel that they got a fair shake, 
no matter what the decision is.
    Senator DeWine. Mr. Cogan?
    Mr. Cogan. Senator, I would echo my colleagues' comments. I 
would note that anyone who has tried a number of cases has seen 
judges who take the case away from the litigants. That is 
something that I really think should be avoided if at all 
possible. As I said before, litigants have to feel that they 
had their hearing in court. Whether they prevail or not, they 
had their hearing. And when the judge takes the case away, they 
haven't had that chance.
    Senator DeWine. Mr. Cogan, tell me a little bit about your 
philosophy about settlements and how you would handle that, and 
with it you could also cover the related issue of docket 
management and how you would move cases along.
    Mr. Cogan. Senator, I believe it is the responsibility of a 
judge to actively manage his docket. That means two things: No. 
1, conferencing cases often, keeping a handle on what is going 
on, not allowing one side or the other in the case to employ 
dilatory tactics to the disadvantage of the other side. I also 
believe the judge has the responsibility, when possible, to 
facilitate settlement. I know that in the Eastern District of 
New York, there is a rule requiring mandatory ADR of all 
matters involving $100,000 or less, and, where appropriate, I 
would encourage litigants to explore alternative dispute 
resolution techniques.
    Senator DeWine. Mr. Barrett?
    Mr. Barrett. Mr. Chairman, I feel that docket management is 
a critical issue for judges to contend with, and I think that 
personal involvement in a number of issues as the case works 
its way through the system, such as discovery, keeps things on 
track. I agree with my colleague that frequent reports are also 
effective. Alternate dispute resolution is another means, 
whether it be arbitration or whether it be mediation, those 
types of things in appropriate cases can also speed the docket 
along. You have a balancing act between effective and timely 
docket management and also giving the parties time for 
preparation. And I think that as a result of courtroom 
experience, judges can tell what the appropriate amount of time 
is and when somebody is engaged in some sort of delaying tactic 
as opposed to actually having legitimate needs. So I think you 
have to be mindful of that.
    I often think that there is times where the lawyers in 
cases are looking for direction from a judge. They may ask for 
a legal--how does a judge feel about a certain legal issue, and 
that helps them advise their clients intelligently on where a 
case may end up. So I think, you know, when invited by counsel, 
I think a judge's intervention and becoming part of the process 
is also very helpful.
    Senator DeWine. Mr. Golden?
    Mr. Golden. Senator, in the Eastern District of 
Pennsylvania, there are several programs in existence already 
dealing with alternative dispute resolution, mediation, use of 
United States magistrates to help settle cases. I think the 
judge's obligation is to stay on top of his docket and make 
sure, as my colleagues have said, that it keeps moving. I think 
in today's world it is the only answer to expeditious handling 
of cases to make the whole system better. I would continue to 
employ the methods that exist and work hard to make sure that 
the cases under my jurisdiction move.
    Senator DeWine. Thank you very much.
    Let me thank you all for your testimony today. We 
appreciate it very much. Based on your records and certainly 
everything that I have heard today at the hearing, you all 
three seem very, very well qualified. I think you all will do a 
great job on the Federal bench.
    Let me just say that we are going to leave the record open 
for 1 week for members of the Committee to submit written 
questions to any of you. This means that the record will remain 
open until Wednesday, April 5th, at 5 p.m., at which time it 
will close. So there may be written questions submitted to you. 
If they are during that period of time, we would strongly 
suggest that you respond to those immediately and get those 
back to us, which will expedite our ability to handle your 
nomination.
    So we thank you all very, very much for your attention. We 
are glad that family members were here today. Good to see 
everybody. Everyone has stayed awake.
    [Laughter.]
    Senator DeWine. So far. And we appreciate all of you being 
here.
    Thank you very much.
    [Whereupon, at 10:13 a.m., the Committee was adjourned.]
    [A submission for the record follows.]
    [GRAPHIC] [TIFF OMITTED] T8736.645
    
                                 <all>

</pre></body></html>
